<html>
<title> - STATE OF THE HIGHWAY TRUST FUND: LONG-TERM SOLUTIONS FOR SOLVENCY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    STATE OF THE HIGHWAY TRUST FUND:

                    LONG-TERM SOLUTIONS FOR SOLVENCY
=======================================================================



                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 24, 2013

                               __________

                            Serial No. 113-5

                               __________

           Printed for the use of the Committee on the Budget


                       Available on the Internet:
                       www.gpo.gov/fdsys/browse/
            committee.action?chamber=house&committee=budget




                  U.S. GOVERNMENT PRINTING OFFICE
80-475                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        COMMITTEE ON THE BUDGET

                     PAUL RYAN, Wisconsin, Chairman
TOM PRICE, Georgia                   CHRIS VAN HOLLEN, Maryland,
SCOTT GARRETT, New Jersey              Ranking Minority Member
JOHN CAMPBELL, California            ALLYSON Y. SCHWARTZ, Pennsylvania
KEN CALVERT, California              JOHN A. YARMUTH, Kentucky
TOM COLE, Oklahoma                   BILL PASCRELL, Jr., New Jersey
TOM McCLINTOCK, California           TIM RYAN, Ohio
JAMES LANKFORD, Oklahoma             GWEN MOORE, Wisconsin
DIANE BLACK, Tennessee               KATHY CASTOR, Florida
REID J. RIBBLE, Wisconsin            JIM McDERMOTT, Washington
BILL FLORES, Texas                   BARBARA LEE, California
TODD ROKITA, Indiana                 DAVID N. CICILLINE, Rhode Island
ROB WOODALL, Georgia                 HAKEEM S. JEFFRIES, New York
MARSHA BLACKBURN, Tennessee          MARK POCAN, Wisconsin
ALAN NUNNELEE, Mississippi           MICHELLE LUJAN GRISHAM, New Mexico
E. SCOTT RIGELL, Virginia            JARED HUFFMAN, California
VICKY HARTZLER, Missouri             TONY CARDENAS, California
JACKIE WALORSKI, Indiana             EARL BLUMENAUER, Oregon
LUKE MESSER, Indiana                 KURT SCHRADER, Oregon
TOM RICE, South Carolina
ROGER WILLIAMS, Texas
SEAN P. DUFFY, Wisconsin

                           Professional Staff

                     Austin Smythe, Staff Director
                Thomas S. Kahn, Minority Staff Director



                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, April 24, 2013...................     1

    Hon. Paul Ryan, Chairman, Committee on the Budget............     1
        Prepared statement of....................................     2
    Hon. Chris Van Hollen, ranking member, Committee on the 
      Budget.....................................................     2
        Prepared statement of....................................     3
    Hon. Earl Blumenauer, a Representative in Congress from the 
      State of Oregon............................................     4
        Additional submissions:
            Prepared statement of................................     5
            Letter, dated February 2, 2012, to Messrs. Camp and 
              Levin, House Committee on Ways and Means...........    53
            Prepared statement of the American Road and 
              Transportation Builders Association (ARTBA), 
              Internet address to................................    67
            Question submitted for the record....................    67
    Robert W. Poole, Jr., director of transportation policy, 
      Reason Foundation..........................................     6
        Prepared statement of....................................     9
        Response to questions submitted for the record...........    72
    R. Richard Geddes, visiting scholar, American Enterprise 
      Institute; associate professor, department of policy 
      analysis and management and director, Cornell program in 
      infrastructure policy, Cornell University..................    15
        Prepared statement of....................................    16
    Janet F. Kavinoky, executive director, transportation and 
      infrastructure, U.S. Chamber of Commerce; vice president, 
      Americans for Transportation Mobility Coalition............    21
        Prepared statement of....................................    23
    Hon. Reid J. Ribble, a Representative in Congress from the 
      State of Wisconsin, submissions for the record:............
        Letter, dated April 24, 2013, from the Associated General 
          Contractors of America, et al..........................    48
        Press release, Associated Equipment Distributors (AED), 
          ``New Study Examines Fuel Efficiency Impact on Gas Tax 
          Receipts, Projects $365 Billion Highway Fund 
          Shortfall''............................................    49
        Letter, dated April 24, 2013, from the National 
          Association of Manufacturers (NAM).....................    50
        Letter, dated April 24, 2013, and prepared statement of 
          the National Stone, Sand & Gravel Association..........    50
        Letter, dated April 24, 2013, from the Portland Cement 
          Association (PCA)......................................    52
    Hon. Bill Pascrell, Jr., a Representative in Congress from 
      the State of New Jersey, submissions for the record:
        Fact sheet, ``Sustainable Financing for Transportation,'' 
          American Council of Engineering Companies..............    52
        Question submitted for the record........................    53
    Sarah Puro, Analyst for Surface Transportation Programs, 
      Congressional Budget Office (CBO), prepared statement for 
      the record.................................................    68


   STATE OF THE HIGHWAY TRUST FUND: LONG-TERM SOLUTIONS FOR SOLVENCY

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in room 
210, Cannon House Office Building, Hon. Paul Ryan, [chairman of 
the Committee] presiding.
    Present: Representatives Garrett, Lankford, Ribble, Rokita, 
Woodall, Nunnelee, Rice, Williams, Van Hollen, Pascrell, Lee, 
Jeffries, Lujan Grisham, Huffman, Blumenauer.
    Chairman Ryan. The hearing will come to order. The 
Committee will come to order. Welcome, everybody. I want to 
thank our witnesses for agreeing to testify and for traveling 
the distances they traveled to come here today. We appreciate 
your time, and we appreciate the fact that you are here to 
share your experience and your knowledge.
    Infrastructure is very important and vital to our economy. 
And government plays a vital role in our public infrastructure: 
our highways, our roads, our bridges. But the federal 
government has been neglecting this responsibility. It is 
spending record levels of taxpayer dollars; in many cases it is 
not spending them wisely. In fact, it recently abandoned the 
key principle that we limit highway spending to what people pay 
to drive on them.
    The Highway Trust Fund is yet again going broke. This 
problem has been building for years. In the 1990s, Congress set 
a floor on spending but it did not set a ceiling, and so the 
gap between spending and revenue continue to grow, on average 
by $1 billion a year over the last decade, while gas-tax 
receipts stalled. In the next decade, the CBO anticipates the 
gap to widen. It expects the Highway Trust Fund to run annual 
cash deficits of $13 billion to $14 billion. And under current 
law, the trust fund cannot incur negative balance. So if funds 
get too low, spending will automatically decrease, and the 
Department of Transportation will ration spending to the 
States.
    If we continue to do what we have done until last year, we 
will bail out the Highway trust fund with more borrowed money, 
and it would not be the first time. We bailed out the trust 
fund multiple times over the years to the tune of $41 billion 
since 2008, in addition to the $27.5 billion in the stimulus. 
Last year when we did MAP-21, it included some much-needed 
reforms and the most recent bill. MAP-21 included $19 billion 
in General Fund transfers; that is not necessarily new, but 
what was new, and to its credit, was for the first time, the 
cost of the General Fund transfers were offset in MAP-21. 
Despite these large infusions, however, CBO estimates that the 
trust fund will go bankrupt sometime in the fiscal year 2015 
under current law.
    I want to thank Mr. Blumenauer for requesting this hearing. 
On our side of the aisle, we have three members of the 
Transportation and Infrastructure Committee. I hope that we can 
learn more today about the financial problems that we are about 
to experience in the Highway Trust Fund and some of the 
solutions to ensure its solvency. Unfortunately, those of us on 
Ways and Means have a very pressing mark-up, so I am going to 
turn the gavel over to Congressman Garrett for the remainder of 
the hearing, but I also know that I speak for the entire 
committee when I say I look forward to your insights on how to 
fix this problem. I want to thank you very much for coming, and 
I ask unanimous consent that all members have seven days in 
which to submit in written statements for the record. And 
without objection, so ordered. And with that, I would like to 
yield to Ranking Member Mr. Van Hollen.
    [The prepared statement of Chairman Paul Ryan follows:]

Prepared Statement of Hon. Paul Ryan, Chairman, Committee on the Budget

    Welcome, everybody. I want to thank our witnesses for agreeing to 
testify. We appreciate your taking the time to share your expertise.
    Infrastructure is an important part of our economy. Government 
plays a role in our public infrastructure--our highways, our roads, our 
bridges. But the federal government is neglecting this responsibility. 
It's spending record levels of taxpayer dollars. And it's not spending 
them wisely. In fact, it recently abandoned a key principle: that we 
limit highway spending to what people pay to drive on them.
    The Highway Trust Fund is broke. This problem has been building for 
years. In the 90s, Congress set a floor on spending. But it didn't set 
a ceiling. So the gap between spending and revenue continued to grow--
on average, by $1 billion a year over the last decade--while gas-tax 
receipts stalled. In the next decade, the CBO anticipates the gap to 
widen. It expects the Highway Trust Fund to run annual cash deficits of 
$13 to $14 billion.
    Under current law, the trust fund can't incur a negative balance. 
So if funds get too low, spending will automatically decrease, and the 
Department of Transportation will ration money to states. If we 
continue what we've done until last year, we'll bail the highway fund 
out with borrowed money.
    And it wouldn't be the first time. We've bailed out the trust fund 
multiple times over the years--to the tune of $41 billion since 2008--
in addition to $27.5 billion in the stimulus. Though it included some 
needed reforms, the most recent surface-transportation reauthorization 
bill, MAP-21, included $19 billion in general-fund transfers. Now, to 
its credit, for the first time, the cost of the general-fund transfers 
were offset in MAP-21. Despite these large infusions, however, CBO 
estimates the trust fund will go bankrupt sometime in fiscal year 2015 
under current law.
    I want to thank Mr. Blumenauer for requesting this hearing. On our 
side of the aisle, we have three members of the Transportation and 
Infrastructure Committee. I hope we can learn more today about the 
financial problems the highway trust fund faces and solutions to ensure 
this program's solvency.
    Unfortunately, I have a mark-up at the Ways and Means Committee, so 
I'm going to turn the gavel over to Congressman Garrett for the 
remainder of the hearing. I know I speak for the entire Committee when 
I say we look forward to your insights on how to solve this problem. I 
ask unanimous consent that all members have seven days to submit 
statements for the record. Thank you very much for coming, and we look 
forward to your suggestions.
    With that, I yield to the ranking member, Mr. Van Hollen.

    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
calling the hearing on this very important matter. I want to 
join the Chairman in welcoming our witnesses today, and in 
thanking Congressman Earl Blumenauer for his laser-like focus 
on this issue. This is an issue of concern to all members of 
the Committee, but I appreciate his persistence in calling for 
the hearing, and at the end of my very brief remarks, I am 
going to yield him a minute just to make a brief opener. And I 
think if you look historically, from the beginning days of this 
Republic, the idea that the federal government should invest in 
our national infrastructure for the purpose of building our 
economy and maintaining our economic competitiveness has been a 
bipartisan idea; back from the building of the canals, to the 
inter-continental railroad, to the highway system, those are 
things that have brought people together. And I hope we can 
move forward in that same kind of spirit as we meet the 
challenges ahead.
    Look, the American Society for Civil Engineers has looked 
at our national infrastructure and given it the abysmal grade 
of a D, D as in dog, plus. They looked at our highway and 
transit systems and gave them a grade of a D; bridges, C-plus; 
grades that none of us should be pleased with. At the same time 
we have 15 percent unemployment in the construction industry. 
So, it is a no-brainer that we would increase our investment 
here in our national infrastructure in order to meet these 
needs, as well as help put more people back to work. And that 
is exactly why the budget that House Democrats put forward, the 
budget the president put forward, the Senate Democrats put 
forward, did two things. Number one, it had a $50 billion 
investment, immediate investment, in our national 
infrastructure. And it would have funded the transportation 
fund and the highway programs specifically, at the current 
baseline levels. As opposed, unfortunately, to the House 
Republican budget that would have cut that by 25 percent over 
10 years; real, negative consequences to our national 
infrastructure. And I hope that we can go to conference on the 
budget so that we can begin to iron out some of those important 
differences.
    But with that, Mr. Chairman, if I could just yield the last 
minute of my opening statement to Mr. Blumenauer. We will have 
opportunities for questions, but I did want to ask him to say a 
few words.
    [The prepared statement of Chris Van Hollen follows:]

      Prepared Statement of Hon. Chris Van Hollen, Ranking Member,
                        Committee on the Budget

    Thank you, Mr. Chairman, and thank you for calling a hearing on 
this very important matter. I want to join the Chairman in welcoming 
our witnesses today and in thanking Congressman Earl Blumenauer for his 
laser-like focus on this issue. This is an issue of concern to all 
Members of the Committee, but I appreciate his persistence in calling 
for the hearing, and at the end of my very brief remarks I'm going to 
yield him a minute just to make a brief opener. And I think if you look 
historically from the beginning days of this republic, the idea that 
the federal government should invest in our national infrastructure for 
the purpose of building our economy and maintaining our economic 
competitiveness has been a bipartisan idea.
    Back from the building of the canals to the [Transcontinental] 
Railroad to the highway system, those are things that have brought 
people together. And I hope we can move forward in that same kind of 
spirit as we meet the challenges ahead.
    Look, the American Society for Civil Engineers has looked at our 
national infrastructure and given it the dismal grade of D--`D' as in 
`dog'--plus. They have looked at our highway and transit systems and 
gave them a grade of a D. Bridges, C-plus--grades that none of us 
should be pleased with. At the same time we have 15 percent 
unemployment in the construction industry. So it's a no-brainer that we 
would increase our investment here in our national infrastructure in 
order to meet these needs, as well as help put more people back to 
work.
    And that's exactly why the budget that House Democrats put forward, 
the budget the President put forward, and that Senate Democrats put 
forward, did two things. Number one, it had a $50 billion investment, 
immediate investment, in our national infrastructure, and it would have 
funded the transportation fund and the highway programs specifically at 
the current baseline levels. As opposed, unfortunately, to the House 
Republican budget, that would have cut that by 25 percent over 10 
years. Real, negative consequences to our national infrastructure. And 
I hope that we can go to conference on the budget so we can begin to 
iron out some of those important differences.
    But with that, Mr. Chairman, if I could just yield the last minute 
of my opening statement to Mr. Blumenauer, we'll also have 
opportunities for questions, but I did want to ask him to say a few 
words.

    Mr. Blumenauer. The time that I am yielded is what? Okay. 
Thank you.
    Well, I appreciate your courtesy, and I deeply appreciate 
having this hearing. I hope that it is the first of several 
hearings that we have on the Budget Committee dealing with 
infrastructure finance. We are all rightly concerned about the 
fiscal deficit, and I think it takes a lot of our time and 
attention. But I hope that we are able to spend some time on 
this Committee on the infrastructure deficit, which is large 
and growing larger.
    It was not very long ago that the American transportation 
systems were the envy of the world. Interstate highway systems, 
aviation, railroads, even the electric grid, set us apart. But 
that has not been the case for years. Now, part of what is 
going to be discussed today will be a philosophical effort, is 
whether it is time that we scale down the federal role, that it 
is turned back to the states and local governments, and allow 
them to locally tax and plan. And I welcome that conversation. 
I think it is an important one. We have had experiments with 
that in the past, like the first 50 years of railroads in this 
country, which resulted in different gauges of rail, gaps in 
the system, and resulted in local governments and some 
businesses taking advantage of their neighbors because they 
could make more money. I think it is fair to listen to some of 
our friends here and think about that.
    But at the same time, there are two issues that I hope that 
we put on the table. One is the simple fact that we have not 
been investing enough. The Highway Trust Fund is not going 
bankrupt, but it moves into a negative balance. And that is 
because we have not adjusted the funding mechanism for 20 
years. We need more federal resources. I welcome the notion 
that maybe we look at a vehicle mile travel, because the 
gallons of fuel consumed no longer really represents the value 
of the transportation that is provided. And I think that there 
is a lot of common ground here, because in the next 10 years, 
we have got to go to a different system, because that is going 
to put us into a downward spiral, and there is a potential to 
modify our behaviors accordingly, and I look forward to that 
conversation.
    But I think it is critical that we look at a national 
system, that there are many areas where we have bi-state or 
tri-state, where it is not in any one community's interest, it 
is in the national interest to make these pieces transparent 
and seamless, and work for us all. It is important that we have 
a system that provides credit for a trip not taken, which may 
be the cheapest way to expand our capacity.
    I appreciate the hearing; I hope that this is the beginning 
of a longer conversation about what the federal role should be, 
what the funding levels should be, and to be able to hear not 
just from these three witnesses, but there are a wide range of 
people that want to be heard on this issue before this 
Committee. And Mr. Chairman, I would respectfully ask unanimous 
consent that we hold the record open for a week.
    [The prepared statement of Mr. Blumenauer follows:]

    Prepared Statement of Hon. Earl Blumenauer, a Representative in 
                   Congress From the State of Oregon

    I hope today's Budget Committee hearing marks the beginning of a 
wider, more robust conversation on the budget, specifically 
transportation infrastructure.
    The committee has been deeply concerned about the budget deficit 
and appropriately so, but not enough attention has been paid to our 
infrastructure deficit. The federal government has largely failed to 
maintain a system of aviation facilities, the electrical grid, sewer 
and water systems, and interstate highways that once was the envy of 
the world. That is a claim that is harder to make today, and its status 
and condition continues to deteriorate.
    The majority witnesses focus time their time and energy arguing for 
devolution--the concept that we don't need a strong federal presence 
and support in infrastructure development. They argue that it will be 
taken care by the individual decisions of the 50 states, the District 
of Columbia, and local governments across America. The fact is that the 
networks (sewer, road, aviation, and rail) were all created by strong 
federal policy and investment.
    America had a 50 year experiment with devolution, local control 
over infrastructure. We had different gage tracks, missing segments. We 
had local and commercial interests holding their neighbor hostage 
because they made more money not having a smooth, transparent, seamless 
transportation system. The country as a whole was poorer, but 
individual communities and private interest made lots of money based on 
that dysfunctionality.
    I have no quarrel with the notion that we can and should do better. 
I think an independent review of state and local infrastructure 
decisions will suggest that where investment has been left exclusively 
to state and local governments, they were certainly no more visionary, 
they were no less corrupt and inept, and there was no rational reason 
for them to help their neighbors either near or far.
    We are on a path for significant reduction in infrastructure 
investment. Over the next 20 years, greater fuel efficiency and 
alternative vehicle modes put on a path to collect even less money. We 
are breaking the linkage between payment for road use and gallons of 
fuel consumed. It sketches an alternative scenario where we can fairly 
and efficiently collect revenues based on use rather than gallons of 
fuel consumed. It is the wave of the future. My state of Oregon is 
experimenting with some pilot projects in that regard and I look 
forward to this Congress expanding on those pilot projects. The 
potential of unleashing a huge wave of revenue generation and an 
intelligently managed transportation system with closely aligned 
benefits and costs. Many people will adjust their travel behaviors 
accordingly and it is one of the most efficient ways to get more out of 
the existing infrastructure.
    Many, important centers of commerce are bi-state, in some areas 
multi-state--New York, New Jersey, Connecticut, Kansas City, Missouri, 
Iowa, Illinois, in my own backyard Oregon and Washington--and this 
makes it difficult for state and local governments to identify and pay 
for system-wide benefits. There is an also a national advantage if 
areas of the country like Chicago or Los Angeles make massive 
investment in their ports that benefit other parts of the country, but 
that's a tough sell to local officials and their constituents when 
``they're already got theirs''.
    Indeed, improvements to freight movement that would benefit the 
entire nation, which we attempted in the recent highway extension, are 
in many cases aggressively opposed by local interests. Anybody who has 
ever been a city councilmember or a city commissioner knows that as 
vital as truck movements are (virtually every freight movement includes 
a truck), they are not popular. Because we are a vast nation, states 
have different needs at different times. States would be hard pressed 
to make investments at exactly the time they should because the local 
economy is bad. It beats trying to cut the gas tax when there was a 
spike in gasoline prices.
    A quick look at the national situation right now reveals a lack of 
appreciation and leadership from Congress. We are ignoring the 
quickest, fastest, most efficient way to get America back to work 
through local construction to improve roads, bridges, transit. 
Infrastructure investment would put millions of people to work while it 
strengthens local economy, the environment, and our national 
competitiveness.
    When the United States is perceived by people who control hundreds 
of billions of dollars as the safest location for their money, people 
literally give us billions of dollars essentially for free given the 
low interest rates and modest inflationary pressures. A rational 
government would be borrowing and investing using other peoples' money 
for free to make our system stronger. But we're not.
    We need a national system that speaks to the transportation 
challenges of today. The current system dramatically undervalues 
investments that result in somebody not being on the road, somebody not 
being in a car in front of you idling at a traffic bottleneck, or 
fighting you for a parking space at the end of the journey. In larger 
metropolitan areas where networks are stressed, where land is at a 
premium, taking more private property to put more cars in pinch points 
is extraordinarily controversial and has arguably not been effective in 
facilitating movement, or reducing congestion or pollution. Making it 
possible for someone to take mass transit, Amtrak, walk, or bike is the 
fastest, cheapest, most environmentally benign way to facilitate 
movement of goods that have no alternative and for people that cannot 
or choose not to move away from their car.
    One of the most important trends in America is that people are 
driving less per capita. This is very much the case with younger 
drivers. Recent analysis shows a dramatic reduction in VMT, a 40% 
increase in young people's transit utilization, and a 25% increase in 
cycling. They are even getting fewer drivers licenses; a stark change 
from my generation when you camped out the night before you turned 16 
at the local DMV so that you could be the first one through the door to 
take the test and get your license. I believe this is a lasting change.
    I welcome this conversation. I look forward to this being the 
beginning of the budget committee doing its work with the critical 
arena of infrastructure finance, the opportunities, and the national 
priorities for us to do our job.
    I hope that we will be able to expand our hearings and our analysis 
to hear from the amazing array of people who make their living 
building, managing, coping with infrastructure or trying to use what is 
not necessarily there.

    Mr. Garrett [presiding]. I will put that in my opening 
statement.
    Mr. Blumenauer. Thank you, sir.
    Mr. Garrett. In my closing as well.
    Mr. Blumenauer. I yield back.
    Mr. Garrett. The gentleman yields back. And at this time we 
welcome our witnesses to the panel, and we thank you. We are 
here, as Mr. Blumenauer says, to have a great debate on these 
issues from the various proposals that may be coming before us. 
And we will start with Mr. Poole, and as with all the 
witnesses, of course, you are recognized for five minutes, and 
your full statement will be entered, without objection, into 
the record and we will look to your statement now in five 
minutes. The gentleman is recognized.

STATEMENTS OF ROBERT POOLE, SEARLE FREEDOM TRUST TRANSPORTATION 
     FELLOW AND DIRECTOR OF TRANSPORTATION POLICY, REASON 
FOUNDATION; R. RICHARD GEDDES, DIRECTOR OF THE CORNELL PROGRAM 
   IN INFRASTRUCTURE POLICY AND ASSOCIATE PROFESSOR, CORNELL 
      UNIVERSITY; JANET F. KAVINOKY, EXECUTIVE DIRECTOR, 
 TRANSPORTATION AND INFRASTRUCTURE, U.S. CHAMBER OF COMMERCE, 
VICE PRESIDENT, AMERICANS FOR TRANSPORTATION MOBILITY COALITION

                   STATEMENT OF ROBERT POOLE

    Mr. Poole. Thank you, Mr. Garrett, Ranking Member Van 
Hollen. I appreciate the opportunity to talk with you this 
morning about this very, very important question. Let me start 
by noting that similar problems to the ones facing the Highway 
Trust Fund also exist with the other three federal 
transportation trust funds: the Aviation Trust Fund, the Harbor 
Trust Fund, and the Waterways Trust Fund. And so I second 
Congressman Blumenauer's recommendation that this Committee 
look at all of those trust funds, not just the Highway Trust 
Fund, because this has huge consequences and major problems 
that need to be fixed.
    The major problem facing the Highway Trust Fund today is 
how can America increase productive investment in 
transportation infrastructure while simultaneously reducing the 
scope of federal spending? The Trust Fund began with a single 
purpose, and that was to enable highway users to pay for 
constructing a national interstate highway network. 
Unfortunately, in my view, over time, that program evolved into 
what has become an all-purpose transportation public works 
program. And as it lost its focus, it also lost public support. 
It is almost impossible to get public support to increase 
federal fuel taxes today, and I think that ties directly to the 
fact that the program lost focus and does not really have an 
objective that Americans can get behind.
    And I think that also is a clue as to why the trust fund is 
on the verge of insolvency. In the SAFETEA-LU reauthorization, 
Congress deliberately increased outlays beyond what the 
projections of the time showed would come in in fuel tax 
revenue. They did this by planning by, and doing, spending down 
the $15 billion accumulated balance in the trust fund, which is 
basically gone now. So then what happened, when we got to the 
recession, that higher spending level had become what states 
expected to get, became the new norm, and that led to the 
political pressure to subsidize the trust fund with General 
Fund money, which, is my view, is not sustainable in the 
federal government's fiscal condition.
    In my written testimony, I present two, what I consider, 
near-term alternatives for dealing with this. The first would 
be to return the Highway Trust Fund to highways only. That 
sounds like a radical idea, but hear me out. CBO projections 
show that there is enough highway user revenue projected to 
come in over the next decade to support the highway program. 
The numbers work, and they are in the written testimony. 
General Fund money is only needed if all the non-highway 
programs are to be continued as part of the trust fund's 
obligation. So I propose eliminating the middle man and, 
basically, giving the General Fund money directly to transit, 
to the FTA, and restoring the Highway Trust Fund to be a users 
pay, users benefit endeavor that it was originally started to 
be. And another idea to consider is if the FTA is shifted to 
General Fund support, it might make sense to relocate it to the 
Department of Housing and Urban Development, where it began as 
the Urban Mass Transportation Administration. And that would be 
consistent with the increasing emphasis of FTA on smart growth, 
community economic development, and so forth. So that is my 
first alternative.
    The other alternative would restructure somewhat further 
than that, and that would be to refocus the Highway Trust Fund 
on interstate commerce transportation only. That would mean a 
lot more money could be spent on those critically important, 
the interstates and the National Highway System corridors that 
desperately need more investment. This function would be part 
of a general re-ordering of what the federal government's 
responsibility is, redefining the federal role, not just in 
transportation, but in other areas as well; sorting out what is 
truly federal, what is properly state, and what is properly 
local. Interstate highways, National Highway System, for the 
most part, are truly federal. Most other highways are state, 
inherently. And streets and transit are inherently the province 
of local communities, local governments. Making that kind of 
shift would obviously be a big change for the states and metro 
areas, and it would be incumbent on Congress, if it does this, 
to give the states more tools to do a better job with funding 
productive transportation infrastructure.
    One way to do that would be on the revenue side. The single 
biggest thing the next re-authorization could do would be to 
remove the remaining federal ban on tolling interstate highways 
for the purpose of reconstruction and modernization; not as a 
general funding source for all kinds of things, but for the 
specific purpose, which I think the American public would get 
behind, of giving us a 21st century interstate highway system. 
And that would make a huge difference. Also, because public-
private partnerships could play an increasing role in helping 
states and localities do more with less, the next re-
authorization should strengthen the TIFIA loan program, which 
has been very successful, and expand the tax-exempt private 
activity bond availability for these kinds of PPP 
transportation infrastructure projects. In addition, those 
highways that were removed from the federal aid system would be 
freed from the costly regulatory burdens that any dollar of 
federal aid brings with it, and so the states could do more 
with less in that sense, also.
    Looking to the longer term, it is very clear to just about 
everyone in Transportation that we need to transition from per 
gallon taxes to per mile charges, as Congressman Blumenauer 
rightly said, because the fuel tax system is not sustainable on 
a long-term basis. The states are already taking the lead with 
research and pilot programs, and this federal support, and I 
think that is really the best way forward. I do not believe we 
should have a massive federal top-down program imposed on the 
states to do this. But the states are very actively pursuing 
this. All the State DOTs know that they cannot continue with 
fuel taxes for more than the next 10 or 15 years. Congress 
should encourage more of this; allowing the more advanced State 
DOTs and transportation institutes to figure out, by trial and 
error, which forms of implementing per-mile charges would be 
most politically feasible and most economically feasible. And 
it is not, in my view, going to be a mandated big brother box 
in every car, tracking every moment. That is not going to fly, 
will not happen, should not happen. But there are other ways 
out there, and I addressed some of them in my written 
testimony.
    And finally, as the nation transitions to mileage-based 
user fees, we will have to confront the question of whether, at 
that point, we still need a Federal Highway Trust Fund. Once 
all states can charge all highway users for every mile driven, 
it is not clear that there will still be a need to collect the 
money, send it to Washington, and redistribute it among the 
states. And there is new research cited in my written testimony 
that finds that what we are doing now, we are actually shifting 
money from lower income states to higher income states through 
the Federal Highway Program, and favoring rural states, which 
have lower transportation needs, over states with heavy urban 
needs. So this suggest it is really, really time to rethink the 
federal program, and we will need to do that as we move towards 
mileage-based user fees.
    That concludes my prepared remarks, and I would be happy to 
entertain questions at whatever time is appropriate. Thank you 
very much.
    [The prepared statement of Robert Poole follows:]

        Prepared Statement of Robert W. Poole, Jr., Director of
                Transportation Policy, Reason Foundation

    I am Robert Poole, Director of Transportation Policy at the Reason 
Foundation. Since the mid-1980s I have been researching transportation 
policy, including problems of funding and finance. I was a member of 
the Transportation Research Board's special committee on the long-term 
viability of fuel taxes as the principal funding source for highways. 
And I am currently a member of two TRB standing committees, one on 
congestion pricing and the other on managed lanes. I am a member of the 
board of the American Road & Transportation Builders Association PPP 
Division, and I am an advisor to the International Bridge, Tunnel & 
Turnpike Association.
                                context
    Before addressing the future of the Highway Trust Fund, I would 
like to provide some context about the federal role in transportation 
infrastructure overall. The federal government has entered a new era of 
fiscal stress, with many experts viewing the federal budget as being 
out of control, as illustrated by the unprecedented growth of the 
national debt and large-scale budget deficits years after the recession 
officially ended. When it comes to transportation infrastructure, we 
are faced with the conflicting needs to reduce the scope of federal 
spending while at the same time increasing productive investment in 
transportation infrastructure.
    At a time like this, it is appropriate to step back and take a 
fresh look at how the federal government invests in this 
infrastructure. We have four major transportation trust funds: the 
Aviation Trust Fund, the Highway Trust Fund, the Harbor Maintenance 
Trust Fund, and the Inland Waterways Trust Fund. Each is the recipient 
of mode-specific user taxes which are supposed to be used only for 
investment in that mode of infrastructure.
    While all four trust funds do make investments in their respective 
forms of infrastructure, all share a set of fundamental problems, which 
lead to far less than optimal results in terms of maximizing productive 
investment--i.e., getting the most bang for the buck. In a recent 
Reason Foundation report,\1\ I identified these problems as follows:
    1. Because the user taxes are legally taxes, Congress is reluctant 
to increase their rates, even though in many cases more investment is 
needed.
    2. Each of these trust funds involves significant redistribution--
from one part of the country to another, or from one subset of users to 
another--creating winners and losers and often leading to investments 
whose benefits are less than their costs.
    3. Federal involvement significantly increases the cost of projects 
that use federal dollars, due to numerous regulatory requirements, such 
as Davis-Bacon and Buy America.
    4. The emphasis in these programs on new capacity tends to bias 
state and local decisions against maintenance and in favor of capital-
intensive projects using what is perceived as ``free federal money.''
    5. Finally, these federal programs encourage large-scale capital 
projects to be paid for on a cash basis, rather than being financed and 
paid for over time, as users derive benefits from the improved 
infrastructure.
    Consequently, as we look to solve both the budget problem and the 
infrastructure investment problem, it is appropriate to critically 
examine the user-tax/trust-fund/federal-grant model in each of these 
modes of transportation infrastructure. Is this model actually the best 
we can do to make cost-effective investments in vitally needed 
infrastructure? Let me suggest that the Budget Committee address this 
larger question, and the other transportation infrastructure trust 
funds, in addition to today's topic of the Highway Trust Fund.
                  evolution of the highway trust fund
    The Highway Trust Fund (HTF) was created by legislation in 1956 for 
a single purpose: to have highway users pay for creating the new 
Interstate Highway System. It authorized a set of new federal highway 
user taxes, primarily on gasoline and diesel fuel, the proceeds of 
which would be accounted for in the HTF and used to build the 
Interstate system. Grants were made available to all states via a 
formula, with the states having to provide a 10% match, to build their 
portions of this national system. The states own the resulting 
highways, but were required to build them to federal standards and 
operate them as a system.
    As the Interstates went into operation, a growing economy and 
periodic increases in the fuel tax rates produced steady growth in fuel 
tax revenues, so Congress began hearing pleas from states to permit HTF 
monies to be used for other highways in addition to the Interstates. 
Each time Congress reauthorized the program, additional uses were 
approved, with the program turning into a general highway-improvement 
program by the early 1970s. In 1973, Congress permitted HTF monies to 
be used for buses and for rail transit facilities, as well as allowing 
states to withdraw a planned urban Interstate and build a transit line 
instead. But the biggest turning point came in 1982, when DOT Secretary 
Drew Lewis, seeking urban votes to support a fuel tax increase, 
promised mayors that 20% of the revenue from the increase would be 
dedicated to a new transit account in the HTF. The changes from 1973 to 
1982 represented a major shift away from the users-pay/users-benefit 
model, in which revenues from highway users benefitted only highway 
users. Especially after the 1991 ISTEA legislation, it became a system 
in which highway users are the source of federal funding for an ever-
increasing array of purposes: transit, sidewalks, bikeways, 
recreational trails, etc.
    By the late 2000s, about 23% of total HTF money was being spent on 
non-highway purposes, including urban transit, safety regulation 
(FMSCA, NHTSA), ``enhancements,'' and miscellaneous spending (including 
the Congestion Mitigation and Air Quality program and monies states 
were allowed to shift from highways to transit under the Surface 
Transportation program).\2\
    When the credit crunch of 2007-08 triggered what some have called 
the Great Recession, the combination of high fuel prices and fewer 
people employed led to an unexpected reduction in driving (measured as 
vehicle miles of travel--VMT). The reduced VMT along with gradually 
increasing fuel economy led to significantly less federal and state 
fuel tax revenues than had been projected at the time of the previous 
reauthorization legislation, SAFETEA-LU, in 2005. Moreover, Congress 
made the problem worse by allocating more funding than the projected 
HTF revenues, by spending down most of the rather sizeable surplus in 
the Trust Fund.
    Thus, when Congress was unable to agree on a successor bill during 
the recession, the continuing resolutions it passed to keep HTF monies 
flowing included significant infusions of general fund revenue, in 
addition to the Administration's stimulus funding. These inflows into 
the HTF, averaging about $7 billion per year from 2008 through 2011, 
disguised the nature of the problem of spending that was growing far 
beyond what highway user taxes were providing. Thus, what had 
historically been a self-supporting program, in which federal highway-
user revenues exceeded federal highway spending,\3\ for the first time 
could be portrayed as a program in which general taxpayers were 
subsidizing highway users.
    State DOTs got used to receiving unprecedented sums during the era 
of SAFETEA-LU and its extensions. FHWA highway statistics provide the 
following revenue and spending figures for the HTF's Highway and 
Transit Accounts:


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                       Revenues minus
                              Year                                  Highway Spending      Transit Spending      User-Tax Revenues         Spending
--------------------------------------------------------------------------------------------------------------------------------------------------------
2005............................................................         $33.1 billion          $6.8 billion         $37.8 billion         -$2.1 billion
2006............................................................         $32.5 billion          $3.3 billion         $38.2 billion          $2.4 billion
2007............................................................         $34.7 billion          $4.4 billion         $39.4 billion          $0.3 billion
2008............................................................         $37.0 billion          $6.0 billion         $36.4 billion         -$6.6 billion
2009............................................................         $37.6 billion          $7.3 billion         $35.1 billion         -$9.8 billion
2010............................................................         $32.0 billion          $7.4 billion         $35.0 billion         -$4.4 billion
2011............................................................         $36.2 billion          $8.3 billion         $36.9 billion         -$7.6 billion
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: FHWA highway statistics Table FE-210

    The figures above show that in nearly every year of this period, 
highway plus transit spending exceeded the revenues from highway user 
taxes. The difference was made up initially by Congress spending down 
the accumulated balance in the HTF, which had peaked at over $15 
billion prior to the recession, and subsequently by stimulus funds. But 
looking ahead, with the HTF balance nearly gone, and no further 
stimulus program in sight, the Congressional Budget Office projects 
that the HTF will start showing a negative balance in 2015 and 
increasing each year thereafter. This projection assumes that the 
spending established in MAP-21 for 2013 and 2014 becomes the new 
baseline and is annually adjusted for inflation. Highway user revenues 
are projected at between $38 billion and $40.8 billion per year over 
this period, but highway plus transit spending from the Trust Fund, 
from the MAP-21 baseline, is projected to be about $49.6 billion per 
year.
           near-term alternatives for the highway trust fund
    There is no painless way out of the dilemma facing the HTF in 
coming years. There seems to be very little political support for 
increasing federal fuel taxes, and no other source of new revenue is on 
the horizon. In this section I will describe two near-term approaches 
that could be part of the next surface transportation reauthorization 
bill. Neither would solve the longer-term problem, which I will address 
in a subsequent section.
                 return the trust fund to highways only
    This approach would recognize that the size of the annual shortfall 
is approximately the amount of highway user-tax revenue devoted each 
year to the HTF's Transit Account and other non-highway programs. The 
10-year CBO projection shows annual highway contract authority at $41 
billion, and the sum of revenues and interest allocated to the Highway 
Account and the Transit Account as averaging $40.1 billion per year. 
Thus, 98% of the baseline highway spending level could be met by the 
projected highway user-tax revenue projected for this 10-year period. 
(And the Highway Account could also cease funding non-highway programs 
such as CMAQ and Transportation Alternatives.)
    How would transit be funded if there were no longer a Transit 
Account in the HTF? In the short term, Congress could allocate general-
fund money directly to the Federal Transit Administration, rather than 
putting that same amount of general-fund money into the HTF's Transit 
Account. This is probably not a sustainable long-term solution, given 
the pressures on federal general-fund spending due to the overall 
budget situation. But it would be intended as a transition measure, 
providing time (the duration of the next reauthorization) to come up 
with a longer-term solution for transit.
    The current Administration's focus on livability and 
sustainability, including FTA's active encouragement of local streetcar 
projects and economic development, suggests a possible alternative home 
for the FTA as part of the Department of Housing & Urban Development. 
Indeed, the FTA's predecessor, the Urban Mass Transportation 
Administration, was originally part of HUD, and was only transferred to 
the U.S. DOT during the Carter Administration. HUD is supported by 
general revenues, but FTA would be a relatively small addition to HUD's 
$45 billion budget.
         refocus the highway trust fund on interstate commerce
    The second alternative goes somewhat beyond the first. As part of 
the overall rethinking of the federal government's role that needs to 
take place this decade, the roles of federal, state, and local 
governments need to be sorted out, such that each does the tasks most 
appropriate for that level of government. The federal government should 
concentrate on major, nationwide issues, such as its constitutionally 
authorized role of ensuring the free flow of interstate commerce. That, 
along with the power to establish post roads, appears to provide a 
sound justification for a major national highway network, such as the 
Interstates (and portions of the larger system designated as the 
National Highway System). But other state highways should return to 
their historical status as state responsibilities, and transit under 
this approach would be recognized as the responsibility of urban 
regions. (This sorting-out approach was proposed by Alice Rivlin of the 
Brookings Institution in 1992.\4\)
    A Highway Trust Fund devoted to Interstates and NHS could invest 
more than FHWA currently does in these critically important corridors 
of commerce and personal travel. The $40 billion per year expected from 
highway user-tax revenues over the next decade is twice the current 
annual investment in the Interstates by federal and state governments, 
though a portion of that total would continue to be spent on NHS 
highways under this approach. But by targeting federal assistance to 
these corridors of commerce, the nation could make a start on the 
enormous task of reconstructing and modernizing aging Interstates and 
key NHS corridors, replacing their worn-out pavements, adding lanes 
where needed (especially in major truck corridors), and bringing 
designs up to current safety and durability standards.
    A major benefit of either of these near-term alternatives would be 
to reinstate the original promise made when federal highway user taxes 
and the HTF were introduced in the 1956 legislation: users-pay/users-
benefit. American voters have by and large lost trust in the HTF, as 
the program lost its focus and became more of an all-purpose 
transportation public works program over the last three decades. 
Refocusing those user taxes on highways only, or preferably on major 
interstate-commerce highways, would be a first step in restoring voter 
trust in the Trust Fund, which is a pre-condition for its being able to 
increase needed investment in major highways and bridges.
               the need for increased highway investment
    Before looking into longer-term options for the HTF, let me address 
the question of whether additional highway investment is actually 
needed. A recent study by a team headed by Prof. David Hartgen analyzed 
20 years of federal highway data to address the question of whether 
America's highways and bridges are ``crumbling.'' \5\ Using seven key 
indicators, Hartgen showed that most states made major improvements in 
the condition of their highways and bridges over that time period, as 
well as achieving a 42% reduction in the rate of highway fatalities. 
The only area where little progress was achieved is urban traffic 
congestion, with only a modest 7.6% reduction in the extent of urban 
Interstates congested--and that is likely due to the effects of high 
fuel prices and unemployment in 2007-2008.
    But despite that progress, there is still a large backlog of 
bridges in poor condition, as well as the festering problem of urban 
congestion--as well as the fact that much of the Interstate system is 
nearing the end of its 50-year design life and in need of major 
reconstruction. The definitive source on highway investment needs is 
the Federal Highway Administration's biennial ``conditions and 
performance'' report. Chapter 8 of the latest report presents various 
investment scenarios--to maintain the current conditions and 
performance (no better, no worse) or to improve conditions and 
performance by investing in all projects whose benefits exceed their 
costs.\6\ The table below summarizes these cases.


----------------------------------------------------------------------------------------------------------------
                                                                               Maintain
                                                        Sustain Current      Conditions &     Improve Conditions
            Scenario              Route-Miles (2010)  Spending ($B/year)   Performance ($B/   & Performance ($B/
                                                                                 year)               year)
----------------------------------------------------------------------------------------------------------------
Interstate System...............              47,328               $20.0               $24.3               $43.0
National Highway System.........             159,326               $42.0               $38.9               $71.8
Entire Federal-Aid System.......           1,024,844               $91.1              $101.0              $170.1
----------------------------------------------------------------------------------------------------------------

    For the entire federal-aid highway system, federal and state 
governments spent $91.1 billion in 2008, which was about $10 billion 
short of what would have been necessary to prevent some combination of 
declining pavement and bridge conditions and worsening of congestion 
(which would have required $101 billion instead). And to make cost-
effective improvements in the system would have required $170.1 billion 
that year, according to FHWA's models. Looking at the subset of 
highways comprising only the Interstate system, state and federal 
governments together invested $20 billion in 2008, which was $4.3 
billion short of what was needed to maintain status-quo conditions. To 
make all the cost-effective improvements would have required more than 
double that level--$43 billion per year. That is mostly due to a 
combination of reconstruction needs and widening needs.
    These are credible estimates, based on a methodology that has been 
continually refined and improved in recent decades. These estimates are 
taken very seriously by transportation professionals, and should be 
taken seriously by elected officials, as well. They clearly show the 
need for increased investment in projects whose benefits exceed their 
costs (which is built into the models yielding the above estimates).
    As Congress looks toward the next reauthorization of the federal 
program, in 2014, it is clear that under any likely revision of the 
program--and certainly under the two near-term approaches outlined 
previously--the states will need to continue taking on a larger share 
of the burden, compared with the now-ended era of abundant and ever-
increasing federal funding. So in addition to revamping the federal 
program itself, Congress needs to give the states more tools to enable 
them to increase highway-user revenues and to shift more toward 
financing large-scale projects, rather than paying for them out of 
annual cash flow.
    On the revenue side, the single most important provision would be 
to remove the remaining federal prohibition on charging tolls on 
Interstates. Toll financing is a powerful mechanism for raising the 
capital needed to reconstruct and modernize the aging Interstate 
system. Permitting such financing for that specific purpose would 
enable states to begin the replacement of the original 20th-century 
Interstate system with a truly user-funded Interstate 2.0 for the 21st 
century. The tolling should be done via state-of-the-art all-electronic 
tolling (AET), dispensing with the need for toll booths and toll 
plazas. Recent research has demonstrated that if AET is implemented 
with a streamlined business model, the cost of raising highway funds in 
this manner can be as low as 5% of the revenue collected; 20th-century 
cash toll collection often consumed 20 to 30% of the revenue 
collected.\7\
    Two other financing tools will also help state DOTs begin a 
transition from grants to more direct user-based financing. One is to 
continue and possibly further expand the successful TIFIA loan program 
to provide gap financing for projects that have a dedicated revenue 
source and can achieve an investment-grade rating on their senior debt. 
And because large-scale tolled projects lend themselves to procurement 
as long-term public-private partnerships, Congress should continue to 
ensure that tax-exempt revenue bonds are available, putting PPP 
providers on a level financial playing field with government toll 
agencies. Current law caps the total amount of such private activity 
bonds (PABs) at $15 billion. That volume may well be used up by the 
time Congress enacts the next reauthorization, so my recommendation is 
to remove the cap altogether, or at least to double it to $30 billion.
          a longer-term perspective on the highway trust fund
    Nearly the entire transportation research community and most state 
DOTs have concluded that per-gallon fuel taxes are not viable going 
forward and will need to be replaced over the next several decades. The 
conclusion of the special TRB committee on which I served was that the 
replacement should be a new user fee, to retain the inherent benefits 
of having users pay for the highways they use.\8\ After extensive 
analysis and discussion, a similar conclusion was reached by the 
National Surface Transportation Infrastructure Financing Commission, on 
which my Reason colleague Adrian Moore served. Their report concluded 
that the best form of user fee would be one based on miles traveled 
rather than on gallons of fuel used.\9\ The term now used for this 
concept is mileage-based user fees (MBUFs).
    There is considerable debate over how to design a system or systems 
to collect and enforce payment of MBUFs, as well as how to make the 
transition. So it would be premature for Congress to make decisions 
that would pre-empt promising research and demonstration projects that 
are now taking place in states such as Oregon, Minnesota, and Texas.
    Some points are becoming clear from these initial research 
projects. One is that there is extensive concern among motorists about 
any requirement for a device to be installed in all vehicles which 
would track the location of all travel. Popular media have created the 
impression that implementing MBUFs would require a ``GPS tracking 
device'' in all vehicles. In my professional judgment, such a mandate 
would be both politically and economically infeasible.
    Another emerging finding is that there will probably not be a 
single, one-size-fits-all way of charging all vehicles per mile driven. 
What might work for truck fleets--many of which are already GPS-
equipped--is very different from what would be feasible for a 250 
million individually owned vehicles. And what might be needed for 
variable pricing on congested freeways is different from what is needed 
to record total miles driven on ordinary streets and roads.
    My current scenario for MBUF implementation is for a two-tier 
system for personal motor vehicles. Tier one would be a very basic, 
low-tech system based on annual miles recorded by vehicle odometers, 
probably linked with annual renewal of vehicle registration. This 
system would charge for miles driven on ordinary streets, roads, and 
lower-tier state highways. Those living in a metro area such as Kansas 
City that spans the border between two states might need to opt for a 
more sophisticated system that could distinguish between the miles 
driven in one state versus the other. That could be done using cell-
phone towers to identify the general location of travel--one side or 
the other side of the border.
    Tier two would apply to the limited-access highways, namely the 
Interstates, other major limited-access highways that are part of the 
NHS, and urban expressways. Per-mile charging for these highways could 
be done at low cost via an expanded version of today's all-electronic 
tolling, which is rapidly replacing earlier versions of electronic toll 
collection at toll plazas and open-road tolling to bypass toll plazas. 
With AET, no booths or plazas would exist. Instead, gantries would be 
required to mount the antennas and video cameras needed to assess 
mileage-based charges from the point of entry to the point of exit. The 
charges would be based on miles driven and vehicle classification, as 
on existing toll roads. In urban areas with serious peak-period 
congestion, the per-mile charge would be variable, as on existing HOT 
lanes, to reduce congestion.
    The above approach could be phased in over a period of years, and 
requires no new technology and no Big Brother tracking. For 
Interstates, the introduction of AET could be linked with the 
reconstruction and modernization of individual corridors, as they reach 
the end of their existing design life over the next two decades. For 
state and local roads, in my view the best approach is to let a 
thousand flowers bloom, as states lead the way in testing economically 
and politically feasible ways to replace their fuel taxes with MBUFs.
    What should be the federal role in this transition? The most 
constructive role would be to encourage states to move forward with 
research and experimentation over the next decade, and to remove 
barriers such as the current ban on tolling Interstates for 
reconstruction. Full national interoperability for all-electronic toll 
collection is a precondition for the tier-two approach outlined above, 
and Congress could further encourage the promising work under way on 
this by the Alliance for Toll Interoperability.
    Once the full transition to mileage-based user charges is well 
under way, it will be appropriate to consider whether America will 
still need a federal Highway Trust Fund. The original rationale for 
putting the federal government in charge of creating the Interstate 
system was that the turnpike model pioneered by eastern states 
(Pennsylvania, New York, Ohio, etc.) in the 1940s and 1950s could not 
produce a nationwide system, because traffic levels were far too low in 
the South and West to support toll-based financing. Consequently, the 
decision was made to enact uniform federal taxes on gasoline and diesel 
fuel and to redistribute funds from high-traffic states to low-traffic 
states to create the national network.
    The United States has changed dramatically in the nearly 60 years 
since the 1956 legislation was enacted. There have been massive shifts 
in population to the South and West, with metro areas like Atlanta, 
Orlando, Miami, Houston, Dallas, Denver, Phoenix, and Las Vegas as 
major centers of economic activity. A huge interstate trucking industry 
has emerged, turning many Interstates into critically important 
commerce corridors. Traffic levels on many southern and western 
Interstates are at levels unimagined in 1956, and truck traffic on many 
key corridors is projected to greatly exceed their capacity over the 
next 30 years. Preliminary research at the Reason Foundation suggests 
that toll-financed reconstruction of Interstates may well be feasible 
for all but a handful of states--a situation that was unimaginable in 
1956. And if that finding is verified by further research, it suggests 
that the original justification for the HTF--the need for large-scale 
redistribution of highway revenue--may no longer exist.
    Recent empirical research on how federal funding is distributed 
among states also casts doubt on the continued need for geographic 
redistribution. Researchers Zhu and Brown used data on federal highway 
spending from 1974 through 2008 to test several hypotheses to explain 
how much each state received, compared to what it contributed in 
federal highway user taxes.\10\ They found that redistribution is not 
taking place from higher-income states to lower-income states, but from 
states with lower income to states with higher income. They also found 
that redistribution shifts funds from states with greater highway 
system needs (due to more highways and greater traffic) to those with 
lesser needs. They also found a strong rural bias, and also a 
significant relationship between seniority on highway committees and 
per-capita funding levels.
    This recent research calls into question the ongoing need for a 
federal program to collect and then redistribute highway funds among 
the states. And with the transition to mileage-based user fees, most 
states will be able to fund and manage their own highway systems. The 
federal role might then become more of a standard-setting and 
regulatory role for the expanded Interstate 2.0 network, consistent 
with the federal constitutional power to ensure the free flow of 
interstate commerce.
    That concludes my testimony. I will be happy to entertain questions 
and will answer them to the best of my ability.
                                endnotes
    \1\ Robert W. Poole, Jr., ``Funding Important Infrastructure in a 
Fiscally Constrained Environment,'' Policy Brief No. 102, Reason 
Foundation, January 2013 (http://reason.org/files/transportation--
funding--budget--constraints.pdf)
    \2\ Robert W. Poole, Jr. and Adrian T. Moore, ``Restoring Trust in 
the Highway Trust Fund,'' Policy Study No. 386, Reason Foundation, 
August 2010. (http://reason.org/studies/show/highway-trust-fund-reform)
    \3\ Bureau of Transportation Statistics, ``Federal Subsidies to 
Passenger Transportation,'' U.S. Department of Transportation, December 
2004 (www.bts.gov/publications/federal--subsidies--to--passenger--
transportation)
    \4\ Alice Rivlin, Reviving the American Dream, Brookings 
Institution,, 1992, p. 17.
    \5\ David T. Hartgen, et al., ``Are Highways Crumbling? State and 
U.S. Highway Performance Trends, 1989-2008,'' Policy Study No. 407, 
Reason Foundation, February 2013. (http://reason.org/files/us--
highway--performance--20--year--trends--full--study.pdf)
    \6\ U.S. Department of Transportation, 2010 Status of the Nation's 
Highways, Bridges, and Transit: Conditions & Performance, March 2012, 
Chapter 8.
    \7\ Daryl Fleming, et al., ``Dispelling the Myths: Toll and Fuel 
Tax Collection Costs in the 21st Century,'' Policy Study No. 409, 
Reason Foundation, November 2012. (http://reason.org/news/show/myths-
toll-and-gas-tax-collection)
    \8\ Transportation Research Board, The Fuel Tax and Alternatives 
for Transportation Funding, Special Report 285, 2006.
    \9\ National Surface Transportation Infrastructure Financing 
Commission, Paying Our Way: A New Framework for Transportation Finance, 
2009.
    \10\ Pengyu Zhu and Jeffrey Brown, ``Donor States and Donee States: 
Investigating Geographic Redistribution of the U.S. Federal-Aid Highway 
Program, 1974-2008,'' Transportation, Issue 1, 2013.

    Mr. Garrett. Sure, thank you. Appreciate your comments. Mr. 
Geddes, welcome to the panel, and you are recognized for five 
minutes.

                 STATEMENT OF R. RICHARD GEDDES

    Mr. Geddes. Thank you Mr. Chairman, Ranking Member Van 
Hollen, and other distinguished members of the Committee. Thank 
you for inviting me. It is an honor to be invited to this 
hearing on this important issue on the State of the Highway 
Trust Fund.
    There are four key points that I would like to make in my 
oral statement today. First, echoing what Bob just said, the 
current approach to funding the Highway Trust Fund, and to 
transportation infrastructure more generally in the United 
States that relies on the burning of fossil fuel, is 
unsustainable. There are a number of reasons for this. First, 
the burning of fossil fuels obviously relies on the driving of 
cars, but the fuel efficiency of those vehicles is improving 
rapidly over time, and the amount of vehicle miles travelled 
annually by Americans started to level off in about 2006. As 
vehicles become more fuel efficient, the revenue end of the 
Highway Trust Fund begins to fall. Improvements in fuel 
efficiency are virtually guaranteed at this point because of 
tightening corporate average fuel economy standards that we are 
imposing on cars and trucks. I believe that the revenue into 
the Highway Trust Fund will continue to be stressed relative to 
the demands on that fund.
    Second, I believe the best approach to funding 
infrastructure is to transition to a variable mileage-based 
user fee, which is really just a variable per-unit charge or 
price for the use of roads that is similar to the way we price 
any other good or service. Such a system has a number of social 
benefits that I believe are very important. First, we can 
greatly reduce traffic congestion in the United States through 
the use of variable per-unit user fees. Second, we create a 
reliable revenue stream that funds road maintenance and 
expansion, thus improving our infrastructure, giving us better 
grades with the American Society of Civil Engineers. Third, we 
direct transportation infrastructure to its highest-valued use 
through the prices people are willing to pay. In other words, 
if they are willing to pay a higher per-unit price for the use 
of the road, that means the value to motorists is higher. That 
should be used to help us direct investment.
    Third, as Bob stressed, because such fees are a departure 
from current practice, I believe that innovative approaches to 
enhancing the appeal of mileage-based user fees must be 
explored. In other words, it is not enough to simply say, 
``This is a good idea.'' I think we need to suggest ways of 
actually implementing these things. One way to accomplish this, 
I believe, is through the use of a permanent public trust fund, 
which are currently in use in Alaska, Alberta, Norway, and 
Texas. The substantial economic value released by road pricing 
can be captured and preserved forever in a permanent fund that 
distributes annual dividends to all citizens, which is exactly 
what happens in Alaska right now through the Alaska Permanent 
Fund.
    Fourth, although the value from pricing something through, 
in this case, mileage-based user fees, can be captured through 
either municipal bonding power or through a PPP concession 
lease, I believe that there is a range of social reasons why we 
should prefer the use of P3 concessions. Those include greater 
access to capital markets; we know we need more investment in 
infrastructure, the capital is there, ready to invest in our 
infrastructure. Additionally, high-powered, focused incentives 
to seek new revenue, better manage costs, operate 
infrastructure facilities more efficiently. You can tap global 
business acumen and experience, as well as the ability to bear 
risk, which the private sector is expert in.
    Moreover, reliance on a contracting approach that enforces 
a regular maintenance schedule and high-quality service can be 
part of the P3 approach. I believe that this approach generates 
substantial social value because it explicitly recognizes the 
rights that all citizens hold currently in their 
infrastructure, one of which is to capture the revenue from the 
value of the asset. Just as a landlord has a right to capture 
the value from renting out an apartment unit, the citizen 
owners of public infrastructure, particularly in 
transportation, have a right to capture the value from pricing 
their assets. That can be done through mileage-based user fees, 
and preserved forever in a permanent fund that yields 
dividends.
    The permanent fund approach has been studied thoroughly in 
the case particularly of Alaska, but also of Texas, and it has 
many advantages. It preserves citizen owner value from 
infrastructure forever. It smoothes out the effects of 
recessions by providing an annual dividend regardless of 
economic conditions, and it reduces income inequality. In my 
view, it is critical to offer such important benefits to gain 
widespread acceptance of this new, sustainable infrastructure 
of funding approach. Thank you, Mr. Chairman, and I look 
forward to your questions.
    [The prepared statement of Richard Geddes follows:]

  Prepared Statement of R. Richard Geddes, Visiting Scholar, American 
    Enterprise Institute; Associate Professor, Department of Policy 
Analysis and Management and Director, Cornell Program in Infrastructure 
                       Policy, Cornell University

    Chairman Ryan, Ranking Member Van Hollen, distinguished Members of 
the Committee: Thank you for the opportunity to submit testimony to the 
House Budget Committee of the U.S. House of Representatives on the 
current state of the Highway Trust Fund. I am R. Richard Geddes, 
Associate Professor in the Department of Policy Analysis and Management 
at Cornell University, Director of the Cornell Program in 
Infrastructure Policy, and Visiting Scholar at the American Enterprise 
Institute. I was a member of the National Surface Transportation Policy 
and Revenue Study Commission that reported its findings to Congress in 
2008. I am also a member of the Revenue and Finance Committee of the 
Transportation Research Board. I make four main points in this 
testimony:
    1. Under its current structure, the Highway Trust Fund (HTF) is not 
sustainable, and a new system of funding surface transportation 
infrastructure must be adopted.
    2. The most desirable approach is a system of variable per-mile 
user fees, sometimes
    called Mileage-Based User Fees (MBUFs), which is consistent with 
the way providers of most goods and services, including utilities, 
charge their customers.
    3. Adopting a system of direct MBUFs is a departure from past 
practice, and its widespread adoption may be unpopular with motorists. 
It is therefore important to consider policies to enhance the public 
appeal of MBUFs. An important new approach to enhancing the public 
appeal of MBUFs is to better recognize citizen-ownership of 
infrastructure assets, and to utilize a permanent fund--one type of 
public trust fund--to preserve economic value released by pricing and 
to generate dividends in perpetuity to asset owners.
    4. Public-private partnerships, or PPPs, which allow competitive 
bidding by expert private infrastructure operators for the opportunity 
to operate and maintain infrastructure assets, are an important 
mechanism for releasing the value embedded in U.S. transportation 
infrastructure assets. That released value can be used to capitalize 
the public permanent fund.
    I discuss each of those major points below.
        1. the unsustainable structure of the highway trust fund
    The fiscal condition of the Highway Trust Fund (HTF) was a key 
focus of the Revenue and Policy Study Commission's work. The Commission 
was told of the effects of increasing vehicular fuel efficiency on 
projected HTF revenue, and that the fund was expected to experience 
large shortfalls. However, annual vehicle miles traveled (VMT) in the 
United States peaked in 2006 after rising almost continuously since 
1960. As Figure 1 in the Appendix indicates, VMT has historically 
rarely declined, or even leveled off, even during periods of 
substantial economic weakness. The recent weakness in VMT thus appears 
to represent an important change in the demand for road use. Moreover, 
revenue from fossil fuel taxes naturally declines as motorists shift 
into alternative power sources, such as natural gas and electricity.
    The combination of improving fuel efficiency and weak VMT growth 
has proved burdensome to the HTF, necessitating transfers from general 
funds. Infrastructure funding problems extend beyond the federal level, 
and similar factors have reduced state-level resources for 
transportation from fossil fuel taxes. The use of general funds for 
highways is disconcerting from a policy perspective. It represents 
further movement away from a user-pays model of highway funding, which 
was the cornerstone of the original fuel-tax funding approach for the 
Interstate Highway System. As I explain below, it is instead socially 
beneficial to move closer to a user-pays approach to transportation 
funding.
    Moreover, HTF revenue declines are coming at a time of rising 
demand for resources to renovate roads and highways. In its 2013 Report 
Card for America's Infrastructure, the American Society of Civil 
Engineers reported that 32 percent of America's roads are in poor or 
mediocre condition, and assigned a D as the overall grade for road 
condition. The Report Card stresses the recurring problem of deferred 
maintenance in leading to such low grades.
    The problems facing the HTF are symptomatic of deeper problems 
created by the current approach to funding U.S. infrastructure that 
relies on the burning of fossil fuels. Increasing vehicular fuel 
efficiency is virtually certain given more stringent CAFE standards.
    It is thus time to ``think big'' with regard to funding 
alternatives, and to move toward an approach that will create a 
sustainable, well-maintained highway system where investment is 
allocated to its highest valued use, and where traffic congestion is 
mitigated. Moving to a system of variable per-unit user charges can 
help achieve those important social goals.
    A new funding approach to such a vast infrastructure system will 
take time and effort to adopt. In the medium term, steps should be 
taken to restore the user-fee approach to highway funding. Because 
fossil fuel taxes are paid by highways users, this implies reducing the 
use of general funds for transit as much as possible. One obvious step 
is to dedicate all fuel tax revenues to the Highway Account within the 
HTF only, and use general revenues to fund the Transit Account, rather 
than using general funds to subsidize both. This would have the added 
benefit of improving public governance, since it would increase the 
transparency of any direct taxpayer transit subsidies.
    An increase in the federal gas tax is sometimes proposed as a 
remedy. I view this as politically infeasible. Indeed, after almost two 
years of work, a majority on our Commission recommended (and I 
dissented from) a 30 cent per gallon increase in federal fuel tax 
rates, a recommendation that was summarily dismissed. I believe that 
the only sustainable solution--and the best one--lies in the adoption 
of direct per-unit road user charges, or variable MBUFs.
  2. toward variable per-unit user fees, like other goods and services
    The current U.S. transportation system suffers from a set of 
serious problems, including shortages of road capacity in many areas 
(which manifests as traffic congestion), deferred maintenance, under 
investment, and misdirected investment. The HTF--and our transportation 
system more broadly--are facing such problems not because of factors 
unique to transportation infrastructure, but because of the way users 
(or customers) currently pay for system use. If, for example, the U.S. 
steel industry were government owned, funded through taxes, and gave 
its output away for free, it would be suffering from problems very 
similar to those in U.S. infrastructure.
    There is now wide agreement among economists that the most socially 
beneficial policy change that could occur in transportation is adoption 
of variable per-unit user charges. That is, a per-mile fee that varies 
depending on factors that reflect the current scarcity of road 
capacity, such as time of day. The technology now exists to directly 
charge motorists based on road scarcity and miles traveled. Technology 
is no longer the barrier that it was in Eisenhower's time.
    Variable per-unit prices paid directly by customers are the way in 
which the vast majority of goods and services are provided. Households 
pay for electricity per kilowatt hour used, per minute of cell phone 
use, per gallon of water, and per therm of natural gas. Those prices 
can be allowed to vary as desired. Indeed, virtually all goods are 
successfully provided through reliance on variable per-unit pricing. We 
pay per hamburger consumed, per car purchased, and per cup of coffee. 
Persistent problems of shortages, deferred maintenance, and 
underfunding do not exist in any sector relying on variable per-unit 
charges. Indeed, there is now a presumption in favor of the use of 
variable unit pricing of goods and services to regulate demand and to 
guide investment
    From the perspective of the HTF and the stability of highway 
funding more generally, a key social benefit of moving to a system of 
MBUFs is the generation of facility-specific revenue that will ensure 
the facility is adequately maintained and expanded as necessary over 
time. By creating a stream of revenues directly from customers, MBUFs 
insulate funding for facility maintenance from budgetary uncertainty. 
However, there are several additional valuable social benefits of 
MBUFs, which include (among others):
    <bullet> By increasing during periods of peak road demand, variable 
MBUFs provide motorists with clear signals as to when they should 
consider transportation alternatives. That is, they signal when road 
space is most scarce. Price signals are critical because they allow 
motorists to choose the alternative for conserving on scarce road 
capacity that is most appropriate for them, such as bus, transit, 
carpool, altering work schedules, telecommuting or biking. As a result, 
variable MBUFs reduce the environmental and other social harms 
associated with traffic congestion.
    <bullet> By reflecting motorists' willingness to pay for road use, 
variable MBUFs provide guidance as to where investment can be most 
usefully directed. That is, they objectively signal where the value of 
added investment is highest to customers. Conversely, such price 
signals help avoid the allocation of scarce investment dollars to low 
value projects, sometimes referred to as ``white elephants.''
    <bullet> Variable VMT fees reflect the same user-pays principle 
embodied in the original fuel-tax approach to Interstate highway 
funding, which is used successfully to fund the utilities mentioned 
above. It reflects the widely accepted fairness principle that someone 
receiving the benefits of a good or service should pay for them. 
Conversely, those who do not use the roads are not charged for them.
    <bullet> The security of facility-specific revenues generated by 
MBUFs can be used to attract private investment, or to support 
municipal bond issues, to renovate and maintain the facility. In either 
case, the improved certainty of MBUF revenue (relative to federal or 
state budgetary allocations) will generate greater resources through 
the financial markets.
    Because it shares a network structure with several key sectors, it 
is useful to think about the U.S. transportation system under a MBUF 
system as a public utility. This conceptual framework is useful because 
it facilitates examination of policy lessons learned from other public 
utilities. A complete examination of those lessons is outside the scope 
of this testimony.
    Although there is wide agreement among academics that a system of 
MBUFs would generate large social benefits, use of them in the United 
States thus far has been limited. Variable user charges have been 
largely limited to new transportation capacity, such as the new High-
Occupancy Toll (HOT) lanes on the Northern Virginia side of the 
Washington, DC beltway, or to conversions from High-Occupancy Vehicle 
(HOV) to HOT lanes. Such limited use is generally attributed to 
resistance from motorists to the adoption of new user fees.
    It is insufficient to simply stress the benefits of MBUFs in the 
hope that they will be adopted. It is instead necessary to consider new 
approaches to enhancing the public appeal of using MBUFs. I offer one 
such approach below.
               3. enhancing the appeal of adopting mbufs
    Although they may seem unrelated at first glance, the key to 
increasing the public appeal of MBUFs is to clarify the rights citizens 
currently hold in public infrastructure assets. Clarifying the rights 
held by citizens allows them to capture some of the value created by 
MBUFs. Stressing the basic property rights of citizens as the ultimate 
owners of infrastructure assets improves citizen-stakeholdership in 
those assets, creating incentives typical of ownership in asset 
performance and maintenance.
    The relevant jurisdiction of infrastructure asset ownership, and 
thus the correct citizen group, is currently well defined. For example 
the entire Interstate Highway System is, with the exception of federal 
ownership of the Woodrow Wilson Bridge, owned by the citizens of the 
states in which those highways are located.
    One important aspect of ownership is a property right to asset-
generated income. If a landlord owns several apartment units, for 
example, the landlord has a right to lease the use of a unit and to 
capture the rental revenue from its use, while retaining title to the 
unit. Analogously, the citizen-owners of infrastructure assets possess 
a right to benefits from pricing use of their infrastructure. 
Explicitly recognizing the public's right to asset revenue can be 
thought of as the ``public-ization'' of infrastructure assets.
    The decision to adopt MBUFs lies with public-sector decision makers 
for publicly owned transportation facilities. To make adoption of 
variable MBUFs politically feasible, a broad group of citizens in the 
relevant jurisdiction must realize benefits from that change. Using 
MBUFs to price transportation capacity that is currently ``free'' (i.e. 
a price of zero) allows substantial economic value latent in those 
critical infrastructure assets to be released.
    As noted above, MBUFs create a facility-specific revenue stream 
that can be used to generate a large up-front payment from either a 
municipal bond issue or from a concession payment if private partners 
are included through a public-private partnership (or PPP). The term 
``PPP'' refers to a contractual relationship between a public-sector 
project sponsor and a private sector firm or firms coordinating to 
provide a critical public good or service.
    In order to ensure that infrastructure owners realize benefits 
directly from the value released, a portion of the upfront payment 
facilitated by MBUFs should be protected in perpetuity through a public 
permanent fund. The permanent fund structure is governed by Government 
Accounting Standards Board rules. Annual dividends from the permanent 
trust fund can be distributed to all citizen-owners of the 
infrastructure.
    Experience in preserving natural resource wealth using a permanent 
fund suggests that this approach is feasible, sustainable, and creates 
vast social benefits. Similar to a trust fund, a public permanent fund 
preserves wealth in perpetuity since the fund's principal is never 
spent. It is a public fund because it is citizen-owned. Such funds have 
been used successfully to preserve natural resource wealth in Alaska, 
Alberta, Norway, and Texas. The largest U.S. examples are the $45.5 
billion Alaska Permanent Fund and the $28 billion Texas Permanent 
School Fund. The value embedded in citizen-owned infrastructure assets 
is thus preserved in a citizen-owned fund that provides annual 
dividends for those citizens.
    The Alaska Permanent Fund is a semi-independent corporation created 
by the Alaskan constitution of 1976. Alaskan natural resource wealth in 
the form of North Slope oil reserves was quickly spent by the State's 
government after its discovery in 1968. As one commentator describes:
    In 1968, nine years after statehood, Atlantic Richfield pumped the 
first oil from Prudhoe Bay, beginning a new boom cycle. The following 
year the state held an auction for oil leases, and in a single day 
collected $900 million, at a time when the state budget itself was 
barely over $100 million. This shower of riches sent Alaska into a 
frenzy of public spending, particularly on capital projects. From 1961 
to 1981 state general fund expenditures grew at an average annual rate 
of 22 percent, from $45 million to over $3 billion.
    In response, the Alaska Permanent Fund was established to help 
preserve state natural resource wealth for future generations and to 
protect it from short-term spending pressure. The Alaskan constitution 
required that at least 25 percent of the revenue from oil and gas sales 
or royalties be placed into the Permanent Fund. The Fund is invested in 
a diversified portfolio of assets, including stocks, bonds, real 
estate, and infrastructure itself. Investment income generated by the 
fund is used to pay an annual dividend to every Alaskan citizen, 
including children.
    The Texas Permanent School Fund was created in the Texas 
Constitution of 1876. It was capitalized by sales, trades, leases and 
improvements to lands set aside for that purpose. Investment income 
generated is used to fund schools. Texas also has a Permanent 
University Fund created in the Constitution of 1876 to support the 
state's universities.
    The permanent fund model can be extended easily to preserve wealth 
from non-resource sources, such as the lion's share of upfront payments 
from bonding against toll revenue or from concession leases. The key is 
to preserve value released by variable MBUFs through a permanent fund 
insulated from diversion of user-fee revenue for current spending in 
order to guarantee households an annual dividend in perpetuity. 
Research indicates that such dividends create permanently higher 
personal income and mitigate the effects of recessions. They are also 
progressive in that they represent a larger share of income for poor 
families, and thus reduce income inequality.
            4. tax-exempt bonding or ppp concession leases?
    There are two main ways in which a stream of payments from tolls 
can be converted into an upfront payment. The first is by using tax-
exempt bonds raised against toll revenue. The second is by securing up-
front concession payments through PPP leases.
    There are important benefits of including private participation 
through PPP leases relative to the municipal bond approach. Under a PPP 
approach, a public permanent fund is capitalized with concession lease 
payments paid by a private partner. The private partner operates the 
newly tolled, or priced, transportation facility, such as a road, 
bridge, or tunnel.
    If properly implemented, such participation through greater PPP use 
helps address a set of problems that continue to plague America's 
transportation system. Social benefits of PPPs stem from four main 
qualities associated with increased private participation:
    (i) High-powered, focused incentives to innovate, to seek new 
revenue, and to better manage costs in a sector where high-powered 
incentives are socially beneficial
    (ii) Business acumen, knowledge, and experience sourced from a 
global market for infrastructure operators
    (iii) Additional capital and highly developed risk-bearing services 
through access to new debt and equity capital markets
    (iv) The utilization of a competitive contracting approach that 
enforces high-quality service and asset maintenance, and allows the 
discipline of competition to be harnessed for the public good
    Such benefits of PPPs are currently being realized through private 
participation in many aspects of the U.S. transportation sector. For 
example, the entire U.S. freight rail system can be viewed as a large, 
multi-faceted PPP. The public sector provided the right of way and 
created the legal/institutional setting for contracting. Freight rail 
companies build, maintain and operate bridges, tunnels, tracks, 
signaling, and rolling stock, while private investors provide capital, 
bear risk, focused incentives, and budgetary discipline. It is thus no 
accident that the grade assigned to freight rail infrastructure by the 
American Society of Civil Engineers in its 2013 Report Card for 
America's Infrastructure improved from a C- in 2009 to a B in 2013, the 
largest improvement of any sector. The improvement was mainly due to 
billions of added private investment.
    PPPs are the key contractual vehicle for incorporating private 
investment into the provision and operation of transportation 
infrastructure. A PPP is subject to the standard rules of contracting, 
with clear performance standards linked to readily observable metrics.
    There are many ways in which greater private participation through 
PPP concession leases will improve social welfare. Private partners 
contribute by bringing capital, risk-bearing services, focused 
incentives, and expertise to the management of existing transportation 
assets. Substantial investment in technology, upgrades, and renovation 
may be required, all of which can be supplied through a PPP.
    Importantly, increased private, for-profit participation may not be 
appropriate for the provision of all goods and services. However, a 
consensus has emerged in economics that private participation may not 
be efficient where contracting with a private partner is complex and 
costly due to the inability to oversee--or ``monitor''--the quality of 
service provided. To offer one possible example, one may be concerned 
about contracting out the operation of a wildlife sanctuary to a 
private firm for fear that the operator would not maintain the 
environment in the sanctuary to a certain socially desirable standard, 
which is difficult to monitor. Stated differently, the quality of the 
wildlife's environment could be costly to contract over because quality 
of performance is difficult for the public contract sponsor to observe.
    Because they involve ``hard'' assets, the types of activities being 
considered here for increased private participation are precisely those 
activities where the private partner's performance is readily 
observable. Metrics indicating how well roads, bridges, and tunnels are 
maintained and operated are readily monitored. They can be provided for 
in a contract with measureable performance standards and clear 
enforcement provisions. Private participation in infrastructure 
management is thus likely to improve social welfare substantially 
through better asset performance. Perhaps more importantly, the 
enormous value locked within these critical national assets can be 
realized for all citizens, including future generations.
    The above approach offers one way to enhance public acceptance of 
shifting to a system of MBUFs while capturing the benefits of private 
participation through public-private partnerships.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Garrett. And I thank the gentlemen, and I thank the 
lady as well, for joining our panel this morning. You are 
recognized for five minutes.

                 STATEMENT OF JANET F. KAVINOKY

    Ms. Kavinoky. Thank you. Thank you, Mr. Chairman, Ranking 
Member Van Hollen. I am Janet Kavinoky; I am the executive 
director of Transportation and Infrastructure at the U.S. 
Chamber of Commerce. The Chamber and its Americans for 
Transportation Mobility Coalition, a nationwide business, 
labor, highway, and transit coalition, know that there is a 
solid case for federal leadership in surface transportation, 
which is the framework that makes economic activity possible.
    Businesses place a high value on the mobility of their 
employees, customers, and supply chains. A seamless, reliable, 
safe transportation system boosts gross domestic product. A 
system that is disjointed, unreliable, unsafe, and inadequate 
for future economic and population growth drags down the 
economy. When transportation networks support predictable 
logistics, there is a positive and strong correlation with job 
creating foreign direct investment. However, much of the United 
States transportation infrastructure, and especially that which 
support interstate commerce and international trade, is 
becoming less competitive with the rest of the world.
    Federal leadership should be accompanied by investment, and 
Congress must now lay a course for the solvency of the Highway 
Trust Fund. There are three paths to Highway Trust Fund 
solvency. The first: to cut back programs to fit available 
resources, passing the buck to states and localities. In the 
view of the Chamber, this path is unacceptable, and in the last 
several years, Congress repeatedly rejected dramatic cuts to 
highway and transit programs.
    The second is to continue General Fund transfers. And 
although we appreciated the willingness of Congress to maintain 
federal investment in this way in prior years, this approach 
may not support economic growth, competitiveness, and jobs over 
the long term because it discontinues the user pays principle, 
which underpins a multi-year transportation program.
    The third is to increase existing user fees and/or find new 
user-related revenue sources to maintain and ideally grow 
federal investments and address the well-documented needs for 
today and tomorrow. But we must also ensure that money invested 
in transportation is spent wisely: do a better job planning and 
prioritize, deliver projects faster, and stretch user fees 
farther. The Chamber pressed for, and Congress delivered, 
significant reforms through MAP-21 that do these things. And, 
in addition, we must take full advantage of private sector 
capital, innovation, problem solving, and collaborations. 
However, public-private partnerships and other forms of private 
sector involvement are not revenue sources, and are not 
substitutes for fixing the revenue problem facing the Highway 
Trust Fund.
    So where does the money come from? From a user fee based 
Highway Trust Fund that enables multi-year funding commitments 
and supports interstate commerce, global competitiveness, and 
other national priorities. The Chamber and its members are 
discussing revenue options in three time periods: avoiding a 
crisis in 2015, which this Committee is well aware of; 
establishing a revenue approach from 2015 to 2024; and then 
preparing for 2025 and beyond.
    In 2015 and the years through 2024, there are multiple 
revenue options that could work alone or in combination. But we 
continue to believe that the simplest, most straight-forward 
and effective way to generate enough revenue for federal 
transportation programs is through increasing federal gasoline 
and diesel taxes. This is also the critical period for 
aggressive research and development to prepare a new approach 
for 2025, when CAFE standards increase, and revenues from 
gasoline taxes are likely to require substantial replacement as 
the primary source of funding.
    There is no shortage of research that looks at the 
questions of who pays, for what, how much, and by what 
mechanism. And the Chamber commends to this Committee the 
findings of the two commissions created by SAFTEA-LU that 
looked at the full array of reports and research on the topic 
of federal revenues for surface transportation. We have not 
completed our evaluation of funding options, but at this point, 
every option is on the table. There is one thing for certain: 
There is no free lunch, there is no creative option, and there 
is no avoiding the revenue discussion if we are going to fill 
the gaping hole that has emerged at the federal level.
    In conclusion, yes, this nation is faced with difficult 
fiscal circumstances. The Chamber has spoken out on those 
repeatedly. However, without proper investment and attention to 
roads, bridges, and, yes, transit systems, our economic 
stability, job growth, global competitiveness, and quality of 
life are at risk. The federal role is at its simplest: to make 
sure that the nation's transportation system functions well as 
a whole to support the economy. Let's seize the initiative now 
to set a new path that will ensure adequate funding to support 
that role for years to come. Thank you.
    [The prepared statement of Ms. Kavinoky may be accessed at 
the following Internet address:]

          http://www.uschamber.com/sites/default/files/130424-
                   JKTestimonytoHouseBudget-Final.pdf

    Mr. Garrett. And thank you, as well. So I thank the panel 
again, and at this point, we turn to questions, and I will 
recognize myself for five minutes.
    So, there seem to be, I thought, some degree of agreement 
on some of these points, but maybe not so much when we got to 
the end of the panel. One of your words that you used that sort 
of struck me was that we do not want to ``pass the buck'' to 
the states. Interesting, because is it not the states that are 
actually passing the buck to us here in Washington? We are 
basically taking the bucks from the states and then deciding 
how we are going to use those by distributing out in our 
political process that we have here in Washington.
    Ms. Kavinoky. There certainly is a passing, I suppose you 
would say, in the literal term, but what we hear from 
businesses who are involved in the planning processes, who are 
engaged with state DOTs, and with locals is that they do not 
necessarily view it that way. Yes, there is a concern that we 
have sent money to Washington, and now it is coming back. We 
have talking about those strings attached. I think that MAP-21 
went a long way to addressing those issues.
    Mr. Garrett. Do they not ever say to you that they are a 
little tired of having to come hat in hand with tin cup to 
Washington just to beg us to get back the taxes that we have 
taken from then? They have never expressed that to you? They do 
that to me all the time.
    Ms. Kavinoky. I will tell you that some of them have, but 
then they realized that since 2008, they have been getting back 
more than they are putting in.
    Mr. Garrett. Well, do we have, to the panel, do we have 
donor states and donee states any more since 2008, 2009? To the 
panel.
    Mr. Poole. Yes, to some extent. I think Alaska, and Hawaii, 
and maybe Montana. But when you include the general fund 
revenue, you know, everybody is basically getting more.
    Mr. Garrett. So the point is, right, when this trust fund 
was a legitimate trust fund, and states were paying into it, 
and coming here begging for the money back, then you had the 
donors states and donee states, and that is when they complain 
to me, ``Why do we have to beg to get our money back?'' Now 
that they are just the largess of the federal government, yeah, 
I guess most people are happy now that we are borrowing money 
from someplace else.
    Another comment that you made, sort of struck me was, we 
need to use the money wisely. I do not know, I have been here 
in Washington for 10 years, and generally speaking I do not see 
Washington spending the money on whatever program we are 
talking about more wisely than my county government does, or my 
state government does. When I had the transportation secretary 
here under the Bush Administration, and I have asked other 
ones, I said, ``Can you tell me about Route 519? Can you tell 
me about Route 23? Can you tell me about these?'' They could 
not. And you probably could not find any bureaucrat in 
Washington who could tell us about those. But you know what? 
They had sent a lot of dictates and mandates on how my county 
engineers have to run those roads and spend it. Mr. Geddes, is 
it the best way, the wisest way, the most efficient ways for 
the federal government to dictate to the localities, the 
municipalities, and the states on how to do these things, or 
can you do it more efficiently another way?
    Mr. Geddes. No, absolutely no, Mr. Chairman. In fact, I 
think it is inherently a flawed approach. I do not think, no 
matter how earnest, well-intentioned we try to be, I just do 
not think we are going to be able to allocate scarce resources 
that effectively without getting price signals. And that is one 
of the great overlooked benefits of shifting to a variable 
mileage-based per unit user fee.
    Mr. Chairman, I just want to emphasize that if you look 
around the hearing room, virtually every product in the hearing 
right now was funded by a variable price: the light, my phone, 
et cetera, it is all funded by a variable per-unit user fee. 
And I think the closer we can go to that system, the better. It 
not only allocates the demand for iPhones, but it also directs 
investment into, and on the supply side, into and out of the 
iPhone business, or the light business, et cetera. I think we 
need to keep that economic model in mind not just because of 
dealing with traffic congestion, but because of how it helps to 
allocate investment.
    Mr. Garrett. Let me pick on one word that just struck me 
when you spoke, and that was when you used the word ``permanent 
public trust fund.''
    Mr. Geddes. Yes.
    Mr. Garrett. Permanent. Everything in Washington is 
obviously permanent; once we have set up a temporary program, 
it becomes permanent. Put the word ``permanent'' in trust fund, 
we have had experience on the federal level when you set up 
trust funds for a dedicated purpose that you cannot use it for 
anything else, that somehow or other, we, in our infinite 
wisdom here, once again are able to find a way to use it for 
different things such as highway beautification, bike paths; 
all great things, but it would not be for that use. Do you have 
a way that we can actually make sure that this permanent trust 
fund, if we do continue to send the money here to D.C., that we 
would not be able to get our hands on it and use it for other 
purposes that may not be highway usage?
    Mr. Geddes. Thank you for the terrific question, Mr. 
Chairman. My focus has mainly been on the state level with 
these trust funds, and I do not know how quick, how easily that 
legal approach could be translated to the federal level. But if 
you look at the Alaska constitution, the Alaska trust fund is 
constitutionally protected from precisely that sort of thing in 
Alaska. The province of Alberta in Canada has done something 
similar with theirs. Texas has done this. Norway has done this. 
So these are public trust funds that are truly permanent in the 
sense that they live forever. And they are invested in a broad 
set of stocks and bonds, real estate, and alternative assets. 
And they produce dividends forever. It is a way to preserving 
value. I am fully appreciative of your concern, Mr. Chairman, 
and how that could be done on the federal level, sir, I just 
have not studied yet.
    Mr. Garrett. Well, thank you. I appreciate that 
clarification. I really do. Mr. Van Hollen, for five minutes.
    Mr. Van Hollen. Thank very much, Mr. Chairman. Again, let 
me thank all the witness for their testimony. There were some 
areas of common ground, and I hope we can probe those areas as 
we move forward. Ms. Kavinoky, if you could just respond to the 
issue that was raised earlier with respect to the transit 
programs within the overall trust fund here, because as Mr. 
Blumenauer pointed out, obviously people traveling on the 
highway do get a benefit from people who decide to use other 
forms of transportation through lower congestion, and those 
sorts of things. And it has been suggested by one of the 
witness, by Mr. Poole, that the way to deal with this at the 
federal level is simply to cut that portion out of the fund, 
and then just use the incoming fees for the highway fund. Could 
you respond to that in your capacity as testifying both, as I 
understand, with both hats on, Chamber of Commerce as well as 
the Coalition?
    Ms. Kavinoky. Sure. And, you know, when we speak, when I 
speak for the Chamber and Coalition, we really have a very 
unified set of views on these things. It is an interesting sort 
of theoretical and accounting construct to say, ``Well, let's 
just use the highway dollars for the highway people, and we 
will let the transit folks get their general funds.'' But the 
112th Congress overwhelmingly rejected that approach.
    I will tell you from the business community standpoint, 
business looks at mobility. We have, through the course of 
time, progressed from building an interstate highway system to 
providing for mobility. Now perhaps it is the case that the 
funding sources for the highway trust fund have not progressed 
with that. And I think that is something, actually, that the 
commission that Dr. Geddes was on also explored, this question 
of, ``Well if you are going to have more mobility and 
multimodalism, perhaps we ought to diversify the funding 
sources.'' And I think that is something we will debate at the 
Chamber. But what I hear from my businesses is we are really 
tired of the debates and the discussions of highways versus 
transit, we will kick this one out or put this one in. What we 
hear is we need to make investments in transportation: to move 
people, to facilitate the movement of goods, to solve 
congestion problems, to create economic growth.
    A terrific example of this is in Utah. I was born and 
raised in the state of Wyoming. We did not have a lot of 
transit in Wyoming, at least not the way that I found when I 
moved to Washington. So I was really shocked when I went to 
Salt Lake City last year, and I discovered that they are 
making, as a state and as Salt Lake, significant investment, 
not just in highways or in transit, but in mobility. And they 
are doing that to bring major companies, major employment, 
economic competitiveness, and growth. So although an 
interesting solution to fixing the Highway Trust Fund solvency 
problem, we think that trying to separate highways and transit 
even further is not something that is going to serve the 
competitiveness and economic growth needs of the nation.
    Mr. Van Hollen. I appreciate that, and, you know, even if 
you were to separate it out, obviously it raises the next 
question. What is the funding source for that? And there has 
been no funding source identified in some of the proposals that 
have been put forward by our colleagues. Mr. Geddes, I just 
want to make sure I understand whether or not you believe that 
starting in the year 2014, there will be enough funds coming in 
through the current funding source to fund what you think are 
our national transportation needs.
    Mr. Geddes. Very difficult to predict, I think, because it 
depends on demand for driving as well as the fuel efficiency of 
vehicles, and Figure 1 that I have included in my testimony 
shows the growth in annual vehicle miles traveled in the United 
States from 1960 to the present. And we have seen a leveling 
off in recent years that is unprecedented since World War II. 
So it seems as though there is some fundamental shift that I do 
not fully understand, sir, that is going on in the demand for 
driving in the United States, which I think makes it more 
difficult to predict the revenue that is going to come into the 
fund. So I do not know that I could provide any special 
insights on that prediction.
    Mr. Van Hollen. Yeah, if you look at the Congressional 
Budget Office actions, they predict a substantial shortfall. I 
wrote my question, and we are out of time, is whether or not 
you think those projected revenues are sufficient for a 
national transportation trust fund. My time is up. I would just 
close, Mr. Chairman, by saying, look, you know, there is a 
philosophical difference in argument that suggests that we 
should leave a lot of these infrastructure investments, even 
those of national significance, to state and local process. But 
I would suggest that if we had done that in the past we would 
not have the interstate highway that we have that most people 
believe has been an important economic growth. I yield back the 
time that I do not have. Thank you.
    Mr. Garrett. I guess we just lost Mr. Lankford. Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman. I have received some 
letters from some outside stakeholder groups. And before I 
begin my questions, I request unanimous consent insert them 
into the record.
    Mr. Garrett. Without objection.
    Mr. Ribble. All right, thank you, sir.
    Well, this has been interesting. I am the vice chair for 
the Surface Transportation Subcommittee and TNI. So I have 
listened closely, and the discussion has been helpful, quite 
frankly. And I want to start with Mr. Poole. Thanks for your 
testimony today. I know that you have spent a lot of time 
looking at this particular circumstance, and I want to talk a 
little bit about some of the suggestions in your written 
testimony regarding mileage-based user fees, and how they 
impact rural communities versus urban communities. One of the 
concerns that I hear from constituents at home, I am from 
northeast Wisconsin, so I have a very rural congressional 
district with really no large urban areas other than Green Bay 
and Appleton. One of the concerns they have is that under the 
current system they feel that there is a shift of resources 
from the rural areas to the urban areas, and that, in fact, if 
you go to a mileage-based user fee, it becomes actually 
exacerbated. Right now they can go to a more efficient vehicle 
because they are driving more miles. Someone in Kansas City, 
for example, might only be driving two or three miles a day to 
work. They, on the other hand, might be driving 20 miles a day 
to work, never using a federal system, using just state roads. 
And how do you answer that concern?
    Mr. Poole. That is a very legitimate and good question. And 
transportation research that is being done, there is a lot of 
work going on looking at how you would structure mileage-based 
user fees. And this is one of the big advantages that mileage-
based fees have over fuel taxes. With fuel taxes, everybody 
pays the same rate per gallon, which basically means they pay 
the same rate per mile that they drive. But with a mileage-
based charge, there is no reason why that has to be the same 
for all types of roads. For two-lane country roads, the mileage 
charge probably be as low as a penny a mile. For major 
interstates, it is probably more like five or eight cents a 
mile.
    Mr. Ribble. Can I interrupt for a second? How do you do 
that? You know, under your testimony, one of the suggestions 
you made was using annual vehicle registration to track 
mileage, so you are not actually tracking vehicles per se. How 
do you, without having some kind of electronic tracking 
measure, how do you effectively do that?
    Mr. Poole. Nobody really has a good answer to that. But the 
model I am using right now is a basic mileage charge base on 
odometer readings that would cover all of the general streets 
and roads, and the non-limited access highways. Then there 
would be an electronic toll, basically, on the interstates and 
expressways, that, you know, premium price for premium service. 
And those are the roads that are much more expensive to build 
and maintain than the small highways that rural people 
typically use. So there is a growing recognition in terms of 
studies looking at equity in different ways of doing mileage-
based fees that says the charges should be lower because the 
costs are significantly lower for rural roads than for the big 
expensive urban runs and the big expensive interstates. I mean, 
the answer is we do not know yet, but there is work that 
recognizes that very, very much.
    Mr. Ribble. I was hoping you would know, but that is okay. 
I appreciate the response. Mr. Geddes, I am curious about 
should we be trying to streamline things a little bit and 
reduce traffic, particularly commercial traffic, by changing 
weight limits. Our neighbors to the north allow much heavier 
vehicles to drive on the roads than we do here. So therefore we 
have to have sometimes 30 to 40 percent more vehicle traffic on 
commercial vehicles then you would have in our competing 
country just to the north of us.
    Mr. Geddes. Yes, thank you for the question. There is a 
large concern in the literature regarding the effect of axle 
weight on damage to roads. My understanding is that the current 
thinking in that the damage to the road is equal to the axle 
weight to the third power. Some people think it is the fourth. 
But I think, sadly, the third, big effect.
    Mr. Ribble. Would adding more axle not contribute weight?
    Mr. Geddes. Yes. It would, absolutely. So that is why I say 
it is axle weight. And one of the points of variable user 
charges is that they can not only vary with time of day, but 
they can also vary with damage to the road. So the cost of a 
Prius driving on a road is miniscule, while the cost of a heavy 
truck is exponentially more than that.
    Mr. Ribble. Which goes to the question of mileage-based 
user fees, how to do it fairly. Ms. Kavinoky, just quickly, do 
you think tolling is fair to commercial users if they still 
have to pay a diesel tax?
    Ms. Kavinoky. The Chamber does not have a strong position 
one way or another on tolling because our members are very 
split on the issue of tolling. I think that the question is 
ultimately what is the total amount that is being paid, and how 
is that speaking to the solvency of the trust fund. We could 
sit here and talk about tolls, but tolls are not a question of 
trust fund solvency. Tolls are really more of an issue of how 
you fund things at the state and the local level.
    Mr. Ribble. Thanks for being here. I yield back, Mr. 
Chairman.
    Mr. Garrett. Gentleman yields back. Mr. Blumenauer, 
recognized for five minutes.
    Mr. Blumenauer. Thank you, Mr. Chairman. I do appreciate 
the testimony. I would just make one observation relative to 
Mr. Geddes about transportation is changing. You have noted 
that we have peaked vehicle mile travel that has been growing 
dramatically, and vehicle mile travel per person has gone up 
very high. The VMT has leveled off, and VMT per person is going 
down. It is fascinating to look at what is happening with 
younger Americans. Those under 34 have seen something in the 
neighborhood of 23 percent reduction in VMT per capita. But 
what they do in terms of cycling, if I may put in a plug, has 
gone up almost 25 percent. Transit has gone up 40 percent.
    Americans are interested in more choices. When I turned 16, 
you know, you camped out in front of the VMT the night before 
so you could be the first in line to get your driver's license. 
And now we are watching that the number of driver's licenses 
for young people is going down. In fact, the number of people 
under 34 without driver's licenses is now up to 25 percent. So 
there is something going on; we need a transportation system 
that speaks to them.
    And I appreciate your opening the door to that notion, but 
I wish, Ms. Kavinoky, you might be able to elaborate on your 
point about mobility. Ronald Reagan established the Highway 
Trust Fund portion that dealt with transit, where we set up 
something so that there was not a food fight, and it spoke to 
the overall benefit. You point out that that was rejected, and 
it was last session. And I have a letter that I would like to 
put in the record signed by 400 groups and organizations, 
including yours, rejecting that approach last congress.
    Mr. Garrett. Without objection.
    Mr. Blumenauer. But can you elaborate on that mobility 
concept for a moment in terms of what business needs?
    Ms. Kavinoky. Business is looking end to end at trips. So 
if we are talking about supply chains, global supply chains, I 
talk to major retailers who say, ``Look, I do not want to 
debate about highways or transit, I do not want to discuss what 
is going on in 50 different states. What I need to know is can 
I get my product from its point of origin to its shelves, and 
how efficient that is.''
    One of the things that we have done at the Chamber is 
created something called the Transportation Performance Index 
that measures, among other things, mobility. And we are looking 
at the system as a whole. We are looking at roads, rails, 
runways, rivers, the whole deal. Because performance is not 
just about mode by mode by mode; it is how they work together, 
it is how they complement each other, it is how they provide 
substitute so that you have options for transportation in terms 
of cost efficiency, time, the relative needs that people have. 
And mobility is a question that is not just an issue in urban 
areas.
    I think during the SAFETEA-LU debate we heard a lot about 
mobility in solving urban problems. I was in Bloomington, 
Illinois last week where they talked extensively about the 
importance of their transit system, and the fact that their 
transit system is something that companies like State Farm, 
Mitsubishi, and the universities in that area demand. And they 
are leveraging public dollars to invest in that system. And it 
is about mobility, even in that midsized area.
    Mr. Blumenauer. I appreciate your referencing that. Indeed, 
as we get out of the metropolitan areas, mobility for the 
disabled, for elderly people, for young becomes even more 
critical. Mr. Chairman, I would ask that our colleagues who are 
talking about the potential of devolving this system over time, 
and your reference to letting more of these decisions be made 
at the state and local level, I would hope that you could share 
with us any research you have. There is a time to elaborate in 
a minute, but research you have that indicates that local 
governments are going to be interested in making substantial 
investments to facilitate freight movements for the nation as 
opposed to speaking to complaints and problems that people have 
locally. They may be able to tell you about State Highway 137, 
but if we are talking about that interconnectiveness, I can 
tell you as a former local official for 18 years responsible 
for transportation in Portland, they were not so much concerned 
about the throughput of freight, they were concerned about 
localized items that we tended to over invest in, and it was a 
struggle to have the commitment to freight and the larger 
issues. So if you can find some research that indicates that 
that system could work effectively, I would be very interested 
in it, because it is certainly not my experience. Thank you, 
Mr. Chairman.
    Mr. Garrett. All right, thank you. I think that is an 
interesting question to ask, too. See what Mr. Poole and the 
panel comes back with. Mr. Lankford is now recognized for five 
minutes.
    Mr. Lankford. Thank you, Mr. Chairman. Good morning, all. 
Interesting conversation we have walked through, and this is 
not some we are going to solve today, but I do thank the member 
for bringing this up because I think that this is a very 
important issue to be able to deal with that we have got to be 
able to solve long term. We do not have infinite number of 
dollars. We do have to spend what we do have wisely in the 
direction of this. Several years ago EPA put out an ethanol 
requirement for gallons of gas with an assumption that we will 
continue to have this rising use of gasoline year after year 
after year, and now we have a greater requirement for ethanol 
use that we actually have gallons of gas that are going out the 
door, and then trying to figure out how do we keep forcing 
ethanol even higher because we have gas that has not continued 
to rise as expected. Same thing when dealing with the gas tax 
issue. We are not using as many gallons as we expected. We do 
not have the dollars that we expected. And so what do you 
anticipate with that?
    So let me just ask some philosophical questions. We can go 
through these, and I have several I want to talk through. When 
you deal with the cost of miles of construction, which is less 
expensive to do, a mile of state highway or a mile of federal 
highway? Which is less expensive? Mr. Poole.
    Mr. Poole. Very clearly this mile of state highway because 
the state does not have all the costly requirements like Buy 
America, and Davis-Bacon, and so forth, that are imposed. One 
dollar of federal money significantly raises the cost of a 
highway project.
    Mr. Lankford. Does anyone else want to comment on that?
    Mr. Geddes. I would love to. As Janet mentioned, I served 
on the congressionally-created National Surface Transportation 
Policy and Revenue Study Commission that reported our findings, 
I think in January 2008; it was section 1909 of this 2005 
SAFETEA-LU Bill. And we sort of examined this issue, and the 
bottom line was we came up with if you accept $1 of federal 
money on a project, it adds 11 years to the time of completion 
for that project because of the array of regulations and other 
things. The need for processes, the processes do not go all at 
once, they go from one agency to the other, thus slowing it 
down, and, of course, time is money, and it adds enormously, 
Mr. Lankford, to the cost, not only to the cost but to the 
time. So we found that it is not necessarily a per-lane mile of 
construction of installing the tar or something, it is really 
that delay that is the major cost associated with the federal 
money.
    Mr. Lankford. Did MAP-21 help with that at all?
    Mr. Geddes. I believe it has.
    Mr. Lankford. There were a couple things in MAP-21 we tried 
to put on there. One was trying to stack some of those 
permitting processes.
    Mr. Geddes. Right, right. And that is an improvement, yes.
    Mr. Lankford. The second thing was to try to put it in 
categorical exclusions. There was $5 million categorical 
exclusion that was included in MAP-21 to allow us to say to a 
state, if your project is $5 million or less, even though you 
are getting federal funds, you go through and do the approval 
processes, and just check it off, and let us know that it was 
done, rather than go through the federal system. The folks in 
my state, in Oklahoma, have told me that that is going to save 
them about seven months of construction, just that part of it 
for every single project, and 80 percent of our projects in the 
state are $5 million or less. So it is a rapid acceleration. So 
the miles are going farther just by doing that.
    So the question begs to this, we can continue to try to 
figure out how to throw more money at projects, or we can 
figure out why does it cost so stinking much, and figure out if 
there is a way to make it less expensive, or at least to do it 
more efficient in the process. Some things, like a bridge, are 
incredibly expensive to do. It is a given. We are going to make 
it safe, we are going to do the verifications; we are going to 
do all those things. But if we are doing things that just make 
it more expensive, throwing more money at it is not going to 
help it.
    Mr. Geddes. I know, Janet, but if I could just say one 
final plug for bikes. I will put in my plug for public-private 
partnerships in this case, because one of the big 
underappreciated benefits of a public-private partnership, I 
think, is you can put both the risk of time delays and the risk 
of cost overruns onto the private sector partner that is 
constructing the facility, and you can reduce the need for 
federal funding because you go more to the private sector to do 
that. So you can get projects built on time and on cost with an 
enforceable contract, where they pay penalties if that is not 
the case. So that, to me, is a smart solution.
    Mr. Lankford. It makes a big difference. And Mr. Poole, you 
had mentioned before this thought about how do we narrow the 
focus. What is a federal construction project, and what is a 
state and local project? It seems in the past several years, 
including in MAP-21, there is an expansion of more and more 
roads, and everything that you touch to the edge of your 
driveway now could have some federal nexus to say some delivery 
truck may, at some point, drive down that road and take it to 
another state, and so it is very important. That also has a 
federal nexus on it. How do we narrow the focus back down to 
say where we started in 1956?
    Mr. Poole. Well, I mean, that is what I suggested really 
needs to be done, and we are in a time period we are rethinking 
what the federal government does is crucially important. I 
mean, over the years, we have come up with all kinds of 
programs like Safe Routes to School, you know, that sound 
great. It is very much something that would be nice have and 
should be done, but is that really the federal government's 
business as opposed to the state or the community's business? I 
think this is the time for sorting out, for starting, at least, 
to sort out and legislatively defining what is truly federal 
and what should be included with the federal taxes and the 
spending, and what really better to go back to where it used to 
be as a state and local responsibility.
    Mr. Lankford. And with that, my time has expired.
    Mr. Garrett. The gentleman yields back.
    Mr. Lankford. I yield back.
    Mr. Garrett. Time has expired. Mr. Huffman, recognized for 
five minutes.
    Mr. Huffman. I yield my time to the gentleman from Oregon.
    Mr. Blumenauer. Thank you very much, Mr. Huffman. I 
appreciate your courtesy. I want to go back, if I could, for a 
moment, Ms. Kavinoky, just the notion here that we go back to 
1956, and we are just putting these federal monies on a few 
major arterials, as opposed to what my friend, Mr. Lankford, 
points out, that we have been looking more holistically in 
recent years in terms of making sure that there is a mixture in 
the works that deals with mass transit, which gives people 
choices, increases capacity. What happens in terms of our 
looking at the connections in terms of intermodalism. There was 
an ``I'' in the Intermodalism Transportation Surface Efficiency 
Act in 1991 which recognized that just throwing money in to a 
freeway did not help when goods need to move in a seamless 
fashion. There are connections between aviation, marine, rail; 
between local connections and interstate and arterial. Can you 
focus for a moment for us on whether or not there is a broader 
range of activities here that needs to be integrated for a 
transportation system to work?
    Ms. Kavinoky. Let me try and tie your questions together, 
if I may, because one of the things MAP-21 did was 
substantially eliminate the requirement that states spend 
dollars on things that we think are on lower national priority. 
Safe Routes to School is not a required program. It is not 
required that a state choose to spend money, with all due 
respect, on bike paths over fixing a bridge. But the states now 
have a planning process that they have to follow that will be 
tied to performance which we think is very important; 
performance around things like mobility, performance around 
things like freight mobility. And so it is incumbent, in fact, 
upon the states and the metropolitan planning organizations to 
establish their priorities and make those decisions within a 
framework of saying it is not just about an interstate, or it 
is not a binary choice between spending something on highways 
or transit. They are supposed to plan, and we believe, through 
Map-21 oversight, we will see that they are doing this. 
Businesses are much more involved now in the planning process 
than ever before. They are supposed to plan for mobility. They 
are supposed to plan for a system.
    So I go back to so that we could solve a Highway Trust Fund 
accounting problem by saying let's substantially narrow and 
tell a state, ``You can only spend this money on the interstate 
system.'' I do not think that is what they are asking us for.
    Mr. Blumenauer. You know, I agree with much of what you 
say, but to my friend, I would just note that there is a role 
for the federal government to establish policies. Highway 
safety is one of them. But for what the federal government did 
mandating things like seatbelts, every county in New Jersey 
could have mandated seatbelts. The federal government put forth 
a priority on safety, and I commend Secretary LaHood for 
zeroing in on it. It is a scandal in most of America right now 
the status of the condition for pedestrians and school 
children. You may not think State Routes to School is a high 
national priority. I invite you to come with me in North 
Carolina, in Nevada, in Iowa. I will hear it this weekend in 
Rochester, New York, where people look at the disproportionate 
number of people who are killed in pedestrian and bike 
accidents, and look at how little federal money flows in terms 
of that allocation. And they think, you know, maybe there is a 
national priority.
    I think there is, in fact, a national priority surrounding 
things like safe cycling, safe pedestrian activity, and having 
transit available to people. A hundred years ago we had public-
private partnerships that had unprecedented mass transit 
available. You could go from Boston to Chicago on street cars 
that, I think, there was like a 12-mile gap. Communities were 
served with choices for people. Those choices went away because 
we put almost everything into the highway and the individual 
automobile. And I think this is a very important conversation 
for us to have about what federal policies look like, and how 
much money we put, and, yes, giving choices to people that set 
standards that meet the economic and safety needs of our 
community. Thank you.
    Mr. Garrett. The gentleman yields back, and the gentleman 
recognizes that the federal regulators and federal legislators 
are more caring and more compassionate than the state 
regulators.
    Mr. Blumenauer. That, of course, is not what I said. I said 
they could have done it, and they did not.
    Mr. Garrett. Exactly. Yield now for five minutes to Mr. 
Rice. Then to Mr. Williams.
    Mr. Williams. Thank you. I am in the transit business. I 
have been I the automobile business for 42 years, my family 73 
years, so I am very interested in making sure we move people 
and product around our country. And also I do believe the 
federal government has a huge role in infrastructure. A couple 
questions real quick to you, Mr. Poole. What percent of tax do 
you think we should pay if we do not go 18.4 cents?
    Mr. Poole. I have not tried to do any calculation on that 
because the political prospects of increasing the federal tax 
seems so low, I have decided it is more productive to focus on 
researching the mileage-based user fee approach.
    Mr. Williams. Right. CAFE standards, of course, we know are 
going up; what affect do you think if we lowered the CAFE 
standards that would do?
    Mr. Poole. That would give a lot more breathing room for 
the federal fuel taxes.
    Mr. Blumenauer. Harder to breathe.
    Mr. Williams. I am certain.
    Mr. Poole. Seriously, that would make a significant 
difference. The decline that is projected, and the amount of 
dollars available would be significantly eased. Yes.
    Mr. Williams. Going back to original intent, what do you 
think that would do? That would have a big increase, too.
    Mr. Poole. Well, there is plenty of money projected by CBO 
over the next 10 years to fully fund the existing highway 
program, and if you narrow the scope to, as I suggested, to 
interstate-type quarters, you could basically double the amount 
of spending that is currently projected.
    Mr. Williams. So if you go back to original intent, that 
answers a huge part of the problem.
    Mr. Poole. In my view, yes. It does put a much bigger 
burden on the states and localities, but I will point out the 
states have been much more successful in the years since ICE-T 
in raising their own highway user taxes. There has been no 
increase in the federal level. More than half of the states 
have made significant increases. Florida has indexed its fuel 
tax. So the states have shown they have a better chance of 
doing this.
    Mr. Williams. I am from Texas.
    Mr. Poole. Well, yeah, right, right. Texas has done a great 
job.
    Mr. Williams. Okay, but expanding the users so that 
everybody should pay something, I mean, that is something we 
need to take a look at, too, because where the 18.4 cents is 
carrying the load.
    Mr. Poole. Yes, yes. No, I think the user pay model is what 
we should be strengthening.
    Mr. Williams. It is kind of like taxes. Everybody should 
pay something.
    Mr. Poole. Everybody should pay something, I agree.
    Mr. Williams. Got it. The other thing is, too, when you 
talk about the variable-based mileage fee, I was sitting here 
listening to how does it work and so forth. I am interested, 
what would it cost? The problem you have got is, is when we are 
raising the CAFE standard, it is projected when it gets to 53 
miles a gallon, 7 million people are going to be taken off the 
road. They will not be able to afford a car because it will be 
so expensive. So we could have the same problem if we go to a 
variable mileage fee. What is going to make that happen? What 
is that going to do to the price of vehicle?
    Mr. Poole. Well, I do not think it is going to much affect 
the price of the vehicle. It will affect when and where people 
use their vehicles. I mean, if you have a 15 cent a mile 
variable charge on the freeway at rush hour, some people are 
going to decide to carpool who otherwise would not. Some people 
would use bus rapid transit in priced lane.
    Mr. Williams. But we do not know how it is going to work.
    Mr. Poole. We do not know yet. No.
    Mr. Williams. It is a theory right now, and that is all it 
is?
    Mr. Poole. And that is why we need more research, more 
experimentation and pilot programs.
    Mr. Williams. All right. Janet, you mentioned that you had 
done a study in the chamber, the 2015 to 200, 2020 to 2025. Did 
I understand you say from '15 to '20 it is a tax increase?
    Ms. Kavinoky. So we are looking in three phases. Have to 
solve the 2015 cash flow problem from the trust fund.
    Mr. Williams. What is that tax increase?
    Ms. Kavinoky. We still believe we still need to calculate 
that, but I would refer you to the most recent Simpson-Bowles. 
It says 11 to 12 cents would be what was needed in that year to 
solve the problem, but what I would like to do is calculate 
that for you specifically and get back to you.
    Mr. Williams. So taxes would be 30 cents?
    Ms. Kavinoky. Yes. Taxes would have to increase to fix the 
trust fund problem in 2015, or we will have to transfer general 
funds. Not a real popular discussion, I understand, to have 
here, but they do not pay me to have popular discussions.
    Mr. Williams. All right. And then '20 to '25, that is still 
what we would do in that period of time?
    Ms. Kavinoky. I think it is possible that in the 2015 to 
2024, so before we get to 2025, that user fees, current taxes, 
or some combination of other revenues, and I actually brought 
with me a small stack of the research that gives you the 
funding options, would be the option we are looking at. Until 
we can, as Bob has said, as Rick has said, look at some of 
these others research options.
    Mr. Williams. So it is still in the works?
    Ms. Kavinoky. It is still in the works.
    Mr. Williams. Well I appreciate your-all's comments, and I 
yield back.
    Mr. Garrett. Gentleman yields back for Mr. Jeffries. Oh, 
wait. No, Bill came in. Gentleman from New Jersey is next.
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Chairman, I 
would like permission to enter into the record a statement from 
the American Counsel of Engineering Companies with your 
permission.
    Mr. Garrett. Without objection, so ordered.
    Mr. Pascrell. The Chairman, I understand that we have a 
budget committee, and we are that, and we need to ensure that 
we are responsible with the public's funds. However, for a 
decade, I served as a member of the House Transportation 
Committee. Serving on that committee, I sat for hearing after 
hearing about how our nation's infrastructure is not keeping up 
with our growth, and we are falling behind competitors from 
across the globe. I heard from too many witnesses about how 
congestion is costing families and businesses time and money. I 
heard from too many witnesses about how our roads are crumbling 
and our bridges falling down, literally. And we know that 
federal investment in construction equals jobs for unemployed 
Americans. Analysts have estimated that for every $1 billion 
invested in transportation as many as 35,000 people get jobs.
    It is our jobs, as elected representatives, to find 
solutions for these problems. Congress used to be able to renew 
our federal transportation program in a bipartisan way. When I 
got on the Transportation Committee, Chairman and Ranking 
Member said to me very clearly, ``Look, this is one committee 
where we are going to work together, we are going to fight and 
argue, but we are going to come in this together.'' Whatever 
happened, Mr. Chairman, to that feeling of working together on 
these issues that are prioritized? Too many short-term 
extensions followed by a modestly-sized reauthorization. We had 
to fight like hell to get a two-year extension on the highway 
bill, transportation bill. Ensuring solvency for the trust fund 
is a key component. Admitting our transportation challenges 
while patches in the budget for general revenues are 
desperately needed. It is a dereliction of our duty to allow 
our transportation systems to flounder. And this happening in 
many states in the union where they have their own 
transportation funds that are depleted.
    So who takes care of this stuff? Janet, the trust fund 
needs new resources and revenue. Every option needs to be on 
the table. I am telling this Committee, and I continue to tell 
my brothers and sisters on the Committee that we need to find 
the resources to meet the challenges of our nation.
    Now I would like to ask Ms. Kavinoky this question. Does 
the Chamber of Commerce have a position on the legislation 
which deals with this, supposedly deals with this, HR 1065, the 
so-called State Act? Do you have a position on that bill which 
would place much of the burden on the states rather than the 
federal government? Even in partnership, let me use that would 
partnership. Good word today. What is your position on that?
    Ms. Kavinoky. Congressman, we have not looked specifically 
at that legislation but I am somewhat familiar with it, and as 
I referred to in both my written statement and my oral 
statement, the Chamber does not believe that leaving the states 
and the localities to handle transportation problems is going 
to serve the mobility needs of the country. I certainly do not 
disagree that there are things we can do to take the burdens 
off of them, to provide states with the kind of flexibility 
that they need, and to make sure that every federal dollar 
stretches farther, but we still believe there is a strong 
federal role in both policy and investment in transportation.
    Mr. Pascrell. Mr. Chairman, when you put forth this 
legislation, the State Act, I thought it was very interesting, 
and it reminded me of our debates back in the New Jersey 
Assembly many moons ago, when we both served together.
    Mr. Garrett. I remember those days. Fond memories.
    Mr. Pascrell. Fond memories. I have really great memories, 
Mr. Chairman. You said in the statement that our children and 
our grandchildren's future must put an end to Washington 
bailouts.
    Mr. Garrett. Okay.
    Mr. Pascrell. Do you believe that the trust fund is a 
bailout of our transportation needs in this country?
    Mr. Garrett. What I was saying was that up until 2008 or 
2009, my constituents and yours had to come down to Washington 
and literally beg us, as congressional representatives, to get 
our own New Jersey dollars back, and I said that should not be 
the case. They should not have to beg us to gather the money 
because the people are paying every day in your district and my 
district at the pump.
    Mr. Pascrell. Well, you know, Mr. Chairman, we certainly 
pay our fair share of taxes in the state of New Jersey.
    Mr. Garrett. And so we should keep it.
    Mr. Pascrell. But the point of the matter is this is one 
nation. We are not talking about alcoves, we are talking about 
one nation of 50 states. In fact, President Eisenhower, whom I 
admire, he put the interstate transportation system basically 
together, spent money.
    Mr. Garrett. And to the best of my knowledge, that 
interstate system has been completed.
    Mr. Pascrell. But it needs to be repaired. It needs to be 
maintained. Bridges go over, you know, tunnels go under it. 
There is a whole lot of changes that have occurred, Mr. 
Chairman. And I respect what you are doing on this. I do not 
agree with anything in the bill, but I understand that we have 
got to find some other ways. We got to find some other ways 
that we are going to address the trust fund. And we have to do 
the same thing in New Jersey, do not we? We cannot face the 
trust fund. The governor of the state does not want to deal 
with having to possibly raise gas taxes, you know? This is what 
we used to do. So what you are suggesting, as I understand it, 
you are suggesting that, in conclusion, you are suggesting that 
what we do is get the states to take on more of a burden by 
giving them the opportunity to name the projects if we are 
going to provide any dollars for them. Is that what you are 
suggesting?
    Mr. Garrett. I think that we are already providing that 
burden, now we should get the benefit. With that your time has 
expired. Mr. Rice, did you want to reclaim your time? Before 
you did not.
    Mr. Rice. I would like that, yes, sir.
    Mr. Garrett. Then you are recognized.
    Mr. Rice. This is more of a statement than a question. I 
appreciate all of you being here. You have certainly given me a 
lot of education. I have the great fortune of serving on this 
Budget Committee as well as the Transportation Infrastructure 
Committee, and, you know, I recognize that if we are going to 
be competitive worldwide, we have got to invest in 
infrastructure; that our competitors are doing that, and they 
are coming up where, at best, we are remaining stable; and that 
if we want to try to stem the tide of American jobs leaving our 
shores and start bringing some back, then we have to make 
ourselves more and more competitive.
    And I think the public agrees with that. I think both side 
of the aisle agree with that. I do not think you will hear any 
argument there. The question is how you pay for it. And I have 
heard interesting observations from you guys, but whether you 
call it a user fee, or whether you call it a gas tax, or any 
other thing, it is additional taxes. It is additional revenues. 
You know, I do not think the public would argue with that so 
much normally, but now it is hard, and there is a reason that 
it is so hard. The reason is because we are spending now. The 
federal spending has increased 15 to 20 percent in the last 
five years. Remains well above, as a percent of GDP, historical 
norms, and, at the same time, the spending in most states has 
gone down. Certainly spending in most households has gone down. 
And, you know, we are sitting here spending 15 to 20 percent 
more, yet our Highway Trust Fund is going broke. That is why it 
is so hard, because the public does not understand why our 
budget has increased so much, and yet we are struggling to find 
infrastructure money. And in the face of all this, that we 
would seek additional revenues when our spending has increased 
and everybody else's has gone down. That is what makes this so 
difficult.
    I agree that spending on infrastructure is not spending, 
per se, it is an investment. And that we have to invest limited 
dollars wisely, but I submit to you that we have plenty of 
money, it is just we are prioritizing how we spend it 
differently than I would if it was my choice. That we could 
find money from other places to fund this, and that this 
absolutely should have priority because it has such a huge 
effect on our overall economy, such a huge effect on our 
worldwide competitiveness, such a huge effect on jobs. And I 
think the public would agree with that, and I think that they 
would fight very hard against any additional fees, or revenues, 
or taxes, or whatever you want to call it in the face of our 
excessive spending across the board, which is what this Budget 
Committee is about, and which is why I think the work on this 
Committee is the most important, work being done in Congress 
right now. Thank you again for being here. Sorry I did not have 
any questions or observations, but you have truly taught me a 
lot, and I appreciate it.
    Mr. Garrett. Thank you. The gentleman yields back. Mr. 
Jeffries is recognized for five minutes.
    Mr. Jeffries. Thank you, Mr. Chairman.
    Mr. Garrett. Sure.
    Mr. Jeffries. Mr. Poole, the suggestion that you have put 
forth that we, as a federal government, should walk away from 
any contributions to state or city mass transportation systems, 
perhaps consistent with original intent, as another member of 
the Committee has put it, is that grounded in a belief that the 
federal government should not engage in the business of mass 
transportation, or is it just grounded in a solvency concern 
related to the trust fund?
    Mr. Poole. Near term it is grounded more in the solvency 
concern, but longer term, I mean, it really does reflect my 
view of federalism, that a the big challenge with the federal 
government being overextended is to sort out for the future, 
not in one day or one year, but over a period of time, what 
roles properly are the things that the federal government alone 
can do and should do for the country, and what things are 
really much more properly the responsibility of state 
governments and urban area governments? And my strong belief, 
after 25 to 30 years in transportation policy, is that local 
metro areas, transit is very important, but it ought to be 
their responsibility to decide the types and amount of 
spending, and what to invest it in on urban transit.
    Mr. Jeffries. Would you agree that robust urban transit 
systems reduce highway congestion?
    Mr. Poole. To a very limited extent. I mean, most of what 
has been invested in these days maybe has 1 percent or 2 
percent improvement in the share of people commuting by 
transit, as opposed to by some form of using the highways. It 
is not a very big bang for the buck in terms of what it costs.
    Mr. Jeffries. Reclaiming my time. Is there a connection 
between a robust mass transportation system and sort of the 
industry and economy on an interstate level?
    Mr. Poole. Very, very little. The Brookings Institution did 
a study about a year ago. Looked at what percentage of a metro 
area's jobs can be reached within 45 minutes by using the 
transit system, and in the vast majority of metro areas, it is 
something like under 10 percent of the jobs can be reached 
within 45 minutes, when the average commute in America is about 
25 minutes.
    Mr. Jeffries. Do you think Wall Street is an important 
industry for not just the city of New York, for the state, for 
the country?
    Mr. Poole. Certainly.
    Mr. Jeffries. And do you think that a robust financial 
services industry is a significant thing for the continued 
prosperity and vitality for the United States of America?
    Mr. Poole. Definitely.
    Mr. Jeffries. And would you acknowledge that the mass 
transportation system that connects the city of New York with 
suburban New Jersey and suburban Connecticut, three states, is 
important?
    Mr. Poole. Critically important for that metro area, 
absolutely. Mass transit makes imminently good sense there, 
just as it does in London, Tokyo, other very huge, dense urban 
concentrations.
    Mr. Jeffries. But it makes sense for the region, but as you 
have acknowledged, it also makes sense for the country in that 
context, correct?
    Mr. Poole. Well, in a roundabout way, yes, certainly.
    Mr. Jeffries. Okay, Ms. Kavinoky. Did I pronounce that, 
Kavinoky?
    Ms. Kavinoky. Kavinoky, yes.
    Mr. Jeffries. Kavinoky. Could you comment on the Chamber's 
view between a robust, mass transportation system, and a vital 
industry and economy across interstate commerce?
    Ms. Kavinoky. Certainly. You know, one of the interesting 
things, and, you know, Bob mentioned, yes, there have been 
studies that say that only a certain number of jobs are within 
a particular distance of transit, but businesses make choices 
to locate in places not just because their employees 
specifically can get to work on a specific transit system. It 
is about the vibrancy of the area, the customers that they 
have; it is about the quality of life that it provides, and 
that, in turn, grows economic prosperity. Businesses choose to 
locate where there are strong transportation systems, and that 
is not just about businesses who are choosing, ``Should I 
locate in New York, Chicago, Bloomington?'' It is about 
businesses saying, ``Should I locate in one part of the world, 
or another part of the world?'' So we do believe that transit 
is part of a transportation system that works.
    In addition, if you speak with industries that are moving 
goods, what they will tell you is that a lot of the bottlenecks 
on the interstate highway system are in urban areas. We are not 
going to be able to build our way out of that. Now, there are 
tools that are available, and, you know, we can certainly talk 
about variable pricing and other management tools for the road 
network, but at some point, we are talking about what is the 
capacity of the transportation system? How do we unlock those 
different bottlenecks? And that can be a function of road 
capacity, of technology, but also, yes, of transit, of rail, 
and other modes of transportation. So we still, I suppose, and 
this is something that Bob and I will disagree on, is I think 
that transit, and transportation more holistically, belongs as 
part of federal transportation policy.
    Mr. Jeffries. Thank you.
    Mr. Garrett. Thank you. Gentleman yields back. Mr. Rokita, 
recognized for five minutes.
    Mr. Rokita. I thank the Chair, I also thank the witnesses. 
Good morning. Great discussion we are having on the whole. I 
had to step out for about five to 10 minutes to congratulate 
the Teacher of the Year in Indiana, Suzanne Whitten, so a 
shout-out to her. I apologize with my line of questioning, 
might overlap as a result. First of all, I wanted to see if Mr. 
Geddes had anything to add to the discussion that was just 
happening, that started with Congressman Jeffries' line of 
questioning?
    Do you want to--do you dare to step into that? Is that a 
yes or no?
    Mr. Geddes. Yeah, yes, sorry. Definitely yes. I am honored 
to step into the discussion. Basically the model that I 
utilized is, ``How close can we get our funding approach to 
what works in the vast majority of other utilities, and other 
goods and services, which is a variable user fee.'' And I think 
that Bob's proposal of focusing The Highway Trust Fund on 
highways is moving us closer to that. I think having transit 
parts, we can think of other parts, we have the leaky 
underground storage tank fund, et cetera, is moving us away 
from that fundamental model, and I think that is a mistake. I 
think we have a model that we know works very well, and a whole 
set of utilities for the provision of a whole set of goods and 
services, and it is not perfect by any stretch, but it is the 
best one we have, and I think we need to move our funding and 
financing for transportation infrastructure in that direction, 
rather than away from it, and I believe that Bob's proposal 
would help do that.
    Mr. Rokita. Okay, thank you very much. And the following 
on, Mr. Kavinoky. What kind of name is that, Russian?
    Ms. Kavinoky. It is Russian and Polish.
    Mr. Rokita. Yes, okay, well, I am a member of that tribe, 
so I can ask questions like that, I guess. Is it that position 
of the U.S. Chamber, then, that people who pay a gas tax really 
need to be paying for the more holistic policy of mobility and 
transportation? Is that what you are saying?
    Ms. Kavinoky. Not necessarily so.
    Mr. Rokita. Okay, well, let's stop there.
    Ms. Kavinoky. Sure.
    Mr. Rokita. So, right, when you put gas in your car, and 
you are paying 18.4 cents up to uphold and maintain the highway 
system; that seems fair to me. And Mr. Jeffries' comments, well 
taken, I am glad to see that someone on his side is finally 
acknowledging the value of Wall Street, instead of demagoguing 
it, but why do I have to pay for that if there has to be a 
subsidy for that industry, as he used as an example; why does 
the person who drives a car and puts gasoline in it have to pay 
for that industry?
    Ms. Kavinoky. Because you are not just paying for the 
maintenance and upkeep of the roads, you are paying for having 
the performance that you need to get from one place to another.
    Mr. Rokita. So you disagree with Mr. Poole inherently and 
wholly that it is only about a 1 or 2 percent difference 
effect?
    Ms. Kavinoky. I certainly have not looked at the research 
that he is citing.
    Mr. Rokita. Okay, so we do not know, right?
    Ms. Kavinoky. At this point, I do not know.
    Mr. Rokita. Yeah. Let's see what else. Mr. Blumenauer asked 
you two to provide some research on a particular issue. Did you 
want to comment on that now, because he was running out of 
time. I forget exactly what that was, but I do not know if we 
want to put that on record.
    Mr. Poole. Right, it was research on the interests of local 
governments in investing in things like facilitating national 
freight movement. The good example is Los Angeles, where 40 or 
50 percent of all the containers into the United States come 
through the ports of L.A. and Long Beach, and then have to be 
trucked through on the freeways and on trains.
    Mr. Rokita. So he did not find any evidence.
    Mr. Poole. Well, certainly, the Alameda Corridor is an 
example in Los Angeles of local self-help with some degree, a 
little bit of federal aid, to create a unified rail corridor to 
move a lot of that containers into one single corridor, to 
remove a lot of grade crossings, and so forth.
    Mr. Rokita. You indeed have such evidence, such research, 
and you will provide it?
    Mr. Poole. I will provide what I can, yes.
    Mr. Rokita. And Mr. Geddes?
    Mr. Geddes. I do not think I have much to add.
    Mr. Rokita. Here is what I would like to add to it. So this 
concept of devolution, where if we got the federal government 
out of the business of collecting all but a very small amount 
of the gas tax, and let each state decide what additional gas 
tax they want to add into that, would not we address Mr. 
Blumenauer's concern? Do not look at me that way. Would not we 
address Mr. Blumenauer's concern, which I think is a valid one, 
because we do need someone to look at the 30,000-foot level 
under national planning? Let the U.S. DOT do the planning, and 
let the states maintain, based on the taxes that they mostly 
now will collect, instead of making this money go all the way 
to Washington, in some judgmental fashion, come back.
    Mr. Geddes. Can I comment on that?
    Mr. Rokita. Yes, please.
    Mr. Geddes. I would strongly urge the committee to take a 
look at the way the freight rail system in the United States 
works. Freight rail, because in The American Society of Civil 
Engineers report that was cited for 2013, that is a quadrennial 
report, the sector that had the biggest improvement in grades 
was freight rail, which is largely based on the approach that I 
am suggesting of heavy, private infrastructure investment with 
a variable per-unit price charged to shippers. And we have 
freight rail systems, like take a look at CSX and their map, 
Union Pacific, BNSF, that crosses state lines, and they are 
able to optimize that system across state lines, just through 
proper business methods.
    Mr. Rokita. To a free market kind of principle?
    Mr. Geddes. Of course, of course.
    Mr. Rokita. Yes, and my time has expired. I yield back.
    Mr. Garrett. Gentleman yields back. Gentlelady from 
California. This lady is recognized for five minutes.
    Ms. Lee. Good morning. I apologize for being late. So if my 
questions are redundant, I am sorry. But, just wanted to first 
thank you for being here again, and just say that, you know, 
our nation's highway system and public transit system, they are 
really key infrastructure backbones that have been critical to 
our nation's strength and economic growth. I think everyone 
agrees with that. Also, these public investments have allowed 
businesses and families across our nation to not only survive, 
but to thrive. They have created tremendous good-paying jobs 
with benefits.
    A couple of things I wanted to ask you though, in terms of 
just the funding as it relates to the gas tax on low-income 
Americans. And I would like all three of you to answer this 
question if you could. In terms of low-income Americans, do 
they pay proportionally more in gas taxes to travel to their 
jobs and to live their everyday lives? Do they pay more than 
upper-income families? And then if they do, what can we do to 
reduce some of this burden? And would relying on more public 
and private roadways that charge tolls, would that increase or 
decrease the burden of low-income families?
    Then the second question has to do with incentives for 
green alternatives. Some proposals, as I understand it, would 
require drivers of alternative fuel cars, like electric or 
hybrid cars, or even simply more efficient, high-mileage cars, 
actually to pay more, because these drivers buy less gas, and 
consequently pay less in gas taxes. So what would the impact of 
removing incentives for getting more drivers to conserve gas, 
and to adopt cleaner and more efficient technologies, what 
impact would this have if we do raise the rates, the gas taxes, 
for those who drive alternative cars and try to conserve?
    Mr. Poole. Let me take a stab. On the question of equity, 
fuel taxes are widely seen as regressive. They take a bigger 
bite out of family income for low-income people than for 
higher-income people. Although, it goes both ways; higher-
income people generally have much longer commutes, they live in 
nice, wealthy suburbs, and so it is not clear what the overall 
difference in incidence is of fuel taxes, rich versus poor, 
well-off versus not. The equity impacts of a mileage-based 
system are still being studied, and it is not really clear how 
that would work. Again, it depends partly on the commuting 
patterns that people have, where the jobs are versus where 
people live, and, you know, how far the average distance is. To 
the extent that that system would be variable prices in urban 
areas to deal with traffic congestion, it would certainly 
provide incentives for more use of transit, and more carpooling 
to share those costs, and though that would probably, as is 
today, that would tend to skew toward more lower-income people 
than high-income people.
    The impact on green cars, mileage-based user fees, there is 
a trade-off there. What we are seeing is that what you have to 
look at is there is a whole bunch of policy tools that 
government has to deal with energy efficiency and reduced 
greenhouse gases, and so forth. But CAFE standards, which are, 
you know, going to double the required fuel economy for new 
vehicles by 2025, are the most powerful tool the federal 
government currently is using, and those would be unaffected by 
a shift to mileage-based user fees. It would probably hasten 
the transition of people away from fossil fuel powered cars in 
any event, so it is a question of, ``Do you need to still have 
an incentive in the price of the motive power, you know, the 
source of propulsion, because we already have CAFE standards 
and other kinds of environmental standards.'' It is not clear. 
I think it is kind of overkill, and then we do not need to 
build into the mileage-based fee some kind of a green component 
because we already are phasing out fossil fuels thanks to the 
CAFE standards, and that problem will go away over time.
    And Oregon, I must say, is one of the pioneer states in 
looking at charging a mileage-based fee initially to electrical 
vehicle drivers, because they are not currently paying 
virtually anything to support the costs of the road system, but 
they are taking up the same amount of space on it as drivers of 
gas-powered cars.
    Mr. Geddes. Thank you, Ms. Lee, for the great questions, 
and this is an issue that is still being worked out, and it is 
a very important issue. I would just add a few things to what 
Bob said, which I largely agree with, is that lower-income 
folks do not use cars as much as folks in the higher end of the 
income distribution. Tend to use buses, rapid transit more, and 
I believe that the proposals that we have suggested today 
would, by pricing road use, you will get more use of those 
other alternative forms of transit, which will improve those. I 
think that that would be a benefit to folks at the lower end of 
the income distribution.
    Mr. Garrett. I will cut you off there, Mr. Geddes. We have 
got to get on to the next question, your time has expired.
    Mr. Geddes. Okay.
    Mr. Garrett. Thank you very much. Mr. Woodall is recognized 
for five minutes.
    Mr. Woodall. Thank you, Mr. Chairman, and I appreciate the 
gentlemen from Oregon's encouraging this hearing to be held. I 
think about what Mr. Pascrell said, that during his time that 
this transportation used to be a bipartisan, cooperative issue, 
and it is not now. And I go back to one of your opening 
statements, Mr. Poole, where you made the statement that as The 
Highway Trust Fund has lost its focus, it has lost public 
support. I do not know about the school districts that Mr. 
Blumenauer was referring to earlier, but I walked the school 
every day of my elementary school life, unless I was riding my 
new huffy bike that Santa Claus brought one of those years. And 
when an intersection got to be too busy, the community got 
together and we put in a traffic light there and crosswalks, 
and when it still was too busy, we brought in a crossing guard, 
and the community had this need and this concern, and the 
community solved these things.
    I find when I am working on these issues back home, it does 
not much matter whether I am working with a Democrat, an 
Independent, or a Libertarian, or Republican, we are talking 
about somebody's kids and somebody's family, and we can come 
together to do those, but as we elevate what that principle 
should be, past my city, past my county, past my state, all the 
way to Washington, D.C., we do begin to lose that focus.
    What is that national interest now? Ms. Kavinoky, I know 
you expressed some concerns about devolving some of these 
responsibilities to the states. I have my biggest county 
Chamber of Commerce. In fact, this county's bigger than a 
congressional district, Gwinnett County is here today, and we 
are going to talk transportation. I have no doubt the first 
word out of their mouth is going to be, ``We need to devolve 
these things back to the local level for all of the reasons 
that Mr. Lankford referenced, and Mr. Poole referenced, and Mr. 
Geddes referenced, and that is that we have problems today, and 
you folks in Washington are not solving these problems today, 
and if you let us do it, we would do it for less, and get it 
done faster, and we would start that process today.'' But that 
is not what you are hearing from your member companies.
    Ms. Kavinoky. It is not what I am hearing from my member 
companies. Certainly not what I heard from the Metro Atlanta 
Chamber this morning, and I am curious, and this would be an 
interesting dialogue for you and I to have, on why nine out of 
12 districts in Georgia rejected the T-SPLOST proposals, given 
that that was a way to substantially step up investment in 
transportation? What I hear from companies in Georgia, from 
companies across the country, is ``We still need to maintain 
that interconnected system, and that we still need federal 
assistance in doing so, even if we are going to take those 
funds and we are going to leverage them to get funds raised at 
our own levels.''
    Mr. Woodall. I think that unquestionably true. It 
fascinates me up here in this part of the world because it is 
not this way down in Georgia. If I drive I-95 from suburban 
Washington down to Richmond, I am paralleling U.S. 1. U.S. 1 is 
never more than two miles away, an entire drive from Washington 
to Richmond, and yet we are funding both of those cars. I would 
tell you we have a national interest in maintaining I-95, but 
not a national interest in maintaining U.S. 1. That is now a 
local Virginia concern. I drive north to Baltimore. I have U.S. 
Interstate 95 on one hand. I have the Baltimore-Washington 
Federal Parkway on the other hand. They are never separated by 
more than five miles, and yet I have U.S.1 running right 
through the middle of those from here to Baltimore. I would 
tell you we do not have a national interest in maintaining 
three corridors on that same 50-mile stretch. Perhaps we have a 
national interest in maintaining to it, and that is what my 
local folks would suggest.
    One thing they have on their mind, though, is we have a new 
toll system down there, a toll system that the prices go up 
during heavy traffic, down during light traffic. You can go 
free if you are in a carpool. Otherwise, you have pay. I am 
glad to hear that no one is in favor of putting a GPS system in 
my car that is tracking where I am going and what I am doing. 
My constituents would be pleased to hear that was universally 
rejected today. What about a unified national toll standard? 
Gentleman from Oregon talked about the merits of setting a 
federal standard. I think there are three competing toll 
standards out there today. What about that opportunity to, in 
an effort to bill people for what they use, having a 
standardized toll system that allows me to be billed in that 
way?
    Mr. Poole. You know, I think that critically important, and 
the toll industry has an Alliance for Toll Interoperability 
that is working on that. They have pile-up projects setting up 
clearinghouse to exchange information, including with state 
departments and motor vehicles. This is coming; federal 
government can encourage the continued work that is going on 
already on that with, you know, a little more research money 
and that sort of thing. But that is definitely going to be 
here. Within probably five years, we will have some form of 
national interoperability, and that makes it more practical to 
do things like financing the replacement and modernization of 
the existing interstates with a 21st century version that could 
be financed in this way through toll finance.
    Mr. Woodall. I thank you all for this discussion.
    Mr. Garrett. Gentlemen's time has expired. Now recognize 
Ms. Lujan Grisham from New Mexico for five minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I, too, 
appreciate this discussion, because having critical investments 
and having as a priority, both publicly and privately, 
transportation infrastructure certainly is not something new, 
and making sure that we can continue those investments in the 
future. I am reminded that in December of '82, when Reagan was 
president, the unemployment rate was 10.8 percent, interest 
rates were about 20 percent, deficits were skyrocketing, 
country was definitely in a recession, and even in that tough 
economic time, the president understood that it was essential 
to invest in infrastructure. And when they signed the Surface 
Transportation Assistance Act, among other things, he pointed 
out that we could now, as part of our heritage, weave a network 
of highways and mass transit that has enabled our commerce to 
thrive, our country to grow, and our people to roam freely and 
easily to every corner of the land.
    And as a county commissioner, this exact discussion about 
what we do with a critical federal highway, in much-needed 
repair and expansion, that is critical to our business 
corridor, and local bodies of government do not typically get 
involved, certainly not the county. City road, federal issues, 
state issues, that is the partnership, and we did the cost-
shifting debate because of the economic realities for far too 
long, so now the project is much more expensive, and so, as a 
county commissioner, I said, ``The county should put money 
in.'' If you want people to put money in, then step up and 
figure it out. So we did that, and it spurred, then, the entire 
investment. All right, state put in their money, the city put 
in their money, we put in our money to the highest degree that 
we could, and the feds put in money. Now the fed part was less 
than 10 percent, so the notion that there is all that money 
coming from here, I think we need to be clear about that. And 
when we talk about shifting to states, I think we should be 
clear that we have. And we are shifting in all kinds of ways. 
And when we made that critical decision, which was supported by 
business, of course, we did not buy fire trucks, and 
ambulances, and we did not provide safety net investments, and 
we did not take care of other critical road or mass transit 
projects, so I want to go back to this shifting to the states 
and to other entities. What other kind of gaps do you foresee 
as we are asking states and other folks to step up in an 
environment where they cannot? And I will do that for Ms. 
Kavinoky.
    Ms. Kavinoky. Okay, sorry. I think that we are seeing very 
consistently what you are seeing, that states and localities 
are already stepping up, and, in fact, they are providing a 
greater and greater portion of the revenues that are needed, 
that ultimately could be leveraged through public-private 
partnerships, or that could be used in other ways. If the 
federal government walks away, if we say we are not going to 
fix the Highway Trust Fund problem, we are not going to fill 
the hole that is coming, we will simply sort of de facto 
devolve to the states more, that just puts more burden on the 
laps of the states and of the localities to come up with even 
more money.
    I am not hearing, as I travel around the country, an 
ability to continue going at it alone, but I also, and I bring 
this back to where I started in terms of the federal role, 
there is still a federal role, there is a national interest in 
investing in our economy, in keeping the country together, in 
policy priorities, and if we are going to advance the national 
interest of the country, that has to come with some of that 
investment. Although I think that we will increasingly see 
states and locals stepping up, and we should continue 
encouraging that, we should continue encouraging them to 
leverage those limited dollars as far as they can, that does 
not mean that we should solve our transportation funding 
problem at the federal level by simply saying, ``We are not 
going to deal with revenue.''
    Ms. Lujan Grisham. And I appreciate that, because then we 
are just going to cost-shift other priorities back to the feds, 
and we just keep this circular environment without having 
effective partnerships for effective priorities. With that, I 
would like to balance the remainder of my time, Mr. Chairman, 
to Mr. Blumenauer.
    Mr. Garrett. Recognized.
    Mr. Blumenauer. Thank you, I appreciate the gentlelady's 
courtesy. Two observations, one about marginal impact of 
transit. During the L.A. transit strike in 2003, congestion 
increased 89 percent. It has a huge impact, not just in 
communities like L.A., and Chicago, and New York, but in 
Oklahoma City, Salt Lake, as you mentioned, this is part of 
that fundamental infrastructure; also, the railroad investment 
that you are referring to, part of that has been a significant 
uptake in federal money that went to the railroads, and I would 
take modest exception of the notion that the Alameda Corridor 
is mostly just local money. We have that huge federal 
investment in that, and a number of us on the Transportation 
Committee worked with Southern California to make that rail 
connection work because it was not cost effective for them, but 
it made a difference for Chicago and points in between. Thank 
you.
    Mr. Garrett. Gentleman's time has expired. Mr. Nunnelee 
from Mississippi is recognized for five minutes.
    Mr. Nunnelee. There we go, thank you Mr. Chairman. I want 
to thank the Chairman and the staff for putting this meeting 
together. I do not think we get to do nearly enough of this, to 
talk about big ideas, and I want to take up where Mr. Rokita 
left off. He was talking Mr. Kavinoky about this concept of, 
men and women when they go to fill up with gasoline or diesel, 
and the idea that, yes, they are paying for the roads they 
drive on, but also, it is the Chamber's position that they pay 
for part of the mass transit as part of an overall 
transportation policy. I want to look at it from a little 
different angle. What is the Chamber's thought on mass transit? 
When an individual goes to work, they buy ticket, they are 
paying for part of their cost of transportation, the taxpayers 
and their local and state are helping subsidize, and the 
taxpayers that are buying gasoline and diesel are paying part. 
What percent does the Chamber think is right for the people 
that are buying gasoline and diesel to pay for the overall 
total transportation? Is it 50 percent, 20 percent? How much 
should the mass transit passenger pay for their own 
transportation, and how much should be subsidized by people 
that are buying gas and diesel?
    Ms. Kavinoky. You know, that is not something that is 
codified in chamber policy, to the best of my knowledge. I have 
been around for a little while. What I would point out is, for 
road users, they are also not paying the full cost of their 
roads. In fact, in most states, general sales taxes, general 
taxation, state and local bond issues are also part of those 
roads. So there is a degree of subsidy across all of the 
transportation networks. The Chamber has been supportive of 
continuing the 2.86 cents of the 18.4 cents of the gasoline tax 
that has gone to transit. But we, as I noted in my oral 
testimony, we are taking a very close look for the future 
funding of transportation at all of the possible revenue 
options for surface transportation. And so although I 
acknowledge that, in the past, we have focused on that 2.86 
cents out of gasoline taxes, and then complimenting that with 
general funds, certainly, again, according to the Commission 
that Dr. Geddes was on, and others, we may need to look at 
diversifying those options.
    Mr. Nunnelee. All right. And then by extension, bicycle 
users, and, again, I support those people that ride bikes to 
work or for pleasure, but as I see it, outside of being general 
taxpayers and helping pay for what they utilize, they do not 
pay anything to bypass the roads that they are using on. Has 
the Chamber taken a position that should bicycle users pay 
residual costs for the infrastructure that they are using?
    Ms. Kavinoky. You know, again, we have not taken a 
position, but I can certainly say that in the discussions we 
have started having with our members, we have begun saying, 
``Well, if you are using a road, or if you are using a bike 
path, or if you are using the rails for transit, you know, we 
ought to consider the different forms of revenue that may come 
to that to support investments.'' So, I think that is an open 
question for us.
    Mr. Nunnelee. And then just maybe wrap it up for the other 
two members. If we were to go back to the original intent of 
the Highway Trust Fund, what impact would that have on the 
future of that fund?
    Mr. Geddes. My understanding of the original funding 
approach under President Eisenhower for using a per-gallon fuel 
tax was that it was as close to a toll as he could get without, 
in those days, physically having to stop traffic to throw money 
into a basket, which would have defeated the whole purpose of a 
high-speed limited access system of highways. So President 
Eisenhower saw the next best thing as charging a per-gallon gas 
tax. So I think moving back to that, sir, your question is 
about the funding, and I think it would be funded the way 
electricity is funded, the way natural gas is funded, the way 
other utilities, I believe, are successfully funded through 
per-unit fees. And I am almost certain that we would get a lot 
more funding into our transportation system if we did it that 
way.
    Mr. Poole. Let me just add, in my written testimony, I show 
the numbers that currently the interstate system, state and 
federal government is spending about $20 billion a year on. If 
the Highway Trust Fund were devoted exclusively to the 
interstates, the $40 billion would be twice the amount 
currently being spent on interstates, which would certainly 
provide a way to start the aggressive reconstruction and 
modernization of the interstates. So I am not saying, 
necessarily, that we should do that, but that is how the 
numbers work out.
    Mr. Garrett. Gentleman's time has expired.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Mr. Garrett. I want to thank the ranking member, all the 
members, and especially the witnesses for an enlightening 
exchange of information; this is one of our better hearings. I 
thank you all, and this hearing is adjourned.
    [Additional submissions of Hon. Reid J. Ribble, a 
Representative in Congress from the State of Wisconsin, 
follow:]

                                                    April 24, 2013.
Hon. Paul Ryan, Chairman; Hon. Chris Van Hollen, Ranking Member,
Committee on the Budget, U.S. House of Representatives Washington, DC 
        20515.
    Dear Chairman Ryan and Ranking Member Van Hollen: We are writing in 
regards to the House Budget Committee hearing, ``State of the Highway 
Trust Fund: Long-Term Solutions for Solvency.'' The undersigned 
organizations urge Congress and the Administration to address the very 
serious financial situation of the Highway Trust Fund (HTF).
    Remarkable progress was made in 2012 through Moving Ahead for 
Progress in the 21st Century (MAP-21) to reform and streamline the 
federal highway and transit programs while providing stable funding 
through fiscal year 2014. Unfortunately MAP-21 did not provide for the 
long-term financial stability of the HTF. As a result, according to the 
Congressional Budget Office, the HTF will completely exhaust its cash 
balance sometime in Fiscal Year 2015, necessitating steep cuts in 
highway and transit spending unless new revenues are provided. If 
Congress were to maintain the Federal surface transportation program 
investment at current levels, and the Highway Trust Fund would need an 
additional $150 billion in revenue through 2024.
    As Congressional leaders and the Administration debate a fiscal 
path for 2014 and beyond, we urge the inclusion of stabilizing the HTF 
as part of that discussion. The Administration's budget proposal and 
the budget resolutions in the House of Representatives and Senate 
assume full funding for HTF programs in fiscal year 2014 and recognize 
the funding challenges following the expiration of MAP-21, with the 
Administration and Senate providing a reserve fund that allows for 
increased transportation spending. It is disappointing that none of the 
budgets offers an adequate proposal to address the long-term structural 
problems of the HTF. We recognize the economic and budgetary challenges 
our country faces; however, by returning the HTF to a user-supported 
revenue system with predictable, sustainable and growing revenue 
sources, Congress and the Administration could reduce budget deficits 
by approximately $150 billion during the period from 2015-2024, or 
about $15 billion per year.
    The federal government has a fundamental role to play in investing 
in the nation's highway and transit system to serve passenger travel, 
interstate commerce and national defense. Unlike most other government 
programs, the HTF programs historically have been funded entirely by 
fuel taxes and truck fees paid by those who use and benefit from our 
national highway system. However, the user fees, which were last 
increased in 1993, continue to be insufficient to meet the Nation's 
needs. We hope Senators and Representatives will make a distinction 
between general taxes and user fees paid by the direct beneficiaries of 
the program in considering solutions to the HTF funding crisis.
    A long-term solution to the HTF's revenue challenge would boost the 
economy while reducing the deficit. Putting the HTF on sound financial 
footing is not only fiscally responsible, but the combination of this 
new stability with MAP-21's policy reforms would maximize the impact of 
federal surface transportation investments to facilitate economic 
growth and job creation.
    We encourage the Administration and members of Congress in both 
parties to work together on this matter, explore all options, build a 
consensus, and then take decisive action to address the financial 
future of the HTF. Our organizations stand together to support you in 
that effort.
            Sincerely,
                 Associated General Contractors of America;
                            American Trucking Associations;
  American Association of State Highway and Transportation 
       Officials American Road and Transportation Builders;
      Agricultural & Food Transporters Conference American 
  Association of Exporters and Importers American Concrete 
                                      Pavement Association;
American Council of Engineering Companies American Highways 
      Users Alliance American Moving & Storage Association 
American Public Transportation Association American Society 
                                        of Civil Engineers;
   American Traffic Safety Services Association Associated 
 Equipment Distributors Associated Equipment Manufacturers 
                                 Building America's Future;
                      Concrete Reinforcing Steel Institute;
                         Institute of Makers of Explosives;
International Warehousing & Logistics Association National 
                              Asphalt Pavement Association;
 National Private Truck Council National Retail Federation;
 National Industrial Transportation League National Stone, 
 Sand & Gravel Administration National Tank Truck Carriers;
   Owner-Operator Independent Drivers Association Portland 
                                        Cement Association;
   National Ready Mixed Concrete Association SSAB Americas;
            Steel Manufacturers Association Transportation 
                                Intermediaries Association.

     New Study Examines Fuel Efficiency Impact on Gas Tax Receipts,
              Projects $365 Billion Highway Fund Shortfall

    Washington, DC.--As automobile fuel economy increases, the federal 
highway program's fiscal position will become ever more precarious, a 
new study by researchers at the College of William and Mary finds.
    The team from William and Mary's Thomas Jefferson Program in Public 
Policy (TJPPP) forecasts that over the next 23 years, as Corporate 
Average Fuel Economy (CAFE) standards rise, gasoline consumption will 
decline. This will lead to a drop in gas tax payments to the federal 
Highway Trust Fund (HTF), the highway program's primary funding source. 
Failing to change the existing tax structure while maintaining current 
investment will cause the HTF's account to incur a $365.5 billion 
deficit over the next 23 years, the study concludes.
    The highway program is already in dire straits. Although it has 
been self-sustaining for many years thanks to the gas tax and other 
user fees, declining revenues have made transfers from the general 
budget necessary to prevent road and bridge spending cuts. Myriad 
studies have shown that merely maintaining current spending is 
insufficient to build the infrastructure our growing economy needs. One 
report by the Texas Transportation Institute found that traffic 
congestion, resulting in large part from inadequate capacity, costs the 
country more than $100 billion per year in wasted time and fuel.
    ``HTF revenues are inadequate to support today's road and bridge 
spending levels, which are already well below what's needed to maintain 
the interstate system's performance,'' said Christian Klein, vice 
president of government affairs for Associated Equipment Distributors 
(AED), which sponsored the research. ``As part of the broader tax and 
budget reform debate, Congress needs to do something bold to put the 
program back on solid fiscal footing.''
    The William and Mary study offers a few possible solutions. The gas 
tax was last increased--to 18.4 cents per gallon--in 1993. The research 
team determined that restoring the gas tax's 1993 spending power by 
raising it to 25 cents and indexing it for future inflation would raise 
$167 billion above current baseline spending requirements over the next 
two decades. The study also examined ways to implement a vehicle 
mileage-based user fee.
    ``We hope Congress will take these findings to heart and act 
quickly to identify new revenue streams for the road program,'' AED 
President & CEO Toby Mack said. ``Highways are the arteries of commerce 
and the arteries are clogged. The longer lawmakers wait to tackle the 
problem, the worse it'll get and the harder it'll be to fix.''
    The full report is available at http://www.aednet.org/government/
pdf-2013/WM-HTF-Report.pdf.

                     National Association of Manufacturers,
                                                    April 24, 2013.
Hon. Paul Ryan, Chairman; Hon. Chris Van Hollen, Ranking Member,
Committee on the Budget, U.S. House of Representatives Washington, DC 
        20515.
    Dear Chairman Ryan and Ranking Member Van Hollen: The National 
Association of Manufacturers (NAM) believes increased funding for the 
nation's transportation infrastructure is a critical priority which 
will help keep manufacturing competitive and grow the nation's economy. 
Today's hearing is an important step in the process of returning the 
federal Highway Trust Fund (HTF) to an improved condition of solvency 
and long-term sustainability. The Congressional Budget Office (CBO) 
anticipates the HTF will run a negative balance at some point in Fiscal 
Year 2015. Congress must soon begin to secure the financial health of 
the main funding mechanism for the nation's highway and transit 
systems.
    Significant shifts in driving patterns and improved automobile fuel 
economy standards over the past decade have contributed to declining 
HTF revenues. These trends will continue, and unfortunately the fuel 
tax has not kept pace with these changes. In addition, the cost of 
construction materials and services has increased over time due to 
inflation and other market conditions. The result has been diminished 
purchasing power for each construction dollar dedicated to federal 
transportation investments. Nearly 20 years has passed since Congress 
has increased the fuel tax, a basic user fee paid by those who drive on 
the nation's highways.
    In spite of these significant challenges, the motor fuel tax for 
gas and diesel remains the foundation for all of our current and future 
federal highway and transit investments. While new models, strategies 
and financing options need to be more seriously evaluated by Congress, 
manufacturers believe the Highway Trust Fund continues to offer a 
reliable source of funding to states for roads, bridges and transit 
systems.
    Investing in infrastructure and ensuring the long-term 
sustainability of the Highway Trust Fund move in tandem with the goals 
of economic growth and doubling the nation's export capacity. Thank you 
for providing a forum for a discussion of this important issue to 
manufacturers.
            Sincerely,
                             Robyn M. Boerstling, Director,
                            Transportation & Infrastructure Policy.

                                                    April 24, 2013.
Hon. Paul Ryan, Chairman; Hon. Chris Van Hollen, Ranking Member,
Committee on the Budget, U.S. House of Representatives Washington, DC 
        20515.
    Dear Chairman Ryan and Ranking Member Van Hollen: On behalf of the 
membership of the National Stone, Sand & Gravel Association, thank you 
for holding the hearing titled State of the Highway Trust Fund: Long-
Term Solutions for Solvency. NSSGA supports all efforts to find a 
viable, long-term solution to the pending insolvency facing the Highway 
Trust Fund, and we commend you for addressing this matter in the public 
forum it deserves.
    Attached is a draft statement for the record of the hearing. Thank 
you in advance for the opportunity to comment on an issue of utmost 
importance to NSSGA members.
    Please do not hesitate to contact me with any questions.
            Sincerely,
                  Pamela J. Whitted, Senior Vice President,
   Legislative & Regulatory Affairs, National Stone, Sand & Gravel 
                                                       Association.
Enclosure.

  Prepared Statement of the National Stone, Sand & Gravel Association

    With the passage of the most recent surface transportation law, 
Moving Ahead for Progress in the 21st Century Act (MAP-21), in July 
2012, highway and transit investment was stabilized for two years by 
supplementing the Highway Trust Fund (HTF) with general fund transfers 
and non-transportation revenue sources. MAP-21 was delayed by over 
1,000 days from the expiration of the previous highway bill, SAFETEA-
LU, in September 2009--largely because HTF revenue could no longer 
maintain the minimum needed for federal highway and transit investment.
    Although we appreciate the historic and much needed program reforms 
contained in MAP-21, unfortunately Congress did not adequately address 
the revenue shortfall. As a result the HTF again is facing bankruptcy 
by the expiration of MAP-21 at the end of fiscal year 2014. This means 
that in 17 months Congress again will be forced to choose between 
implementing a long-term HTF revenue solution, massive investment cuts 
that will eliminate hundreds of thousands of jobs, or further bailouts.
    NSSGA supports passage of a surface transportation reauthorization 
bill that returns to the six-year term, which provides the multi-year 
certainty necessary for state departments of transportation--and the 
businesses and workforces they depend upon--to execute their priority 
projects. The aggregates industry is a capital intensive industry. Our 
members require certainty for efficient and cost-effective allocation 
of human and financial resources.
    According to the Congressional Budget Office's official cost 
estimate for MAP-21, the HTF would need an additional $76 billion, over 
and above existing user fee revenues, just to fund a six-year bill (FY 
2015 to FY 2020) at MAP-21 levels. (The total includes $52 billion for 
Highway Account and $24 billion for Mass Transit Account.)
    The solvency of the HTF must be addressed and secured, and it is 
imperative that Congress select or combine any number of innovative 
funding mechanisms--new or otherwise. Whether it is an increase in the 
gas user fee, which has not been raised since 1993; a move to a system 
based on vehicle-miles traveled; linking increased energy production 
with surface transportation funding; or a combination of these and 
other ideas, NSSGA supports full consideration of all.
    Two independent, bipartisan commissions authorized in the 2005 
surface transportation law, SAFETEA-LU, the National Surface 
Transportation Policy and Revenue Study Commission and the National 
Surface Transportation Infrastructure Financing Commission, arrived at 
the same conclusion. In the short-term, these commissions recommended 
increasing the gas user fee and transitioning to a vehicle-miles-
traveled user fee over the long-term. Additionally, they evaluated the 
pros and cons of a host of other possible fundraising solutions.
    Historically, the short-fall in the surface transportation funding 
has been dealt with in the context of broad fiscal reform, which has 
been proposed and implemented by Republicans and Democrats alike. In 
1990, Congress and President George H. W. Bush raised the motor fuels 
user fee by five cents, with half going to the HTF and half to deficit 
reduction. Three years later, Congress and President Bill Clinton again 
raised the user fee in a 1993 tax/deficit reduction package that 
allocated a 4.3 cents per gallon increase to deficit reduction and 
redirected the 1990 2.5 cents deficit reduction component to the HTF. 
Finally, the 1993 4.3 cents per gallon user fee increase was then 
shifted from deficit reduction to the HTF in a 1997 tax bill, which 
provided the revenue foundation for the 1998 surface transportation 
reauthorization.
    Investment in transportation assets has been and continues to be a 
cornerstone of the American economy and, indeed, our national way of 
life. Underinvesting in this basic foundation of our economy leads to 
increased traffic congestion and the loss of jobs--not only of those 
who construct transportation systems, but also of those whose goods and 
services depend on those systems. We must invest in rebuilding and 
improving our transportation infrastructure to ensure that we 
adequately maintain these systems for years to come.
    Ultimately, a well-maintained system of roads, bridges, mass 
transit, aviation, and rail provides Americans' freedom of mobility, a 
treasured American value that allows them to go where they want, when 
they want. It allows them to purchase goods at affordable prices 
brought to market by the fastest and most efficient means.
    America has an infrastructure deficit. American investment in 
maintenance and expansion of its transportation infrastructure has not 
kept up with demand and as a result our nation faces stiff competition 
from Asian and European nations. America's surface transportation 
system that used to be the envy of the world is now ranked 25th by the 
World Economic Forum. It is not an overstatement to suggest that 
without an immediate and significant investment in our transportation 
infrastructure the United States economy will cease to compete globally 
and will be on par with other third world nations. This crisis is ripe 
for leadership from Congress and further delay is not only costly but 
dangerous.
    Based near the nation's capital, NSSGA is the world's largest 
mining association by product volume. Its member companies represent 
more than 90% of the crushed stone and 70% of the sand and gravel 
consumed annually in the U.S. and employ 107,800 working men and women.
    Stone, sand, and gravel--aggregates--are a base construction 
material essential to the built environment. The sale of natural 
aggregates generates nearly $40 billion annually for the U.S. economy. 
During 2012, nearly two billion metric tons of aggregates--valued at 
roughly $17 billion--were produced and sold in the U.S. The materials 
are used in nearly all residential, commercial and industrial building 
and in most public works projects, such as: roads, highways, bridges, 
railroad beds, dams, airports, water and sewage treatment plants and 
tunnels.
    There are more than 10,000 construction aggregates operations 
nationwide. Almost every congressional district is home to a crushed 
stone, sand or gravel operation. Proximity to market is critical due to 
high transportation costs, so 70% of our nation's counties include an 
aggregates operation. Approximately 70% of NSSGA member companies are 
considered small businesses. While the American public pays little 
attention to these raw natural materials, they go into the manufacture 
of asphalt, concrete, glass, paper, paint, pharmaceuticals, cosmetics, 
chewing gum, household cleaners and many other consumer goods.
    NSSGA welcomes the opportunity to submit comments on this important 
issue and supports your efforts to find a solution to the pending 
insolvency of the Highway Trust Fund. Doing so now will lay the 
foundation for a more advanced surface transportation network that will 
undoubtedly spur the American economy for decades to come.

                         Portland Cement Association (PCA),
                                                    April 24, 2013.
Hon. Paul Ryan, Chairman; Hon. Chris Van Hollen, Ranking Member,
Committee on the Budget, U.S. House of Representatives Washington, DC 
        20515.
    Dear Chairman Ryan and Ranking Member Van Hollen: Thank you for 
holding this hearing on the ``State of the Highway Trust Fund: Long-
term Solutions for Solvency.'' The Portland Cement Association (PCA) 
takes great interest in our nation's infrastructure and the solvency of 
the Highway Trust Fund. On behalf of the PCA, I wish to share the views 
of the U.S. cement manufacturing industry.
    Our nation's infrastructure is falling behind. The inefficiencies 
of our transportation network raise costs, making basic goods more 
expensive and adding new challenges to U.S. businesses struggling to 
stay atop a highly competitive international marketplace. This does not 
even touch on the quality of life issues associated, for example, with 
long work-related commutes.
    PCA believes the U.S. should be spending more on our 
infrastructure, but realizes this is not a universally held view. 
Whatever your view, most everyone agrees that we have to be smart about 
how we build, especially when it comes to our roads. Building smarter 
and doing so in a fiscally responsible manner, should be a key focus of 
identifying ways to improve the long-term solvency of the Highway Trust 
Fund. It is essential that transportation departments properly consider 
durability and examine the long-term maintenance costs of pavement 
options.
    There is room for improvement when it comes to project decision-
making and properly accounting for long-term costs of our roadways. 
MAP-21 tasked the U.S. Government Accountability Office (GAO) with 
preparing a report on the ``best practices for calculating lifecycle 
costs and benefits for federally funded highway projects.'' Expected to 
be completed in July, this report will hopefully help improve the 
planning process so that limited dollars go farther and are spent 
wiser.
    Should you have any questions or need more information, please feel 
free to contact me or David Hubbard. We can reached by email or phone 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6878746f6f5b787e767e756f3574697c">[email&#160;protected]</a>, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="64000c11060605160024070109010a104a0b1603">[email&#160;protected]</a>, or 202-408-9494).
            Sincerely,
                                          Gregory M. Scott,
 President and Chief Executive Officer Portland Cement Association.

    [Additional submissions of Hon. Bill Pascrell, Jr., a 
Representative in Congress from the State of New Jersey, 
follow:]

         American Council of Engineering Companies (Fact Sheet)

                Sustainable Financing for Transportation

                                 issue
    Federal investment in transportation infrastructure plays an 
essential role in protecting public health and safety, promoting 
commerce, and keeping America competitive. Tremendous headway was made 
in 2012 with enactment of the Moving Ahead for Progress in the 21st 
Century Act (MAP-21), which provided two years of funding stability for 
highway and transit programs while delivering much-needed reforms to 
streamline project delivery and focus on core national interests. These 
important changes are already reducing costs and bringing project 
benefits to the public faster.
    Unfortunately, MAP-21 did not provide for the long-term financial 
stability of the Highway Trust Fund (HTF). According to the 
Congressional Budget Office, the balance of the HTF will be depleted in 
Fiscal Year 2015, necessitating dramatic cuts in highway and transit 
spending unless new revenues are provided. Absent congressional action, 
highway program funding would fall from $40 billion to approximately $4 
billion, while funding for transit projects would fall from $11 billion 
to $7 billion. These cuts would have a devastating impact on state and 
local transportation agencies and postpone critical projects to improve 
safety, reduce congestion and enhance mobility.
    Continued underinvestment in transportation infrastructure will 
only hamper economic growth. Deteriorating roads and bridges and 
worsening congestion have raised the price of doing business through 
increased maintenance costs, wasted fuel, and delayed shipments. Last 
year, our economy was crippled by $121 billion in congestion costs, or 
$818 per U.S. commuter, and an additional $230 billion in economic 
costs from accidents.
    Conversely, a long-term solution to the revenue challenges facing 
the HTF would boost the economy while also reducing the deficit. With 
predictable, sustainable and growing revenue sources--particularly user 
fees--the Highway Trust Fund will support infrastructure investments 
that foster economic growth in a fiscally responsible way. A wide array 
of options have been identified that would help to address the 
challenge, including increasing and indexing the current user fees, 
switching to a sales tax on fuel, mileage-based fees, tolling, bonding 
and other financing mechanisms, freight charges, and revenues from 
increased domestic energy production.
                               key points
    <bullet> Transportation infrastructure forms the basis of continued 
economic growth. Every dollar invested in highway construction 
generates up to $8 in economic output. According to the U.S. DOT, each 
$1 billion in federal highway investment supports 34,000 jobs.
    <bullet> The Highway Trust Fund is on an unsustainable fiscal path. 
At least $15 billion is needed in additional annual revenues in order 
to simply maintain current funding levels, adjusted for inflation, over 
the next ten years.
                            action requested
    <bullet> Protect current funding levels for federal infrastructure 
programs that support highways, transit, aviation, rail, ports and 
other transportation systems.
    <bullet> Address the looming Highway Trust Fund fiscal crisis with 
new sources of revenue.

    [Question submitted for the record by Mr. Pascrell 
follows:]

    Question Submitted for the Record by Hon. Bill Pascrell, Jr., a 
        Representative in Congress From the State of New Jersey

                         question to mr. poole
    Mr. Poole, I am a big believer in our nation's public transit 
systems and support robust federal investment in their growth. That 
said, one of the ways that can reduce taxpayer burden in financing our 
public transportation system is creating more private sector 
involvement and an intermodal transportation network. Do you see 
barriers to entry for private sector operators like the motorcoach 
industry in accessing federally supported transportation facilities?

    [Additional submissions of Mr. Blumenauer follow:]

                                                  February 2, 2012.
Hon. Dave Camp, Chairman; Hon. Sander M. Levin, Ranking Member,
Committee on Ways and Means. 1102 Longworth House Office Building, 
        Washington, DC 20515.
Re: Surface Transportation Finance and the Highway Trust Fund

    Dear Chairman Camp and Ranking Member Levin: For the past thirty 
years, Congress has provided dedicated funding for highway and transit 
programs through an excise tax on gasoline dedicated to the Highway 
Trust Fund. This funding structure has successfully provided highway 
and transit programs with secure, dedicated revenues and budgetary 
firewalls dating back to the Reagan administration. The success of this 
approach is without question: The Trust Fund has been critical to our 
nation's ability to build an efficient and multimodal transportation 
system. With record transit ridership, now is not the time to eliminate 
guaranteed funding for our nation's public transportation systems, 
which saved Americans close to $19 billion in congestion costs in 2009. 
For the first time in thirty years, the pending legislation H.R. 3864, 
the American Energy and Infrastructure Jobs Financing Act, removes the 
certainty of a continued revenue source for our transit systems as well 
as the Congestion Mitigation and Air Quality Program.
    Specifically, we are deeply concerned about the prov1swn in H.R. 
3864 that would terminate funding from the excise tax on gasoline and 
replace it with the Alternative Transportation Account. In place of 
gasoline tax revenues, the legislation would provide a one-time $40 
billion transfer of General Fund revenues to the Alternative 
Transportation Account. Not only is this level of funding insufficient 
to fully fund the proposed authorized levels for the Alternative 
Transportation Account, but it would subject transit and CMAQ funding 
to the annual appropriations process. This change will make it 
impossible for public transit systems across the country to plan for 
the future. lt will also make it impossible for the FTA to honor grant 
agreements.
    In addition, this legislation does not make clear how the $40 
billion in General Fund revenues will be offset in the U.S. budget. As 
a result of this funding gap, we are concerned that the $40 billion 
general revenue transfer may not occur leaving transit programs out in 
the cold.
    We strongly encourage the Committee to reject H.R. 3864 and work to 
continue to fund highway and transit programs through dedicated 
funding.
            Sincerely,

Michael P. Melaniphy President & CEO American Public Transportation 
        Association
John Robert Smith President and CEO Reconnecting America
Joyce A. Rogers Senior Vice President, Government Affairs AARP
Jeff Miller President/CEO Alliance for Biking & Walking
James Corless Director Transportation for America
Geoff Anderson President & CEO Smart Growth America
Brian Pallasch, CAE Managing Director, Government Relations & 
        Infrastructure Initiatives American Society of Civil Engineers
Richard Eidlin Policy Director American Sustainable Business Council
Jeff Rosenberg Legislative Director Amalgated Transit Union
Caron Whitaker Campaign Director America Bikes
Kristy Anderson Government Relations Manager American Heart 
        Association/American Stroke Association
Brian Shaw President Association for Commuter Transportation
Billy Altom Executive Director Association of Programs for Rural 
        Independent Living (APRIL)
Marcia L Hale President Building America's Future
Andrew Goldberg Managing Director, Gov't Relations American Institute 
        of Architects
Mike Kruglik Executive Director Building One America
Jason Jordan Director of Policy & Government Affairs American Planning 
        Association
Don Hoppert Director, Government Relations American Public Health 
        Association (APHA)
Steve Winkelman Director, Transportation Program Center for Clean Air 
        Policy
Tim Marema Vice President Center for Rural Strategies
Margo Wootan Director, Nutrition Policy Center for Science in the 
        Public Interest
Fred McLuckie Legislative Director International Brotherhood of 
        Teamsters
David T. Downey President/CEO
Stewart Schwartz Executive Director International Downtown Association
Coalition for Smarter Growth
Just Transition Alliance
Scott Bogren Communications Director Community Transportation 
        Association of America
Peter N otarstefano Director of Home and Community-Based Services
LeadingAge
John Norquist President Congress for the New Urbanism
Andrew Clarke President League of American Bicyclists
Michael A Spotts Policy Analyst Enterprise Community Partners
Sara Chieffo Legislative Director League of Conservation Voters
John Cross Federal Transportation Advocate Environment America
Niel Ritchie Executive Director League of Rural Voters
Ana Garcia-Ashley Executive Director Gamaliel
Phaedra Ellis-Lamkins CEO Green For All
Paul Weech Executive Vice President for Policy and Member Engagement
Housing Partnership Network
Michael Replogle Global Policy Director and Founder Institute for 
        Transportation & Development Policy
Christopher Coes Director LOCUS: Reponsible Real Estate Developers and 
        Investors
Ron Thaniel Executive Director National Association of City 
        Transportation Officials
Bob Fogel Senior Legislative Director National Association of Counties
Eli Briggs Govt Affairs Director National Association of County & City 
        Health Officials
Sean Jeans-Gail Vice President National Association of Railroad 
        Passengers
Darren Smith Policy Representative; Smart Growth and State & Local 
        Issues National Association of Realtors
Mark Plotz Conference Director National Center for Bicycling & Walking
Melissa Merson Executive Director National Coalition for Promoting 
        Physical Activity
National Economic and Social Rights Initiative
Ethan Handelman Vice President for Policy and Advocacy
National Housing Conference
Michael Bodaken Executive Director National Housing Trust
Leslie Wallack Program Director National League of Cities
Sheila Crowley president and ceo National Low Income Housing Coalition
Chuck Baker President National Railroad Construction and Maintenance 
        Association
Madura Wijewardena (on behalf of the CEO, Marc Morial) Director, 
        Research & Policy National Urban League Policy Institute
Robert H. McNulty President Partners for Livable Communities
Leslie Moody Executive Director Partnership for Working Families
Anita Hairston Senior Associate PolicyLink
Virginia Lee Program Manager Prevention Institute
Tyson Slocum Director, Energy Program Public Citizen
Kevin Mills Vice President of Policy and Trail Development Rails-to-
        Trails Conservancy
Margo Pedroso Deputy Director Safe Routes to School National 
        Partnership
Jesse Prentice-Dunn Washington Representative Sierra Club
Stephan Kline Associate vice president The Jewish Federations of North 
        America
KJ Hertz The National Association of Area Agencies on Aging (n4a)
Portia White Director, Political Department Transport Workers Union of 
        America, AFL-CIO
Laura Barrett Executive Director Transportation Equity Network
Bryan Howard Legislative Director U.S. Green Building Council
Andy Kunz President & CEO U.S. High Speed Rail Association
Janet F. Kavinoky Executive Director, Transportation & Infrastructure, 
        Vice President, Americans for Transportation Mobility United 
        States Chamber of Commerce
Phineas Baxandall Senior Analyst for Tax and Budget Policy United 
        States Public Interest Research Group (U.S. PIRG)
Leo Gerard President United Steelworkers
Heidi Guenin Transportation Policy Coordinator Upstream Public Health
James Engelhardt Director, Affordable Housing Development
Volunteers of America
The Honorable Governor John Kitzhaber Governor of Oregon
The Honorable Governor Christine Gregoire Governor of Washington
State, Local, and Regional Organizations and Officials
                               southeast
Trip Pollard Director, Land and Community Program Southern 
        Environmental Law Center Equity and Inclusion Campaign AL, MS, 
        LA
                                arkansas
John Squires CEO Community Resource Group,Inc Fayetteville, AR
Jeff Mansker Para-Transit Coordinator Jonesboro Economical 
        Transportation System Jonesboro, AR
                                arizona
Rose Arck President ACS Realty Services Phoenix, AZ
Diane Brown Executive Director Arizona Public Interest Research Group
James Dickey Executive Director Arizona Transit Association Fountain 
        Hills, AZ
Tom Finnerty Executive Committee Member ASREA Phoenix, AZ
Caroline Tillman President Associated Right of Way, LLC Glendale, AZ
Scott Reynolds Senior Project Manager Blood Systems Inc. Scottsdale, AZ
Mike James Transit Services Director City of Mesa Mesa, AZ
The Honorable Mayor Greg Stanton City of Phoenix Phoenix, AZ
Lisa Williams President Excellence by Design Phoenix, AZ
Chris Wass Founder Firefly Real Estate LLC Phoenix, AZ
David Schwartz Executive Director Friends of Transit Phoenix, AZ
Gregory A Walker Vice President Huitt-Zollars Phoenix, AZ Rhonda 
        Bannard
Founder and Chief Connector Inspired Connections Phoenix, AZ
Donce Walker Sustainability Manager Maricopa County Phoenix, AZ
Walt Gray Coordinator Merchants for a Better Maryvale Phoenix, AZ
Gwynn Simpson CEO Phoenix Rising Consultants-HCD Chandler, AZ
Edward Jensen Co-chair, Executive Committee
                               california
Will Wright Director, Government & Public Affairs AIA Los Angeles Los 
        Angeles, CA
Mary King Interim General Manager Alameda-Contra Costa Transit District 
        (AC Transit) Oakland, CA
Arnold Luft Principal ARUP Los Angeles, CA
Hugh Saurenman President ATS Consulting Pasadena, CA
Paul Steinberg Director of Americas Avego San Jose, CA
Andy Katz Government Relations Director Breathe California Daly City, 
        CA
Neal Richman Director of Programs and Advocacy Breathe California of 
        Los Angeles County
Ruben Cantu Program Director California Pan-Ethnic Health Network 
        Oakland, Sacramento, CA
Jon Fox CalPIRG Consumer Advocate California Public Interest Research 
        Group
Wendy Alfsen Executive Director California WALKS Berkeley, CA
Betsy Reifsnider Environmental Justice Director Catholic Charities, 
        Diocese of Stockton Stockton, CA
Reyna Villalobos Community Lead Central California Regional Obesity 
        Prevention Program Madera, CA
Kenneth Grimes Executive Director CHCDC San Diego, CA
Rick Hutchinson CEO City CarShare San Francisco, CA
Kristin Sherwood csc City of Beaumont Beaumont, CA
Nelson D. Nelson City Engineer City of Corona Public Works Department 
        Corona, CA
Brian Champion Transportation Planning Manager City of Corona Transit 
        Service Corona, CA
The Honorable Mayor Ashley Swearengin City of Fresno Fresno, CA
The Honorable Mayor Jean Quan City of Oakland Oakland, CA
Virginia Field Vice President Clean Air Now Riverside, CA
Jonathan Parfrey Executive Director Climate Resolve Los Angeles, CA
Martin Schlageter Campaign Director Coalition for Clean Air Evalnbar 
        Board member
Coalition for Sustainable Transportation Santa Barbara, CA
Michael Chiacos Transportation Specialist Community Environmental 
        Council Santa Barbara, CA
Victor Griego President Diverse Strategies for Organizing, Inc. Los 
        Angeles, CA
Lars Clutterham Partner downeygreen Downey, CA
Cheryl Dye Principal Dye &Assoc San Diego, CA
Dave Campbell Program Director East Bay Bicycle Coalition Oakland, CA
Michael Fitts Staff Attorney Endangered Habitats League Santa Monica, 
        CA
Heather Hood Director of Programs, Northern California Enterprise 
        Community Partners San Francisco, CA
David Dutchen Area Sales Manager Enterprise Rideshare Carson, CA
Matthew Baker Habitat Director Environmental Council of Sacramento 
        Sacramento, CA
Hilary Norton Executive Director FAST--Fixing Angelenos Stuck in 
        Traffic Los Angeles, CA
Matt Henry President/CEO Fehr & Peers California
Jack Swearengen Chair Friends of SMART Santa Rosa, CA
Stephanie Taylor Interim Executive Director Green LA Coalition Los 
        Angeles, CA
Stephanie Reyes Policy Director Greenbelt Alliance California
Maria E. Pacheco Consultant Head West Inc. Compton, CA
Ginger Hitzke President Hitzke Development Corporation San Marcos, CA
Johnny O'Kane Business Agent Ironworkers Los Angeles, CA
Jose A. Naranjo Business Manager/Financial Secretary-Treasurer 
        Ironworkers Local Union 229 San Diego, CA
Jackelyn Cornejo Senior Research/Policy Analyst Los Angeles Alliance 
        for a New Economy (LAANE) Los Angeles, CA
Jessica Duboff Public Policy Manager Los Angeles Area Chamber of 
        Commerce Los Angeles, CA
Alexis Lantz Planning & Policy Director Los Angeles County Bicycle 
        Coalition Los Angeles, CA
Deborah Murphy Founder Los Angeles Walks Los Angeles, CA
Corey Carlisle Director, Federal Policy and Government Affairs Low 
        Income Investment Fund San Francisco, CA
Andy Peri Advocacy Director Marin County Bicycle Coalition Fairfax, CA
Steve Heminger Executive Director Metropolitan Transportation 
        Commission San Francisco, CA
Carl Sedoryk General Manager/CEO Monterey-Salinas Transit District 
        Monterey, CA, CA
Denny Zane Executive Director Move LA Los Angeles, CA
Elyse Lowe Executive Director Move San Diego San Diego, CA Jennifer 
        Kalt Secretary Northcoast Environmental Center Arcata, CA
Bruce Reznik Executive Director Planning and Conservation League 
        Sacramento, CA
Guillermo Mayer Senior Staff Attorney Public Advocates Inc. San 
        Francisco, CA
Anthony Hernandez Transportation Planner RBF Consulting California
Anna Maria Havens Systems Change Advocate Resources for Independence 
        Central Valley Fresno, CA
Eric Ustation Government Affairs Representative Riverside Transit 
        Agency Riverside, CA
John Smatlak President RPR Consulting Los Angeles, CA
Ryan Snyder President Ryan Snyder Associates California
Kendra Bridges Land Use Policy Director Sacramento Housing Alliance 
        Sacramento, CA
Chris Morfas Legislative Liaison Sacramento Metropolitan Air Quality 
        Management District Sacramento, CA
Evan McLaughlin Political and Legislative Director San Diego and 
        Imperial Counties Labor Council, AFL-CIO San Diego, CA
Jim Lazarus Senior Vice President San Francisco Chamber of Commerce San 
        Francisco, CA
Krute Singa Manager, TDM Programs San Francisco Department of the 
        Environment San Francisco, CA
Edward D. Reiskin Director of San Francisco Municipal Transportation 
        Agency San Francisco, CA
Howard Strassner Secretary Save Muni California
Kate Breen Government Affairs Manager SFMTA San Francisco, CA
Steven Frisch President Sierra Business Council Truckee, CA
Paul Zimmerman Executive Director
Southern California Assoc. of Non-Profit Housing
John Rosenthal President Southpaw Communications Santa Monica, CA
Egon Terplan Regional Planning Director SPUR San Francisco, CA
Arthur J. Hadnett Vice President--Transportation Stantec Northridge, CA
Greg Bashem Worker Representative/Political Coordinator/Volunteer 
        Organizer/Delegate IBT, JC 42, L.A.-0.C Building Trades, L.A. 
        County Federation of Labor/Metal Trades Council Teamsters Local 
        986 South El Monte, CA
Bart Reed Executive Director The Transit Coalition San Fernando, CA
Patrick Merrick Executive Vice-President Tolar Manufacturing Company 
        Inc Corona, CA
Gary Tolar Owner Tolar Mfg. Co Inc. Corona, CA
Bart Reed Executive Director Train Riders Association of California 
        (TRAC) San Fernando, CA
Stuart Cohen Executive Director Trans Form Oakland, CA Francisca 
        Porchas National Coordinator Transit Riders for Public 
        Transportation Los Angeles, CA
David A Raley Chairman Transportation NOW Moreno Valley, CA Ernestine 
        Bonn Treasurer UH CDC San Diego, CA
Bob Allen Transportation Justice Program Director Urban Habitat 
        Oakland, CA
Michael Cassadine Director Voice for the People Los Angeles, CA
Victor H. Spencer National Account Executive VPSI Sacramento, CA
Jonathan Bair Board President Walk Oakland Bike Oakland Oakland, CA
Terry Preston Complete Streets Coordnator WALKSacramento 95814-2920, CA
James Stone Executive Director WalkSanDiego San Diego, CA
Charles Anderson General Manager Western Contra Costa Transit Authority 
        Pinole, CA
Jerard Wright Director Wright Concept California
Jeremy Merz Policy Advocate California Chamber of Commerce
Ron Sundergill Sr. Director, Pacific Region National Parks Conservation 
        Association San Francisco, California
                                colorado
Audrey DeBarros Executive Director 36 Commuting Solutions Louisville, 
        CO
Deven Meininger Multi Modal Specialist City of Durango Durango, CO
Alice Laird Executive Director Clean Energy Economy for the Region 
        Carbondale, CO
Danny Katz State Director Colorado Public Interest Research Group
Brad Weinig TOD Program Director Enterprise Community Partners Denver, 
        CO
Helen Bushnell Owner Train Star Lakewood, CO
Kathleen Osher Executive Director Transit Alliance Denver, CO
                              connecticut
Nichole Strack Executive Director 1000 Friends of Connecticut Hartford, 
        CT
MaryEllen Thibodeau President Bike Walk Connecticut
Debra Greenwood CEO/President Center for Women and Families of Eastern 
        Fairfield County Bridgeport, CT
Mary Tomolonius Executive Director Connecticut Association for 
        Community Transportation Canton, CT
Molly McKay Transportation Chair Connecticut Chapter of Sierra Club 
        Mystic, CT
Lori Brown Executive Director Connecticut League of Conservation Voters 
        Education Fund Hartford, CT
Mark Abraham Steering Committee Member Connecticut Livable Streets 
        Campaign
Jill Kely Co-Chair Connecticut-Citizens Transportation Lobby
Andy McDonald ConnPIRG Policy Advisor Connectiut Public Interest 
        Research Group
Barbara Kalosky President North East Transportation Co. Inc. Waterbury, 
        CT
Karen Burnaska Coordinator Transit for Connecticut Monroe, CT
                          district of columbia
Advancement Project Washington, DC
Julie Gould Senior Vice President Mercy Housing Washington, DC
Douglas Franklin Marketing Specialist Metropolitan Washington Council 
        of Governments Washington, DC
Jason Broehm Chair Streetcars4DC Washington, DC
Paul Dean Vice President TransitCenter Washington, DC
                                delaware
Shailen Bhatt Secretary Delaware Department of Transportation
                                florida
Charles G. Pattison, FAICP President and CEO 1000 Friends of Florida 
        Tallahassee, FL
Jeffrey Lewin business development manager All Area Bicycle Boynton 
        Beach, FL
Darla Letourneau Steering Group Member BikeWalkLee Sanibel, FL
Susan Stechnij Board Member Citizens 4 Transit West Palm Beach, FL
Patricia Zeiler Managing Director Downtown Fort Lauderdale TMA Fort 
        Lauderdale, FL
Brad Ashwell Advocate Florida Public Interest Research Group
Wes Watson Executive Director Florida Public Transportation Association 
        Tampa, FL
John Hopkins Executive Director Green Mobility Network Miami, FL
Denis Eirikis Communications Manager IM4Transit Campaign Tampa, FL
William Shrout Supervisor
Lee Tran Fort Myers, FL
G. Seth Platt Project Manager LSN Partners Fort Lauderdale, FL
Gloria Katz Founder Smart Growth Partnership Fort Lauderdale, FL
Terry Stick Vice President The Stick Group Florida
Brian Seel Chairman TRANSITion Tampa Bay Tampa, FL
                                georgia
Linda Hieter Board Chair Ashley Robbins President Citizens for 
        Progressive Transit
Canyon Area Bus Service Riggins, ID Atlanta, GA
Shannon Grow Transit Manager
Richard Mendoza Commissioner of Public Works City of Atlanta Atlanta, 
        GA
The Honorable Mayor Robert Reichert City of Macon, GA Macon, GA
Environmental Justice Resource Center Atlanta, GA
                                 idaho
City of Lewiston Lewiston, ID
Gary J. Riedner City Supervisor City of Moscow, ID
Clifton Warren District 1Mobility Manager CTAI Sandpoint, ID
Jessica Wilson Georgia PIRG Program Associate Georgia Public Interest 
        Research Group
Transit Riders Union Jobs With Justice Atlanta, GA
Ada Bike Alliance Ada, ID
Jim Buffington Manager Ada County Highway District Garden City, ID
Heather Wheeler Executive Director CTAI Boise, ID
John Murray Mobility Manager Dist 2 CTAI Lewiston, ID
Carl Root District 2 Representative District 2 Public Transportation 
        Advisory Commission Idaho
Rachel Winer Executive Director Idaho Smart Growth Boise, ID
Steven Wolper Board Member Mountain Rides Transportation Authority 
        Ketchum, ID
Dave Hunt Transit Director Pocatello Regional Transit Pocatello, ID
Marion Director Selkirks-Pend Oreille Transit Dover, ID
Kelli Fairless Executive Director Valley Regional Transit Meridian, ID
                                  iowa
Sonia Ashe Iowa PIRG Advocate Iowa Public Interest Research Group
Lisa Brady Co-director
                                illinois
Ron Burke Executive Director Active Transportation Alliance Chicago, IL
Dwayne Lawrence President/CEO Affordable Housing Consortium, Inc. 
        Chicago, IL
Kim Green President GFI Genfare Elk Grove, IL
Phil Hanegraaf Vice President HNTB Chicago, IL
Brian Imus Director Illinois PIRG Chicago, IL
Mike Pitula Organizer Little Village for Environmental Justice 
        Organization Chicago, IL
Sam Smith Legislative Affairs Officer Metra Commuter Rail Chicago 
        Chicago, IL
Peter Skosey Vice President Metropolitan Planning Council Chicago, IL
Richard Harnish Executive Director Midwest High Speed Rail Association
Mary Kay Christopher Owner MKC Associates Berwyn, IL
Will Tanzman Co-Executive Director Southsiders Organized for Unity and 
        Liberation Chicago, IL
Jeff Worley Sr. Business Analyst United Airlines Chicago, IL
Robert W. Guy State Legislative Director United Transportation Union-
        Illinois Legislative Board Chicago, IL
Steve Schlickman Executive Director University of Illinois at Chicago 
        Urban Transportation Center Chicago, IL
Valerie Kretchmer President Valerie S. Kretchmer Associates, Inc. 
        Evanston, IL
Tom Zucker Executive director Voluntary Action Center of DeKalb County 
        Sycamore, IL
                                indiana
Jamie Palmer Legislative Chair American Planning Association Indiana 
        Chapter Indianapolis, IN
Kent McDaniel Vice Chairman Bloomington Public Transportation 
        Corporation, Board of Directors Bloomington, IN
Thomas Tokarski President Citizens for Appropriate Rural Roads 
        Bloomington, IN
Mindy Martynowicz Executive Director Fulton County Council on Aging 
        Rochester, IN
Kim Irwin Executive Director Health by Design Indianapolis, IN
Jesse Kharbanda Executive Director Hoosier Environmental Council 
        Indiana
Amelia Miller Chair Indiana Citizens' Alliance for Transit 
        Indianapolis, IN
Jamie Palmer Chair Indiana Land Use Consortium Indianapolis, IN
Kent McDaniel Executive Director Indiana Transportation Association 
        Bloomington, IN
Lori Miser Executive Director Indianapolis Metropolitan Planning 
        Organization Indianapolis, IN
Kevin Whited Executive Director INDY COG Indianapolis, IN
Becky Allen Director of Transportation Johnson County Association for 
        Retarded Citizens/Access Johnson County Franklin, IN
Beverly Ferry CEO Living Well in Wabash County CoA, Inc. Wabash, IN
Jerrold Bridges Executive Director Madison County Council of 
        Governments Anderson, IN
Kevin Crawford Vice Chair South Shore Trails East Chicago, IN
Meg Storrow President Storrow Kinsella Associates Indianapolis, IN
                                 kansas
Gretchen M. Ashton President
Sarah Krom Transportation Coordinator Sunflower Diversified Services 
        Great Bend, KS
                               louisiana
Advocates for Environmental Human Rights New Orleans, LA
Paul Brumfield President Baton Rouge Rider's Advisory Group (BRRAG) 
        Baton Rouge, LA
Ashton Associates Inc. Boston, MA
Steven E. Miller Director
Boston GreenRoutes
Boston, MA
Nancy Goodman VP for Policy
Environmental League of Massachusetts
Joan Tighe Coordinator
Fairmount/Indigo Line CDC Collaborative Boston, MA
Linda Stone
New Orleans Program & Operations Director
Global Green USA
New Orleans, LA
Marla Newman Executive Director
Louisiana Housing Alliance Baton Rouge, LA
MASSACHUSETTS
Ace-Transit Riders Union Boston, MA
Kalila Barnett Executive Director Alternatives for Community and 
        Environment Boston, MA
Monica G. Tibbits Executive Director 128 Business Council Waltham, MA
Pamela Bender Senior Organizer Massachusetts Association of CDCs 
        Boston, MA
David Watson Executive Director Massachusetts Bicycle Coalition Boston, 
        MA
Elizabeth Weyant Staff Attorney MASSPIRG Boston, MA
Howard Ostroff Principal StarTran Software Dedham, MA
Zachary Tucker Founder Students Against T Cuts Boston, MA
Wendy Landman Executive Director WalkBoston Boston, MA
                                maryland
Dru Schmidt-Perkins Executive Director 1000 Friends of Maryland 
        Baltimore, MD
Paul Graziano Housing Commissioner City of Baltimore Department of 
        Housing and Community Development Baltimore, MD
Chelsea Arkin Enterprise Green Communities Enterprise Community 
        Partners Baltimore, MD
Ronald J. Wilson Director of Housing Initiatives Enterprise Homes, Inc. 
        Baltimore, MD Mark Counselman Founder
Friends of the Charles St. Trolley Baltimore, MD
Rohit Patel, CEO lntelect Corporation Baltimore, MD
Jenny Levin Maryland Public Interest Research Group
Robert Goldman President Montgomery Housing Partnership Silver Spring, 
        MD
David Reznick Chairman Reznick Group Bethesda, MD
Jeffrey Stern Principal Riverside Advisors, LLC Baltimore, MD
Kent Watkins CEO TOD Associates Bethesda, MD
                                 maine
Tony Donovan Founding member Maine Rail Transit Coaltion Portland, ME
                                michigan
Jill Drury Manager Charlevoix County Transit Boyne City, MI
Sulkowski Executive Director Disability Advocates of Kent County Grand 
        Rapids, MI
Michele McGowen Co-Chair Friends of Transit for Kalamazoo County 
        Kalamazoo, MI
Tom Manderscheid Transportation Director Harbor Transit Grand Haven, MI
John Drury Administrator MASSTrans Bay City, MI
Marie Donigan Consultant McKenna Associates Royal Oak, MI
Ron Schalow Executive Director Mecosta Osceola Transit Authority Big 
        Rapids, MI
John D. Langdon Governmental/Public Affairs Coordinator Michigan 
        Association of Railroad Passengers Holland, MI
Tim Fischer Deputy Policy Director Michigan Environmental Council 
        Lansing, MI
Jim Lively Program Director Michigan Land Use Institute Traverse City, 
        MI
Daniel Luria Vice President Research Michigan Manufacturing Technology 
        Center Plymouth, MI
Arnold Weinfeld Director, Strategic Initiatives and Federal Affairs 
        Michigan Municipal League Lansing, MI
Michigan Public Interest Research Group
Clark Harder Executive Director Michigan Public Transit Association 
        Owosso, MI
Peter Hughes Sustainable Development Specialist Michigan State Housing 
        Development Authority Lansing, MI
Richard Murphy Transportation Director Michigan Suburbs Alliance 
        Ferndale, MI
Megan Owens Executive Director Transportation Riders United Detroit, MI
                                midwest
Howard Learner Executive Director Environmental Law & Policy Center 
        Chicago, IL
                               minnesota
Russ Adams Executive Director Alliance for Metropolitan Stability 
        Minneapolis, MN
Mr. Jon Wertjes, PE, PTOE Director of Traffic & Parking Services City 
        of Minneapolis Minneapolis, MN
Jim Heilig Director of Administration and Planning Duluth Transit 
        Authority Duluth, MN
Ethan Fawley Transportation Policy Director Fresh Energy St. Paul, MN
Doran Schrantz Executive Director ISAIAH Minneapolis, MN
James L. Erkel Director, Land Use and Transportation Program Minnesota 
        Center for Environmental Advocacy Saint Paul, MN
Tony Kellen President Minnesota Public Transit Association St. Cloud, 
        MN
Margaret Donahoe Executive Director Minnesota Transportation Alliance 
        St. Paul, MN
Jessica Treat Executive Director St. Paul Smart Trips St. Paul, MN
Bill Neuendorf Director of Advocacy Transit for Livable Communities 
        Saint Paul, MN
                                missouri
Kim Cella Executive Director Citizens for Modern Transit St. Louis, MO
Kite Singleton Chair Kansas City Regional Transit Alliance Kansas City, 
        MO
Steve Blackledge MOPIRG Policy Advisor Missouri Public Interest 
        Research Group
Ann Mac Executive Director Trailnet St. Louis, MO
                                montana
Darlene Tussing Proprietor Active Transportation Alternatives Billings, 
        MT
Jim Sayer Executive Director Adventure Cycling Association Montana
Nancy Wilson Director ASUM Transportation, The University of Montana 
        Missoula, MT
David Kack Coordinator Big Sky Transportation District Bozeman, MT
Nash Emrich President BikeNet Billings, MT
Bill Cochran Chair Bozeman Area Bicycle Advisory Board Bozeman, MT
Sam Haraldson Chairman Bozeman Bike Kitchen Bozeman, MT
John Rundquist, PE Director of Public Works City of Helena, Montana 
        Helena, MT
Bob Jaffe Alderman City of Missoula City Council Ward 3 Missoula, MT
Lisa Ballard President Current Transportation Solutions Bozeman, MT
Ed Gulick Architect High Plains Architects Billings, MT
Melanie Reynolds Health Officer Lewis and Clark City-County Health 
        Department Montana
John Wolverton Member/Volunteer Missoula Advocates for Sustainable 
        Transportation Missoula, MT
Jason Wiener Alderman Missoula City Council Missoula, MT
Bob Maffit Executive Director MT Independent Living Program Helena, MT
Barbara Schneeman Director, Communication & Advocacy RiverStone Health 
        Billings, MT
                             north carolina
Michael Sule Founder Asheville on Bikes Asheville, NC
Jeffrey Wharton President IMPulse NC LLC Mount Olive, NC
Allison Cairo NCPIRG Policy Advisor North Carolina Public Interest 
        Research Group
The Honorable Mayor Gary T. Knox Former Mayor Town of Cornelius, NC
                              north dakota
Robin Werre Executive Director BIS-MAN Transit Bismarck, ND
Dale Bergman Transportation Superintendent Grand Forks Cities Area 
        Transit Grand Forks, ND
Kim Adair Transit Section Program Manager North Dakota Department of 
        Transportation Bismarck, ND
                               new jersey
Pam Landsem Director Walsh County Public Transportation Walsh County, 
        North Dakota
Addie Shankle New Hampshire Public Interest Research Group
Barbara Armand President Armand Corporation Cherry Hill, NJ
Doug O'Malley Field Director Environment New Jersey Trenton, NJ
Michael Groh Sr. Program Coordinator National Transit Institute New 
        Brunswick, NJ
Jim Nicholson Executive Director New Jersey Bike & Walk Coalition 
        Ramsey, NJ
Peter Kasabach Executive Director New Jersey Future Trenton, NJ
Jennifer Kim Advocate New Jersey Public Interest Research Group 
        (NJPIRG) Trenton, NJ
Lucy Vandenberg Executive Director PlanSmart NJ Trenton, NJ
Dan Fatton Chairperson Trenton Cycling Revolution Trenton, NJ
                               new mexico
Chainbreaker Collective Santa Fe, NM
Mary Lou Kemp Director Clovis Area Transit System Portales, NM
Jon Bulthuis President New Mexico Passenger Transportation Association
Alexander Corkett NMPIRG Program Associate New Mexico Public Interest 
        Research Group
Deanza Sapien Rio Grande Chapter-New Mexico Sierra Club
                               northeast
Melissa Hoffer Vice President, Director Conservation Law Foundation 
        Boston, MA
                                new york
Chuck Watson IVP ATU of Syracuse Syracuse, NY
Chuck Wochele V.P. Industry & Government Relations Alstom 
        Transportation New York
Willie Moorer Union Rep./Bus Operator ATU Local #1056 Rosedale, NY
Kimberly Pettit President BikeLidLLC New York
Mary A. Donch Vice General Chairman BLE&T Metro-North General Committee 
        New Rochelle, NY
Brittny Saunders Senior Advocate Center for Social Inclusion New York, 
        NY
Michelle Gavin Director of Transit City of Beloit Transit Beloit, NY
COMMUTE New York, NY
Mark Gerling FST Local ATU Local #1321 Albany, NY
Mark Ginsberg Partner Curtis+Ginsberg Architects New York, NY
Vincent Crehan President/BA ATU Local #1342 Buffalo, NY
DaShawn Pretlow CEO & Founder DP Regional Transport Service Brooklyn, 
        NY
Jacques Chapman President ATU Local #282 Rochester, NY
Peter Fleischer Executive Director Empire State Future Albany, NY
Scott Sopczyk Transportation Dir. Greater Glens Falls Transit Glen 
        Falls, NY
Elena Conte Organizer for Public Policy Campaigns Pratt Center for 
        Community Development Brooklyn, NY
Maxine Finkelstein Senior Transportation Analyst IEI New York, NY
Mike Governale Director Reconnect Rochester Rochester, NY
Susan Gilbert President Interactive Elements Inc. New York, NY
Robert D. Yaro President Regional Plan Association New York, NY
Patti Bourne Executive Vice President Kimmel Housing Development 
        Foundation New York
Joshua A Sannar Sustainable Business Practices Coordinator Rochester 
        Institute of Technology Rochester, NY
Jeremie Greer Senior Policy Officer Local Initiatives Support 
        Corporation (LISC) New York, NY
New York City Environmental Justice Alliance New York, NY
Roxanne Warren Principal RWA Architects/vision42 New-York
Richard Clements Eastern Regional Manager Tolar Manufacturing Company 
        Inc. Williamsville, NY
Judy Calogero CEO New York Housing Conference Saratoga Springs & New 
        York City, NY
Rosemary Mascali Manager Transit Solutions Manhasset, NY
Jeff Jones Director New York State Apollo Alliance Albany, NY
Paul Steely White Executive Director Transportation Alternatives New 
        York, NY
Gene Russianoff Senior Attorney NYPIRG Straphangers Campaign New York, 
        NY
Steven Higashide Federal Advocate Tri-State Transportation Campaign New 
        York, NY
Frank Hotchkiss District Political Coordinator United Steelworkers of 
        Buffalo Buffalo, NY
UPROSE New York, NY
Eric Alexander Executive Director Vision Long Island Northport, NY
Dan Neuburger President Commuter Services WageWorks New York, NY
WE ACT for Environmental Justice New York, NY
Maria C. Garcia Board Director WTS International New York, NY
                                  ohio
Janice C Monks President/CEO American Association of Service 
        Coordinators Ohio
Brian Higgins Principal Arch City Development Group Columbus, OH
Matthew M. Dutkevicz Assistant General Manager Butler County Regional 
        Transit Authority Hamilton, OH
Edward W Schock Councilman City of Riverside Riverside, OH
Joseph Calabrese General Manager Greater Cleveland Regional Transit 
        Authority Cleveland, OH
Len Montgomery Ohio PIRG Organizing Director Ohio Public Interest 
        Research Group
                                oklahoma
Wayne Wickham Manager of Operations Cleveland Area Rapid Transit 
        Norman, OK
Tom Elmore Chairman Oklahoma Transportation Options Moore, OK
Elaine Meek Chair Transit Matters Tulsa, OK
                                 oregon
Matthew Garrett Director Oregon Department of Transportation
Jason Miner Executive Director 1000 Friends of Oregon Portland, OR
Scott Bricker Executive Director America Walks Portland, OR
Donald Leap President Association of Oregon Rail and Transit Advocates 
        Portland, OR
Rob Sadowsky Executive Director Bicycle Transportation Alliance 
        Portland, OR
The Honorable Mayor Denny Doyle City of Beaverton Beaverton, OR
Mara Gross Policy Director Coalition for a Livable Future Portland, OR
C. Scott Richman Senior Associate David Evans and Associates, Inc. 
        Portland, OR
Stuart Liebowitz Facilitator Douglas County Global Warming Coalition 
        Roseburg, OR
Sarni Fournier Owner Element Exercise Bend, OR
Adolph ``Val'' Valfre, Jr. Executive Director Housing Authority of 
        Washington County, Oregon Hillsboro, OR
Carolyn Harvey Healthy Communities Program Coordinator Jefferson County 
        Public Health Department Oregon
Daniel Kinkier Chair Lane County Young Democrats Springfield, OR
Ron Kilcoyne General Manager Lane Transit District Eugene, OR
The Honorable Mayor Kitty Piercy City of Eugene Eugene, OR
The Honorable Mayor Sam Adams City of Portland Portland, OR
Tom Hughes Metro Council President Metro Regional Government Portland, 
        OR
Beth Ann Beamer Director, Community Health Mountain View Hospital 
        Madras, OR
Kelly Rodgers Program Manager North American Sustainable Transportation 
        Council Oregon
Oregon Action Portland, OR
Christine Hagerbaumer Deputy Director Oregon Environmental Council 
        Portland, OR
Chandra Brown President United Streetcar Oregon
Dave Rosenfeld Executive Director Oregon State Public Interest Research 
        Group (OSPIRG)
Todd Borkowitz Legislative Committee CoChair Willamette Pedestrian 
        Coalition Portland, OR
Jonathan Ostar Director Organizing People-Activating Leaders-Bus Riders 
        Unite Portland, OR
Rick Finn Federal Affairs Manager Port of Portland (Oregon) Portland, 
        OR
Allan Pollock General Manager Salem-Keizer Transit Salem, OR
Ray Burstedt President SEDCOR Salem, OR
Kate Wells Director of Community Outreach St. Charles Health System 
        Bend, OR
Michael Mehaffy Executive Director Sustasis Foundation Portland, OR
David Brook Managing Partner Team Red US Portland, OR
                              pennsylvania
Bijan Pashanamaei Senior Vice President AECOM Pennsylvania
Christopher J. Menna, P.E. Region 2 Governor American Society of Civil 
        Engineers Philadelphia, PA
John R. Clark Manager, Aftermarket Sales Department Bombardier 
        Transportation Pittsburgh, PA
Hugh A. Mose General Manager Centre Area Transportation Authority State 
        College, PA
The Honorable Deputy Mayor Rina Cutler Deputy Mayor, Transportation and 
        Utilities City of Philadelphia
Joseph Minott Executive Director Clean Air Council Philadelphia, PA
John Nawn Executive Vice President Czop/Specter Pennsylvania
David Bennett Chairman Delaware County Cycling Committee of the BCGP 
        Lansdowne, PA
Andy Sharpe Communications Director Delaware Valley Association of Rail 
        Passengers (DVARP) Philadelphia, PA
Molly Duffy President Earthsmart Consulting Pennsylvania
Peter Mazzeo Project Manager HNTB Pennsylvania
Anne Moore Treasurer Human Relations Council of Greater West Chester 
        West Chester, PA
George Wolff Founder Keystone Transportation Funding Coaliation 
        Palmyra, PA
Richard Kline President Klintech LLC Kennett Square, PA
Stanley Strelish Executive director LCTA Kingston, PA
Angela N. Murray AICP Assistant Director, Building & Planning Lower 
        Merion Township Ardmore, PA
Thomas R. Tulip Executive Director Mercer County Transit Operations 
        Hermitage, PA
Mark Alisesky Assistant Vice President Michael Baker Jr., Inc. 
        Philadelphia, PA
Chris Jandoli Supervising Transportation Planner Parsons Brinckerhoff 
        Philadelphia, PA
Alana Miller PennPIRG Pennsylvania Public Interest Research Group
Peter Javsicas Executive Director Pennsylvanians for Transportation 
        Solutions (PenTrans) Philadelphia, PA
Dave Petrucci Principal Petrucci Consulting, LLC Media, PA
Chris Sandvig Regional Policy Manager Pittsburgh Connunity Reinvestment 
        Group Pittsburgh, PA
Michael Veltri Manager Port Authority of Allegheny County Pittsburgh, 
        PA
John Nawn Vice President PSPE Pennsylvania
Dennis Winters Conservation Chair Sierra Club--Southeast PA Group 
        Philadelphia, PA
Jacquelynn Puriefoy-Brinkley Chair Southeastern Pennsylvania First 
        Suburbs Project Lansdowne, PA
Court Gould Executive Director Sustainable Pittsburgh Pittsburgh, PA
Thomas Frawley Principal Thomas E Frawley Consulting, LLC Berwyn, PA
Kevin L. Johnson President Traffic Planning and Design, Inc. 
        Phoenixville, PA
Tanya Seaman Principal Transformative Consulting Philadelphia, PA
Michael Sypolt Owner TransitGuru Limited Pittsburgh, PA
                              rhode island
Bari George President Bike Newport Newport, RI
Susan Marcus Board member DOT Watch Rhode Island
Jef Nickerson President Greater City: Providence Providence, RI
John Flaherty Director of Research & Communications Grow Smart Rhode 
        Island Providence, RI
Seth Handy Principal Handy Law LLC Providence, RI
Ross Cann, RA Chairman Newport Architectural Forum Newport, RI
Abel Collins Program Manager Sierra Club Rhode Island
                             south carolina
Andrew Meeker Urban Designer City of Greenville
                              south dakota
Brenda Paradis Palace Transit Mitchell, SD
Mark D Klumph Sr Executive Director People's Transit Huron, SD
Winnie Jo Jons Transit Director ROCS Transit Lake Andes, SD
Karen Walton General Manager Sioux Area Metro Sioux Falls, SD
Barb Ballensky Transit Director Vermillion Public Transit Vermillion, 
        SD
Pam Kwasniewski Director Watertown Area Transit, Inc. Watertown, SD
                               tennessee
Steven Sondheim Coordinator Citizens for Transportation Reform Memphis, 
        TN
Cliff Lippard Board President Transit Now Nashville Nashville, TN
Ed Cole Executive Director Transit Alliance of Middle Tennessee 
        Nashville, TN
Paul Ballard CEO Nashville MTA Nashville, TN
Debbie Henry Executive Director The TMA Group-Franklin Transit 
        Authority Franklin, TN
Ralph Schulz President and CEO Nash ville Area Chamber of Commerce 
        Nashville, TN
David Kleinfelter President Dylon Walker Assistant Joplin Management 
        Nashville, TN
Liza Joffrion Principal multiModal Research, LLC Nashville, TN
Walk/Bike Nashville Nashville, TN
Ted Cornelius Executive Director YMCA of Middle Tennessee Nashville, TN
                                 texas
Francisco Flores Deacon Brownsville Diocese Mission, TX
David L Turney Chairman and CEO DRI Dallas, TX
David Crossley President Houston Tomorrow Houston, TX
John S. Kulpa, PhD Regional Transit Manager Jacobs Engineering San 
        Antonio, TX
Martha Sanchez Coordinator of Organizers La Union del Pueblo Entero 
        Alton, TX
People Organized in Defense of the Earth and her Resources Austin, TX
Ann Williams Cass Executive Director Proyecto Azteca Sanjuan, TX
Kay Warhol Steering Committee Chair RichmondRail.org Houston, TX
Michael Seifert Coordinator Rio Grande Valley Equal Voice Network Texas
Kristen Joyner Executive Director South West Transit Association Fort 
        Worth, TX
Dave Dobbs Executive Director Texas Association for Public 
        Transportation
Melissa Cubria TexPIRG Advocate Texas Public Interest Research Group
                                  utah
Michael Allegra General Manager Utah Transit Authority
Christian Schlegel President HCDC LLC Park City, Utah
                                virginia
The Honorable Mayor Dwight Jones City of Richmond Richmond, VA
Amy Algarin Owner AC Services Richmond,VA
Joel Yudken, Ph.D. Principal High Road Strategies, LLC Arlington, VA
Michelle Kroeker Executive Director Northern Virginia Affordable 
        Housing Alliance
Rees Shearer Chairman RAIL Solution Emory,VA
Sarah Lewontin Executive Director Bellwether Housing Washington
Tom Riddell Driver/Manager Transportation Centers, Inc. Vienna, VA
Frank Trosset Owner Bo Zahn Brewing Company
Lisa Guthrie Executive Director Virginia League of Conservation Voters 
        Richmond, VA
VERMONT
John Hickman Vice President
Meredith Birkett Acting General Manager CCTA Burlington, VT
Chapin Spencer Executive Director Local Motion Burlington, VT
Brian Searles Secretary of Transportation Vermont Agency of 
        Transportation Montpelier, VT
Christopher Parker Executive Director Vermont Rail Action Network 
        Vermont-wide, VT
                               washington
Craig M. Benjamin Policy and Government Affairs Manager Cascade Bicycle 
        Club Seattle, WA
Paula Hammond Secretary Washington State Department of Transportation 
        Olympia, WA
Catholic Housing Services Washington
Colman Director Childhood Obesity Prevention Coalition Seattle, WA
Sondra Nielsen Director of Consulting Services Common Ground Seattle, 
        WA
Linda Hugo Executive Director Community Frameworks Bremerton, WA
Todd Morrow Chief, Strategic Communications Community Transit Everett, 
        WA
MJ Kiser Program Director Compass Housing Alliance Seattle, WA
Hilary Franz Executive Director Futurewise Washington
Michelle Morlan Director National Development Council Seattle, WA
Mark Rupp Director, Washington, DC Office Gov. Chris Gregoire (WA) 
        Olympia, WA
Harry Hoffman Executive Director Housing Development Consortium of 
        Seattle-King County Seattle, WA
Paul Bay Principal Paul N. Bay, P.E., Transportation Consultant 
        Redmond, WA
Sherwin Lee Associate Editor Seattle Transit Blog Seattle, WA
Marchelle Mertens Affordable Housing Associate Imagine Housing 
        Kirkland, WA
Joni Earl Chief Executive Officers Sound Transit Seattle, WA
David Leard Principal Consultant InfraConsult LLC Seattle, WA
Kristin Ryan Director Jonathan Rose Companies Seattle, WA
Dow Constantine King County Executive King County Seattle, WA
Matt Sullivan Associate Mithun, Inc. Seattle, WA
Erika Straus-Bowers Resident Services Manager Mt. Baker Housing 
        Association Seattle, WA
Connie Brown Executive Director Tacoma Pierce County Afffordable 
        Housing Consortium Tacoma, WA
Andrew Austin Field Director Transportation Choices Seattle, WA
Dan Burden Executive Director Walkable and Livable Communities 
        Institute Port Townsend, WA
Elizabeth Rinehart Project Manager Walsh Constructon Co Seattle, WA
Jane Moore Executive Director Washington Coalition for Promoting 
        Physical Activity Tacoma, WA
Dulcie Claassen Vice President Washington Community Reinvestment 
        Association Seattle, WA
Sasha Rosen WashPIRG Organizing Director Washington Public Interest 
        Research Group
Melinda Giovengo Executive Director Youth Care Seattle, WA
                               wisconsin
Steve Hiniker Executive Director 1000 Friends of Wisconsin Madison, WI
Michael H. McCoy President All Aboard Wisconsin Madison, WI
Tim J. Sheehan Executive Director CIL for Western Wisconsin Menomonie, 
        WI
Lynn Gilles Transit Manager Fond du Lac Area Transit Fond du Lac, WI
Susan De Vos President Madison Area Bus Advocates Madison, WI
Christopher Spahr Planning Associate Michael Baker Jr., Inc. Wisconsin
Milwaukee Transit Riders Union Milwaukee, WI
Joyce Tang Boyland Coordinator New Urban Friends Milwaukee, WI
Jennifer Wenzel Secretary NFB of Wisconsin Janesville, WI
Daniel Mager Principal Staples Marketing Pewaukee, WI
Deborah Wetter General Manager Valley Transit Appleton, WI
Jay Timmerman Member at large Wisconsin Association of Rail Passengers 
        Middleton, WI
Robert Fisher Secretary Wisconsin Association of Railroad Passengers La 
        Crosse, WI
Kyle Bailey Program Associate WISPIRG Madison, WI
                             west virginia
The Honorable Mayor John Manchester City of Lewisburg, West Virginia 
        Lewisburg, WV
John David Executive Director Southern Appalachian Labor School Oak 
        Hill, WV
Gary Zuckett Executive Director WV Citizen Action Group Charleston, WV
                                wyoming
Josh Jones Traffic Engineer Wyoming Local Technical Assistance Program 
        Laramie, WY

    [The prepared statement of the American Road and 
Transportation Builders Association (ARTBA) may be accessed at 
the following Internet address:]

                      http://db78bc60e308ad8dc7c2-
    6f6534a35fc09b927eb00e4333a7f4cf.r47.cf2.rackcdn.com/uploaded/a/
            0e2130933_artba-highway-trust-fund-statement.pdf

       Question Submitted for the Record by Hon. Earl Blumenauer,
         a Representative in Congress From the State of Oregon

Context
                              ms. kavinoky
    Business is looking end to end at trips. So if we are talking about 
supply chains, global supply chains, I talk to major retailers who say, 
``Look, I do not want to debate about highways or transit, I do not 
want to discuss what is going on in 50 different states. What I need to 
know is can I get my product from its point of origin to its shelves, 
and how efficient that is.''
    One of the things that we have done at the Chamber is created 
something called the Transportation Performance Index that measures, 
among other things, mobility. And we are looking at the system as a 
whole. We are looking at roads, rails, runways, rivers, the whole deal. 
Because performance is not just about mode by mode by mode; it is how 
they work together, it is how they complement each other, it is how 
they provide substitute so that you have options for transportation in 
terms of cost efficiency, time, the relative needs that people have. 
And mobility is a question that is not just an issue in urban areas.
    I think during the SAFETEA-LU debate we heard a lot about mobility 
in solving urban problems. I was in Bloomington, Illinois last week 
where they talked extensively about the importance of their transit 
system, and the fact that their transit system is something that 
companies like State Farm, Mitsubishi, and the universities in that 
area demand. And they are leveraging public dollars to invest in that 
system. And it is about mobility, even in that midsized area.
Question
                             mr. blumenauer
    I appreciate your referencing that. Indeed, as we get out of the 
metropolitan areas, mobility for the disabled, for elderly people, for 
young becomes even more critical. Mr. Chairman, I would ask that our 
colleagues who are talking about the potential of devolving this system 
over time, and your reference to letting more of these decisions be 
made at the state and local level, I would hope that you could share 
with us any research you have. There is a time to elaborate in a 
minute, but research you have that indicates that local governments are 
going to be interested in making substantial investments to facilitate 
freight movements for the nation as opposed to speaking to complaints 
and problems that people have locally. They may be able to tell you 
about State Highway 137, but if we are talking about that 
interconnectiveness, I can tell you as a former local official for 18 
years responsible for transportation in Portland, they were not so much 
concerned about the throughput of freight, they were concerned about 
localized items that we tended to over invest in, and it was a struggle 
to have the commitment to freight and the larger issues. So if you can 
find some research that indicates that that system could work 
effectively, I would be very interested in it, because it is certainly 
not my experience. Thank you, Mr. Chairman.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


       Mr. Poole's Response to Questions Submitted for the Record

    Question 1 (Rep. Bill Pascrell, Jr.): Do you see barriers to entry 
for private-sector operators like the motorcoach industry in accessing 
federally supported transportation facilities?

    Answer: The motorcoach industry is an under-appreciated 
transportation resource for inter-city travel (and potentially for 
longer-distance urban transit). To the best of my knowledge there is no 
federal policy to ensure that airports (which receive federal AIP 
grants) and highways (which receive FHWA grants for projects such as 
HOT lanes and express toll lanes) ensure non-discriminatory access for 
motorcoach operators. In some cases, motorcoach providers are serving 
airport terminals directly, on the same basis as local transit buses, 
but this is not universally the case. Likewise, HOT lanes and express 
toll lanes on freeways almost always provide access for local transit 
buses at no charge, but some apparently do not permit (or charge tolls 
to) motorcoach operators. Given the important role that the motorcoach 
industry already plays in inter-city passenger transportation, and the 
role that it could play in providing regional express bus service in 
large metro areas, federally supported airports and highways should 
provide equal access for motorcoaches and public-sector buses.

    Question 2 (Rep. Earl Blumenauer): Please share research showing 
that [state and] local governments are going to be interested in making 
substantial investments to facilitate freight movements for the nation 
as opposed to problems that people have locally.

    Answer: In our current funding system, most goods-movement projects 
make use of some mix of local, state, and federal funding. But I see 
increasing willingness of state and local governments to initiate and 
significantly fund goods-movement projects with national benefits. Here 
are some examples from the past decade.
    Alameda Corridor: This $2.4 billion project was proposed by the Los 
Angeles County MTA and funded with a combination of local and state 
resources plus a federal loan that was repaid early. It replaced 
several rail lines between the ports and downtown Los Angeles with a 
multi-railroad trench, eliminating numerous grade crossings and thereby 
speeding the movement of container trains as well as local roadway 
traffic. The largest single component of its funding was $1.16 billion 
in revenue bonds, being repaid by railroad user fees. Another $400 
million was from a U.S. DOT loan, and $412 million from the Ports of 
Long Beach and Los Angeles. LACMTA put in $347 million, portions of 
which came from various state and federal programs.
    US 460, Virginia: This project is under way by Virginia DOT as a 
$1.4 billion nonprofit public-private partnership. It is providing a 
toll road to link the ports at Hampton Roads to I-95 at Petersburg and 
on to Richmond. Although the toll road will serve cars as well as 
trucks, its primary purpose is to facilitate the movement of trucks 
serving the port terminals.
    Port of Miami Tunnel: Under a $1 billion public-private 
partnership, Florida DOT along with the City of Miami and Miami-Dade 
County are well along on a tunnel to provide a direct connection 
between the Port and the region's Interstate highways. In addition, the 
Port and Florida East Coast Railway are upgrading rail access to the 
Port. FDOT and the Port have committed to funding channel deepening to 
50 feet, to ensure that this project proceeds whether or not Congress 
provides federal funding.
    CREATE Program: This $3.2 billion program aims to unsnarl freight 
rail, passenger rail, and roadways in the Chicago area, via 70 
projects. As of May 2013, 17 of the projects have been completed, 12 
more are under construction, and 19 are in detailed planning, with the 
remaining 22 still seeking funding. Thus far, funding has come from 
railroads, the City of Chicago, the State of Illinois, and the federal 
government, but the project was initiated and is being carried out as a 
local public-private partnership.
    These are a few of many examples. A common theme is that these 
projects provide national freight-movement benefits while also 
addressing local problems.

    [Whereupon, at 11:50 a.m., the Committee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
